<html>
<title> - TREATY ON STRATEGIC OFFENSIVE REDUCTION: THE MOSCOW TREATY</title>
<body><pre>[Senate Hearing 107-622]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-622
 
       TREATY ON STRATEGIC OFFENSIVE REDUCTION: THE MOSCOW TREATY
=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                 JULY 9, 17, 23, and September 12, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                       U. S. GOVERNMENT PRINTING OFFICE
81-339                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia
                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)







                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Hearing of July 9, 2002

Powell, Hon. Colin L., Secretary of State........................     5
    Prepared statement...........................................    12
Responses to Additional Questions Submitted for the Record to 
  Secretary Powell by the Committee..............................    50

                        Hearing of July 17, 2002

Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    89
    Prepared statement...........................................    90
Rumsfeld, Hon. Donald H., Secretary of Defense...................    76
    Prepared statement...........................................    84
Responses to Additional Questions Submitted for the Record to 
  Secretary Rumsfeld and General Myers by the Committee..........   115

                        Hearing of July 23, 2002

Adelman, Hon. Ken, Former Director of the Arms Control and 
  Disarmament Agency, Host of DEFENSECENTRAL.com.................   145
Christiansen, Father Drew, S.J., Counselor, International 
  Affairs, U.S. Conference of Catholic Bishops...................   163
Gaffney, Frank J. Jr., President and CEO, Center for Security 
  Policy, Washington, D.C........................................   180
    Prepared statement...........................................   185
Habiger, Gen. Eugene E., USAF (Ret.), Former Commander, U.S. 
  Strategic Command, United States Air Force.....................   138
    Prepared statement...........................................   142
Nunn, Hon. Sam, Co-Chair and Chief Executive Officer, Nuclear 
  Threat Initiative..............................................   127
    Prepared statement...........................................   133
Paine, Christopher E., Co-Director, Nuclear Warhead Elimination 
  and Nonproliferation Project, Natural Resources Defense Council   166
    Prepared statement...........................................   171
Responses to Additional Questions Submitted for the Record to 
  Hon. Sam Nunn by the Committee.................................   198
Responses to Additional Questions Submitted for the Record to 
  General Eugene E. Habiger by the Committee.....................   200

                     Hearing of September 12, 2002

Goodby, Hon. James E., Non-Resident Senior Fellow, Foreign Policy 
  Studies, the Brookings Institution, Washington, D.C............   226
    Prepared statement...........................................   229
Gottemoeller, Hon. Rose, Senior Associate, Russian and Eurasian 
  and Global Policy Programs, Carnegie Endowment for 
  International Peace, Washington, D.C...........................   218
    Prepared statement...........................................   220
Holdren, John P., Ph.D., Teresa and John Heinz Professor of 
  Environmental Policy and Director, Science, Technology, and 
  Public Policy Program, Belfer Center for Science and 
  International Affairs, John F. Kennedy School of Government, 
  Harvard University.............................................   235
    Prepared statement...........................................   239
Ikle, Hon. Fred C., Distinguished Scholar, Center for Strategic 
  and International Studies, Washington, D.C.....................   207
    Prepared statement...........................................   208
Perry, Hon. William J., Berberian Professor and Senior Fellow, 
  Institute for International Studies, Stanford University.......   205
    Prepared statement...........................................   206
Sokolski, Henry D., Executive Director, Nonproliferation Policy 
  Education Center, Washington, D.C..............................   247
    Prepared statement...........................................   249

                                Appendix

Documents Relating to the Treaty Between the United States of 
  America and the Russian Federation on Strategic Offensive 
  Reductions, Signed at Moscow on May 24, 2002

Text of the Treaty Between the United States of America and the 
  Russian Federation on Strategic Offensive Reductions...........   263
Letter of Transmittal............................................   266
Letter of Submittal..............................................   268
Article-by-Article Analysis of the Treaty Between the United 
  States of America and the Russian Federation on Strategic 
  Offensive Reductions...........................................   270


      TREATY ON STRATEGIC OFFENSIVE REDUCTIONS: THE MOSCOW TREATY

                              ----------                              


                         TUESDAY, JULY 9, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                           Washington, D.C.
    The committee met, pursuant to notice, at 10:32 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., [chairman] presiding.
    Present: Senators Biden [presiding], Dodd, Kerry, Feingold, 
Nelson of Florida, Lugar, Hagel, Chafee, and Allen.
    The Chairman. The hearing will come to order. It is a 
genuine pleasure to have the Secretary of State back before us. 
I might state for the record that I have been here for a lot of 
Secretaries of State and seven Presidents, and this is a man 
who when he tells you he is going to do something he does it. 
He said he would be available to the committee. Obviously, this 
hearing is something for which any Secretary of State would be 
available. I just want the record to show that I personally 
appreciate not only his willingness to testify as often as he 
has, but also his ability to help the hearing reporter. There's 
a Secretary of State, I tell you.
    Secretary Powell. I do not want him to miss a word.
    The Chairman. The thing I am most happy about is he is not 
running for the U.S. Senate in Delaware.
    But I do want to thank you personally, Mr. Secretary. Never 
once have I ever called you and you have not responded. You 
always are available and keep me and the committee informed. So 
let me say again good morning and welcome.
    Today the committee begins its consideration of the 
Strategic Offensive Reductions Treaty (SORT), which the 
President submitted to the Senate on June 20 for its advice and 
consent to ratification. On July the 17 we will take testimony 
from the Secretary of Defense Donald Rumsfeld and General 
Richard Meyers, Chairman of the Joint Chiefs of Staff. Later 
hearings on July 23 and September 12 will feature outside 
experts.
    The treaty signed in May by Presidents Bush and Putin is a 
very important step forward in U.S.-Russian relations and 
toward a more secure world. Cutting the number of each 
country's deployed strategic nuclear warheads from 
approximately 6,000 to between 1,700 and 2,200 moves us another 
step away from the cold war preparations for massive nuclear 
exchange. I applaud the Secretary in particular and President 
Bush in particular for their leadership on this issue and the 
President for his partnership with President Putin and his 
willingness to codify this agreement in a binding treaty, as 
the ranking member Senator Helms and I had encouraged.
    I must note to my colleagues anecdotally, when we were at 
the Police Memorial function which the President attended, I 
was on the stage and as the President walked up after having 
signed the treaty, he grabbed my hand, and said ``Well, you got 
your treaty. Now you owe me.'' That's the reason why he is not 
only a good President, but a very good politician.
    I do not think I owe him, but I thank the President and the 
Secretary of State for making the case this should be in the 
form of a treaty. A lot of people forget now this was a 
question at one point.
    At the same time, there are aspects of the treaty that I 
would like very much during these hearings to explore. For 
example, the treaty allows the Russians to place multiple 
warheads on intercontinental ballistic missiles, which is 
contrary to longstanding U.S. arms control goals. Multiple 
warhead ICBM's are a cheap way to maximize Russian forces, but 
they are vulnerable because an attacker can destroy those 
warheads with only one or two of its own. Russia therefore is 
likely to keep those missiles on hair trigger. I would like to 
talk about why that seems not to be as relevant as it was 
earlier.
    The treaty sets no schedule for reductions and provides no 
new tools to verify each side's compliance. Russia cannot 
afford, as we all know, to maintain the strategic forces, but 
without U.S. transparency, however, a weakened Russia could 
fear a U.S. attack and keep a nervous finger on the remaining 
launch buttons. I would like to talk a little bit about that.
    Mr. Secretary, as you see, I have some concerns, and we 
have discussed them privately. Senator Lugar and I had a chance 
to talk to the President of the United States for about an hour 
or so, he and the Vice President, and we raised different 
concerns and some of the same concerns about the nature of the 
treaty, what it contains, what it means, and what it does not 
do.
    For example, why does the treaty have no verification 
provisions? What is the meaning of Article II, which appears 
only to acknowledge the obvious existence of the START Treaty? 
How does the administration expect each party to verify the 
other party's reductions? What implications flow from the lack 
of any timetable in the treaty for reductions prior to December 
31, 2012? Since the treaty is scheduled to expire on the first 
day that its force reduction requirement takes effect, how 
binding will it be in practice?
    Why does the treaty not limit tactical nuclear weapons, 
which are the most susceptible to theft? Finally, should the 
United States help Russia secure and eliminate its warheads 
downloaded from delivery vehicles pursuant to this treaty under 
the auspices of the Cooperative Threat Reduction Program, 
something that Senator Lugar, as they say, has forgotten more 
about than most people know, and I think has raised in other 
contexts.
    Should we provide such assistance even if Russia, like the 
United States, chooses not to eliminate many of its warheads?
    I would remind our audience, since Secretary Powell is well 
aware, that the testimony that he will give today, as well as 
the letters and analysis that the President provided to the 
Senate with the treaty, will become part of the authoritative 
record regarding the meaning and legal effect of the text of 
this treaty. For the last decade, the Senate has insisted upon 
this understanding with both Republican and Democratic 
Presidents.
    President Bush, by signing the Treaty on Strategic 
Offensive Reductions, has given us a good start, but I believe 
this is only a first step in fulfilling the promise for a more 
secure future. It is my hope that today's hearing with 
Secretary Powell and following hearings that the committee will 
hold this month and in September will enable the Senate and the 
administration to chart a clear path to strategic stability, 
arms reductions and nonproliferation in the coming decade.
    In the interest of time, I will stop here; but again thank 
the Secretary for his good work. It is my intention, Mr. 
Secretary, as I told the President, to move as expeditiously as 
we can. I would like very much for the Senate to have this up 
before it and to vote on it and ratify this before we leave for 
this cycle, and that is my hope and my expectation. I thank you 
for being our first witness.
    I yield to Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman, for beginning the 
committee's review of the Moscow Treaty in such a timely 
manner. The treaty was signed on May 24, transmitted to the 
Senate on June 20, and the committee's consideration is 
beginning a little more than 2 weeks later. If we continue at 
this pace, surely ratification and exchanges of instruments of 
ratification are possible before the end of the year.
    On May 1, 2001, in a speech at the National Defense 
University, President Bush signaled his intention to forge a 
new relationship with Russia. The President called for a new 
strategic framework to transform our relationship with Russia 
``from one based on a nuclear balance of terror to one based on 
common responsibilities and common interests.''
    Less than 8 months later, President Bush announced his 
intention to reduce our nuclear levels unilaterally and invited 
Russian President Putin to implement similar reductions. This 
was the beginning of a process that led to a treaty signing 
during the summit in Moscow. The Moscow Treaty reduces 
operationally deployed strategic nuclear warheads to a level 
between 1,700 and 2,200 by December 31, 2012, and this is a 
tremendous accomplishment. It deserves the full support of the 
Senate and the Russian Duma. I believe this treaty marks an 
important step toward a safer world.
    I remember well visiting the START I and START II treaty 
negotiations. The U.S. and the Soviet Union faced off against 
each other across conference tables for years and they produced 
multi-volume treaties and verification annexes that describe in 
minute detail the requirements mandated by the treaties. The 
Moscow Treaty recognizes that the U.S.-Russian relationship has 
turned the corner and our countries are no longer mortal 
enemies engaged in worldwide cold war. Our agreements need not 
be based on mutual suspicion or an adversarial relationship. We 
are partners in the war against terrorism. We continue to build 
a strong military and security partnership. The Moscow Treaty 
reflects the changing nature of that relationship.
    In the past critics of international treaties have sought 
to circumscribe treaty provisions they alleged would weaken and 
unduly expose U.S. security. Critics of the Moscow Treaty have 
chosen a different tactic. They suggest the treaty has not gone 
far enough and claim an opportunity was lost. The lack of a 
voluminous verification system, the absence of requirements to 
dismantle warheads under the treaty, the lack of a reduction 
schedule, the failure to address tactical nuclear weapons are 
often cited as critical flaws.
    To be sure, the treaty could have been more expansive, 
rigid, and demanding and we could have followed the cold war 
template for arms control negotiations and entered into a 
multi-year discussion process. But that did not serve the 
interests of either side.
    Furthermore, the treaty cannot be the answer to all the 
challenges we face. If we had sought to construct such an 
agreement, it would surely have been crushed under its weight.
    I share some of the concerns and fears expressed by the 
critics. For instance, what happens to the nuclear warheads 
taken from dismantled Russian delivery systems? I am confident 
in U.S. storage and appreciate the flexibility it permits in 
our strategic systems, but I am concerned with the parallel 
Russian process. We must work with Russia to make certain that 
these dangerous weapons do not fall into the wrong hands.
    However, there are readily available means to address those 
deficiencies. Furthermore, without U.S. assistance Russia 
cannot meet the timetable of its obligations under this treaty. 
The primary vehicle for cooperation in reducing weapon levels 
set by the Moscow Treaty and addressing the threat posed by 
warhead security will be in my judgment the Nunn-Lugar 
Cooperative Threat Reduction Program. Without Nunn-Lugar it is 
unlikely that the benefits of this treaty will be realized.
    My concerns about treaty implementation are compounded, 
unfortunately, by the current impasse we face over the Nunn-
Lugar certification process. Each year our President is 
required by law to certify to Congress Russia is committed to 
goals of arms control. This year the administration requested a 
waiver to this condition, pointing out that unresolved concerns 
in the chemical and biological arenas made this difficult.
    In the meanwhile, existing Nunn-Lugar activities and 
projects may continue, but no new projects can be started and 
no new contracts can be finalized. President Bush has requested 
a permanent annual waiver so that Nunn-Lugar can continue its 
important work. There are some in Congress who prefer just a 1-
year waiver or no waiver at all. Without a permanent waiver, 
the President would be forced to suspend dismantlement 
assistance each year on the pending issues and on the Moscow 
Treaty as I read it, until Congressional action came to 
activate the waiver.
    This could lead to delays of up to 6 months or more, as we 
are experiencing this year. Let me assure my colleagues this is 
not a hypothetical situation. It is happening right now. It has 
been more than 5 years since the United States and Russia each 
ratified the Chemical Weapons Convention, but no Russian 
chemical weapons are being destroyed. It is 5 years later. 
There are submarines awaiting destruction at the Kola 
Peninsula, regiments of SS-18's loaded with 10 warheads apiece 
standing in Siberia, almost 2 million rounds of chemical 
weapons in relatively small and discrete shells awaiting 
elimination at Shchuchye.
    But can Nunn-Lugar hire American firms to dismantle these 
weapons? The answer is no. We must wait, watch these dangerous 
weapons systems sit in their silos, float next to the docks, or 
sit on the tarmac while the conference process between the two 
houses of Congress continues on the defense authorization bill.
    Without the granting of a permanent waiver, the current 
situation will recur frequently in the years ahead. This could 
delay full implementation of the Moscow Treaty far beyond the 
envisioned 10-year time period. If Nunn-Lugar is suspended for 
6 months each year, it could take 20 years, not 10, to 
dismantle the Russian weapons covered by the treaty.
    In conclusion, Mr. Chairman, the treaty is important. It is 
a tremendous step in the right direction. The treaty alone is 
insufficient to meet our security needs. As you pointed out, we 
were blessed by a meeting with the President, the Vice 
President, Condoleeza Rice, Andy Card, and the two of us in 
which we discussed these issues in the same way that I am 
discussing them publicly today.
    The Chairman. You were even a little more forceful then.
    Senator Lugar. I would simply say that I share the 
enthusiasm of the Chairman to work with you and with the 
President for ratification of this treaty. At the same time, we 
pointed out to the President that the treaty is not self-
enforcing and will not happen by chance, and that the methods 
of bringing it to a conclusion are important, and that we 
appreciate very much your appearance today in giving your 
views.
    The Chairman. Mr. Secretary, I want the record to reflect 
that I would like to associate myself with the remarks of the 
Senator from Indiana. My instinct is that there are many in the 
administration who feel as strongly as he does and maybe we can 
talk about that as we go down the line here.
    The floor is yours, Mr. Secretary. Again, welcome. It is an 
honor to have you back.

               STATEMENT OF HON. COLIN L. POWELL,
                       SECRETARY OF STATE

    Secretary Powell. Thank you very much, Mr. Chairman and 
members of the committee. It is always a pleasure to appear 
before the Senate Foreign Relations Committee, and I thank you 
for your warm welcome.
    I am accompanied by members of my staff as usual, but I 
particularly want to single out Under Secretary John Bolton, 
who is here with me this morning and who was a principal 
negotiator on the Moscow Treaty, and through this means to 
thank John and the members of his staff, many of whom are 
present here, for the fine work that they did in bringing this 
treaty into being.
    I am pleased to appear before the committee to seek its 
support for the treaty between the United States of America and 
the Russian Federation on Strategic Offensive Reductions, known 
as the Moscow Treaty, signed in Moscow on May 24, 2002. The 
Moscow Treaty marks a new era in the relationship between the 
United States and Russia. The treaty codifies both countries' 
commitment to make deep strategic nuclear weapons reductions in 
a flexible and legally binding manner.
    The treaty transitions us from strategic rivalry to a 
genuine strategic partnership based on the principles of mutual 
security, trust, openness, cooperation, and predictability. The 
Moscow Treaty is one important element of a new strategic 
framework which involves a broad array of cooperative efforts 
in political, economic, and security areas.
    Let me take a moment and outline for you the essential 
parts of the treaty. The United States and Russia both intend 
to carry out strategic offensive reductions to the lowest 
levels possible consistent with our national security 
requirements, alliance obligations, and reflecting the new 
nature of our strategic relations.
    The treaty requires the United States and Russia to reduce 
and limit our operationally deployed strategic nuclear warheads 
to between 1,700 and 2,200 each by December 31st, 2012, a 
reduction of nearly two-thirds below current levels. The United 
States will implement the treaty by reducing its operationally 
deployed strategic nuclear warheads to between 1,700 and 2,200 
through removal of warheads from missiles in their launchers 
and from heavy bomber bases and by removing some missile 
launchers and bombers from operational service.
    For purposes of this treaty, the United States considers 
operationally deployed strategic nuclear warheads to be reentry 
vehicles on intercontinental ballistic missiles and their 
launchers, reentry vehicles on submarine-launched ballistic 
missiles and their launchers on board submarines, and nuclear 
armaments loaded on heavy bombers or stored in weapons storage 
areas of heavy bomber bases.
    In addition, a small number of spare strategic nuclear 
warheads are located at heavy bomber bases. The United States 
does not consider these spares to be operationally deployed 
strategic nuclear warheads. In the context of this treaty, it 
is clear that only nuclear reentry vehicles as well as nuclear 
armaments are subject to the 1,700 to 2,200 limit.
    The Strategic Arms Reduction Treaty, or START, continues in 
force unchanged by this treaty. In accordance with its own 
terms, START will remain in force until midnight December 5, 
2009, unless it is superseded by a subsequent agreement or 
extended. START's comprehensive verification regime will 
provide the foundation for confidence, transparency, and 
predictability in further strategic offensive reductions. As 
noted in the May 24 joint declaration on new strategic 
relationship, other supplementary measures, including 
transparency measures, may be agreed in the future.
    The treaty also establishes a bilateral implementation 
commission, a diplomatic consultative forum that will meet at 
least twice a year to discuss issues related to the 
implementation of the treaty. This commission will be separate 
and distinct from the consultative group for strategic 
security. This group was established by the joint declaration 
of May 24 and will be chaired by foreign and defense ministers, 
with the participation of other senior officials, and will be a 
broader forum to discuss issues of security significance and to 
enhance mutual transparency.
    The treaty will enter into force on the date of the 
exchange of instruments of ratification. It is to remain in 
force until December 31st, 2012, and may be extended by 
agreement of the parties or superseded earlier by a subsequent 
agreement.
    The treaty also provides that each party, exercising its 
national sovereignty, may withdraw from the treaty upon 3 
months written notice to the other party.
    Mr. Chairman, I believe the Moscow Treaty is fully 
consistent with the President's promise to achieve a credible 
deterrent with the lowest possible number of nuclear weapons 
consistent with our national security requirements. The treaty 
reduces by two-thirds the number of strategic nuclear warheads 
available for ready use while preserving America's ability to 
respond promptly to changing future situations.
    These nuclear force reductions will not be accomplished 
within the old cold war arms control framework. Instead, the 
Moscow Treaty reflects the emergence of a new strategic 
relationship between the United States and Russia. We 
understand that this new relationship is still a work in 
progress. Russia is an emerging partner with the United States 
on a broad range of issues where we have increasingly shared 
interests and values.
    But Russia's relationship with the United States is not yet 
comparable to the relationship America has with its nuclear-
armed allies, Britain and France. Russia's transformation to a 
democracy and a market economy still faces a number of 
challenges, and its interests and those of the United States 
may not always coincide.
    We understand there is work to be done if we are to fully 
implement the joint declaration. But our new strategic 
relationship gives us a strong foundation to stand upon, one 
that will allow us to discuss our differences candidly and work 
to resolve them in a constructive manner.
    The Congress also has an important role to play in 
furthering development of a new strategic relationship with 
Russia. There are a number of issues where we need the 
Congress' help in doing our part. We need the Congress to end 
Jackson-Vanik's application to Russia, to authorize permanent 
normal trading relations status for Russia, and to waive 
Cooperative Threat Reduction certification requirements that 
are so important to the programs that Senator Lugar just spoke 
to.
    The Senate's approval of the Moscow Treaty will also make 
an important contribution to the strengthening of our new 
relationship.
    Mr. Chairman, by deeply reducing our strategic nuclear 
warheads while preserving both Russia's and America's 
flexibility to meet unforeseen contingencies, the Moscow Treaty 
will enhance the national security of both countries and I 
strongly recommend that the Senate give its advice and consent 
to its ratification at the earliest possible date.
    Mr. Chairman, I have a longer statement which I would like 
to provide for the record, and with your permission I would 
also like to add another little personal P.S. to this opening 
presentation.
    The Chairman. Without objection.
    Secretary Powell. Mr. Chairman, this is a different treaty 
in a different world than the world I knew so well as a 
soldier. Last night I was trying to remember how many times I 
have appeared before this committee on the ratification of a 
treaty and I got lost somewhere between four and five times: 
INF, CFE, START I, Protocol to PNET, Protocol to TDBT, a number 
of agreements that I have come up here and spoke to.
    What all of those agreements had in common was that they 
were products of the cold war, a reflection of the cold war, a 
reflection of the world that I knew as a soldier for 35 years, 
a world that I could summarize for you with a little anecdote 
of my experience as a corps commander in Germany. I commanded 
75,000 soldiers and I was astride the Fulda Gap, the narrowest 
corps area in all of NATO from the north to the south, right in 
the center of Germany.
    I was opposed across the Fulda Gap by the Eighth Guards 
Army of the Soviet Union, commanded by Major General Achelov. 
Achelov knew me and I knew Achelov. We had our pictures on each 
other's desks, we determined later when we got to know each 
other in a more informal manner. I knew exactly what his plans 
were and he knew how I would try to defend my Fifth Corps in 
central Germany from his attack, because his army would be 
followed by another army and then a third army and then 
additional armies that would come in from Russia. I only had my 
one corps, waiting to be reinforced by units coming from the 
United States.
    It was a war that would be intense. It would start out 
conventionally, and if I did not succeed in those first few 
days, the first week or so, in stopping General Achelov's 
Eighth Guards Army and the reinforcing armies behind his, then 
he and those reinforcing armies might reach Frankfurt, my corps 
headquarters. Once they got to Frankfurt, it was an easy shot 
down the river to the bridges across the Rhine at Weisbaden, 
and at that point NATO would have been split pretty much in 
half.
    My plan was to defend conventionally with the two divisions 
and the cavalry regiment I had to the best of our ability. We 
were going to give it a hell of a fight. But we fully expected 
that somewhere before that first week was up I would start to 
have to consider the use of tactical nuclear weapons in order 
to break up those formations that were coming at me.
    I had tactical nuclear weapons within my corps. I also had 
plans to ask for the release of not only those weapons, but 
other weapons, the GLCM's and the Pershings that we had put in 
there in the early eighties, knowing that sooner or later, if 
this continued up this horrible chain of circumstances, it 
could result in thermonuclear exchange of the highest order, 
strategic weapons going across the Atlantic to the East and 
coming back to the West from the Soviet Union.
    It was a scenario that I had to live with, we all had to 
live with, we all had to work with. But it was a terrifying 
scenario and one that no person in his right mind, soldier or 
civilian, could have ever wanted to see unfold. It was a 
disastrous situation.
    We contained it. We managed it. We deterred, both sides 
deterred the other. In fact, it was us who were deterring the 
Russians and they thought they were deterring us. At least that 
was their story and they were sticking with it. But it was 
really the other way around.
    After leaving my corps and then coming back and going to 
work for President Reagan as his Deputy, then National Security 
Advisor, I watched that whole world go up, just go away, with 
the realization that they would never defeat us militarily and 
they were losing economically. So the Soviet Union came to an 
end.
    But during all those years as we tried to manage this, as 
we tried to contain this, it was always a matter of getting a 
balance of horror between the two sides. It was always a matter 
of matching each other--countervalue, counterforce, tactical 
nukes, going to strategic nuclear exchange. It was all a matter 
of managing that.
    So we always had to match each other in one way or another. 
But then the cold war ended and we could do new things we never 
would have dreamed of. The INF Treaty was the first step in 
that direction, eliminating a whole class of nuclear weapons on 
both sides. Then we moved into START I with significant 
reductions, began START II with even more significant 
reductions.
    You may recall, Mr. Chairman and members of the committee, 
when President Bush unilaterally got rid of all of our tactical 
nuclear weapons except for a fairly small number of tactical 
nuclear weapons retained in the Air Force. We did that in just 
a matter of weeks because of the new environment presented to 
us by President Gorbachev and the situation that existed in the 
early nineties.
    So the nineties came and the nineties went, and President 
Bush came into office and we found a situation where both sides 
still had too many nuclear weapons for the kinds of dangers 
that one might see out there. President Bush gathered his 
advisers around him and he instructed us as follows: Find the 
lowest number we need to make America safe, to make America 
safe today and to make America safe in the future. Do not think 
of this in cold war terms, don't think in terms of how many 
more weapons do we have to have in order to make the rubble 
bounce even more.
    Don Rumsfeld and his colleagues in the Pentagon, my buddies 
in the Joint Chiefs of Staff and out in Omaha and the other 
headquarters and the theater commanders went to work on this, 
and they studied this simple proposition, this simple question 
posed by the President for months and they came up with an 
answer in the fall of last year.
    In the mean time, as Senator Lugar noted, President Bush on 
the 1st of May at the National Defense University last year 
gave a clear statement of his desire for a new strategic 
framework with the Russians that would involve strategic 
offensive reductions, missile defense activities, and the 
elimination of the ABM Treaty, which essentially was the 
barrier to a new strategic framework because we could not do 
missile defenses.
    It was a controversial speech, but it laid out a vision 
that really has come full circle and full flower. In the fall, 
the Pentagon produced their answer: somewhere between 1,700 and 
2,200 operationally deployed strategic weapons would serve U.S. 
interests now and into the future. We can safely go down to 
that level over a period of time while we watch a still 
uncertain world unfold before us.
    The important thing to remember here, we did ask the 
Russians, what number do you want to go to? We did not ask the 
Russians or say to the Russians: We are going to this number; 
do you want to go with us? We knew that the Russians were 
facing the same kind of challenge, and President Putin had 
indicated informally and in some statements that he was looking 
at a number even lower than that, down to 1,500. But it was not 
a matter of negotiation between the two sides as to what number 
we were going to come out at.
    What President Bush said when he got the number from the 
Pentagon and all the advisers agreed to that number and said 
this makes sense, he said to President Putin: This is where we 
are going. We are going there unilaterally. Come with us or 
not. Stay where you are or not. This is what the United States 
needs and it does not need it because you are an enemy; it 
needs this because of the nature of the world we live in, and 
we see you as a partner. So you can do whatever you think you 
have to do for your security. You can MIRV your missiles, you 
can keep more, you can go lower. Do what you think you need. 
This is what we know we need and we are going to this level.
    The Russians took all of this aboard. We had the most 
serious and intense discussions between the two parties, and in 
due course, a month after the Washington summit, President 
Putin responded. He responded a week or so after I had visited 
with him and told him that President Bush intended to announce 
his termination of the ABM Treaty. President Putin accepted 
that, did not like it, disagreed with it, thought it was the 
wrong decision, but accepted it.
    He said to me: We are nevertheless going to go forward and 
find a new strategic framework. We do not feel threatened by 
your leaving the ABM Treaty.
    We announced our withdrawal from the ABM Treaty and the 
very next day President Putin expressed his disagreement and 
displeasure that we had done that, said nevertheless he did not 
feel threatened, also said that he was anxious to develop a new 
strategic framework, and then matched the number by saying he 
too wanted to go down to 1,700 to 2,200.
    It would have been fine if both sides had proceeded 
unilaterally to go to those numbers. The Russians felt strongly 
that if it was a new relationship then let us make sure this 
relationship would exist over time, and therefore let us make 
this a legally binding agreement between the two nations. Let 
us make it last beyond one Presidency, let us make it last to 
some period in the future, let us give some confidence to our 
people that these are the acts, not just of two Presidents, but 
of two countries, two governments; let us have our two 
legislative bodies in whatever way they choose ratify this and 
make it binding in international law.
    That is what President Putin felt was appropriate. We 
considered it and President Bush in his desire to have this 
kind of strong partnership with the Russian Federation and with 
President Putin, agreed with that proposition and instructed me 
and Secretary Rumsfeld and his other advisers to work to 
accomplish that objective.
    We worked over a period of several months. As Senator Lugar 
and others have noted, it did not take forever. It is not 53 
volumes thick. It was straight and it was to the point. Its 
simplicity is reflective of the new world we are living in, 
simplicity in that it merely says these are the levels that 
both of us are going to, we each have declared what this level 
is and we will meet that level on December 31, 2012.
    Each of us will decide, based on our own needs, how we will 
get to that level, what the glide path will be. Maybe we will 
get to it much earlier than that. Maybe the Russians will go 
below it. Each side is able to choose and each side is able to 
decide how they want to distribute this number. It will be a 
finite number between 1,700 and 2,200 at some point. Maybe it 
will float in that range, but sooner or later it will be a 
number that settles between 1,700 and 2,200. They will decide, 
each side will decide, how to get there.
    We have the verification provisions of START which continue 
through 2009 and they are subject to be extended if both sides 
agree to that. So the verification provisions of the original 
START Treaty give us a lot with respect to transparency, with 
respect to what is going on, with respect to consultative 
bodies that discuss these issues, with respect to inspections.
    On top of that we have created in this treaty a bilateral 
implementation committee that will meet twice a year, or more 
often as necessary, to see how we are doing, to see what your 
plans are, to exchange plans, to exchange ideas, to see if we 
need more transparency to give us confidence.
    Then on December 31, 2012, the treaty will go out of 
effect, having on that date hit the limit. Now, it is unlikely 
it will unfold that way. I suspect before then we will have 
found out what that new limit is and will have worked down to 
it, and both sides might believe it useful to extend it beyond 
that 10-year period. So I would not focus so much on that 
particular day, because we have the opportunity to do more 
beyond that day.
    It is a treaty that I think makes sense. It is reflective 
of the new environment. There are things that it does not do. 
For example, it does not specifically eliminate warheads. No 
previous arms control treaty has done that. INF did not do it; 
START I did not do it; START II would not have done it if it 
had come into effect. So warhead accountability and destruction 
and disposition is an extremely complex matter that was not 
solved by previous, much more intensive arms control 
negotiations, and we did not try to solve it here.
    We believe that the Russians will act in the same way that 
we are going to act, and that is as we bring these warheads off 
these missiles or take these armaments away from their bombers 
we will store them securely as possible using hopefully even 
more money that we will get from Nunn-Lugar CTR actions as well 
as the new 10 plus 10 over 10, whatever else it takes to help 
the Russians make sure that theirs is secure.
    From that stockpile of secured warheads, many will be 
destroyed. I do not think there is any incentive on the part of 
either party to keep warheads that are not going to be needed, 
either as replacement warheads as warhead life expires or for 
whatever testing may be necessary to make sure the stockpile, 
non-explosive testing, to make sure the stockpile is safe and 
secure, or just to make sure that you have some little hedge in 
case something goes wrong.
    But I think it will be a safer and more secure world. The 
first step in the destruction of any warhead is take it off its 
missile, take it off its bomber, and then secure it as tight as 
we can to make sure it does not become a proliferating problem. 
Then we slowly get about the task of getting rid of those that 
are not needed, getting rid of the cost of maintaining an 
inventory that we do not need.
    There is no incentive to keep weapons we do not need, and I 
think that pressure will be there and certainly this committee 
and the other committees of Congress are in a position to apply 
the pressure.
    We did not deal with tactical nuclear weapons in this 
treaty because the treaty was not intended to do that. Tactical 
nuclear weapons remain an issue. Secretary Rumsfeld is 
particularly interested in this issue because, while we have 
not many left and we have complied with what we said we were 
going to do on a unilateral basis back in 1991 and 1992, the 
Russians still have quite a few in various states of repair, 
disrepair, need of maintenance, and operational. We will be 
pressing them in discussions. In the four-party discussions 
that I will be having with Secretary Rumsfeld and the two 
ministers Ivanov, Sergei Ivanov defense minister, Igor Ivanov 
my foreign ministry counterpart, these are the kinds of issues 
we will start the talk about: how can we get into the problem 
of theater nuclear weapons and how do we get a handle on this 
issue as well?
    This is more of a problem of proliferation, I would say, 
than are the strategic warheads. So all of these issues will 
have to be worked as part of moving forward. But this is a good 
treaty. It makes sense. It is reflective of the new 
relationship that exists between the Russians and the 
Americans, and it should be seen in that light and not measured 
against the cold war light, where everybody was trying to make 
sure we were absolutely in sync.
    Just keep in mind, what we are doing in this treaty we were 
going to do anyway. If there is something that has been gained 
from this treaty, it is whereas we have enormous transparency 
because of our open system and because of Congress watching and 
oversighting what our Pentagon and our defense activities do 
with respect to these kinds of programs, it was not quite the 
same thing on the Russian side. But with this treaty we 
probably have gained an opportunity for greater transparency 
and get a better handle on what they may be doing and enhance 
predictability.
    So I think this is a good treaty in that it serves both 
parties. Both parties get an advantage from this treaty; both 
parties benefit from the treaty. But above all, the world 
benefits, because no later than 31 December 2002 the levels 
that we now see will have been reduced to no more than the 
limits shown in this treaty, at least a two-third reduction, 
and nothing prevents either side from going lower should that 
be their choice.
    Mr. Chairman, with that I will stop and take your 
questions.
    [The prepared statement of Secretary Powell follows:]


         Prepared Statement of Secretary of State Colin Powell

    Mr. Chairman, members of the Committee, this is my tenth hearing 
since January. So you know how much I value these exchanges--and I am 
confident that you do as well.
    My appearance before your committee on this particular occasion has 
a more formal character than the previous nine. On this occasion I am 
pleased to appear before the Foreign Relations Committee to seek its 
support for the Treaty Between the United States of America and the 
Russian Federation on Strategic Offensive Reductions--the Moscow 
Treaty--signed at Moscow on May 24, 2002. By long tradition, the 
Secretary of State is the first member of the Administration to testify 
in support of treaties submitted to the Senate for its advice and 
consent.
    The Moscow Treaty marks a new era in the relationship between the 
United States and Russia. It codifies both countries' commitment to 
make deep strategic offensive reductions in a flexible and legally 
binding manner. It facilitates the transition from strategic rivalry to 
a genuine strategic partnership based on the principles of mutual 
security, trust, openness, cooperation and predictability. The Moscow 
Treaty is one important element of a new strategic framework, which 
involves a broad array of cooperative efforts in political, economic 
and security areas.
    On May  of last year, even before his first meeting with President 
Putin, President Bush outlined his vision of this new framework in a 
speech at the National Defense University (NDU). The President stated 
that, while the United States may continue to have areas of difference 
with Russia, we are not and must not be strategic adversaries. In that 
regard, President Bush said that he wanted to change our relationship 
from one based on a nuclear balance of terror, to one based on common 
responsibilities and interests. The strategic nuclear dimension of the 
framework the President laid out had several elements.
    The President made a commitment to achieving a credible deterrent 
with the lowest possible number of nuclear weapons consistent with our 
national security requirements, including our obligations to our 
allies, and stated that his goal was to move quickly to reduce our 
nuclear forces.
    He made clear his desire to leave behind the constraints of an ABM 
Treaty that not only was outdated but also perpetuated a relationship 
with Russia based on distrust and mutual vulnerability. President Bush 
declared that we should work together with Russia to replace the ABM 
Treaty with a new cooperative relationship that would leave behind the 
adversarial legacy of the Cold War.
    A little over fourteen months later, and after five meetings with 
President Putin, the President has acted on all of the elements of the 
strategic framework he proposed during his NDU speech and he has acted 
in a way that has significantly advanced our overall relationship with 
Russia. Let me briefly review that relationship to illustrate the 
broader context in which it now exists.
    The tragic events of September 11 brought to the forefront a major 
shared objective of the United States and Russia to combat terrorism. 
Pursuing that objective has had a positive impact on our relationship. 
President Putin was the first world leader to call President Bush on 
the morning of September 11. Less well known is the degree of trust and 
cooperation that was manifest that day, and in subsequent days, in our 
strategic interaction. The events of September 11 resulted in the 
United States briefly raising the alert, or DEFCON, level of our 
strategic forces, and, for a longer period, increasing Force Protection 
levels at our military bases, including those bases where our strategic 
forces are located. During the Cold War, any increase in alert levels 
by one side was likely to engender a reaction in kind because of mutual 
suspicions and distrust. It is a measure of the degree of transparency 
and trust that has developed in the United States-Russian relationship 
that President Putin felt no such need. In fact, to ensure there would 
be no miscalculation, the Russians let us know they were voluntarily 
suspending major elements of an ongoing strategic forces exercise and 
later agreed to our request to suspend temporarily some inspection 
activities under the START Treaty at bases that were placed under a 
heightened state of alert.
    The developing strategic relationship between the United States and 
Russia was also evident on December 13 of last year, when President 
Bush announced that the United States would withdraw from the ABM 
Treaty. Although Russia did not agree with our decision to withdraw, 
President Putin's response that same day was pragmatic in tone and 
recognized that the U.S. decision did not present a threat to Russia's 
security.
    As the United States-Russian relationship has broadened and 
deepened, the significance of U.S. withdrawal from the ABM Treaty has 
diminished. Our withdrawal has not spurred an arms race or undermined 
strategic stability. In fact, President Putin also used his December 13 
statement to call for reductions in strategic offensive weapons to 
between 1,500 and 2,200, thus responding positively to President Bush's 
announcement during the Washington/Crawford Summit that the United 
States would reduce its operationally deployed strategic nuclear 
warheads to a level between 1,700 and 2,200 over the next decade.
    Since December 13, Russia has focussed on how to move our bilateral 
relationship forward. The Joint Declaration on the New Strategic 
Relationship Between the United States and the Russian Federation that 
was signed on May 24 in Moscow reflects not only our agreement to deep 
reductions in strategic nuclear warheads, but also records our 
agreement to implement a number of steps aimed at increasing 
confidence, transparency, and cooperation in the area of missile 
defense.
    Moreover, strategic issues are only a part of the broader 21st 
Century relationship we are developing with Russia. Very early on 
Presidents Bush and Putin agreed that our new relationship would be 
broadly based--encompassing political, economic, and security 
components. The Joint Declaration reflected the significant progress we 
have made in all of these areas.
    On political issues we are already acting as partners in addressing 
many of the challenges we both now face. For example, the United 
States-Russia Working Group on Afghanistan has been invaluable in the 
war against terrorism. Its mandate has now been expanded to include 
other geographical areas and new and related threats and, as such, it 
has been renamed the Working Group on Counterterrorism.
    The United States and Russia are cooperating to transform 
Afghanistan into a stable and viable nation. To illustrate, the degree 
of cooperation with Russia on our efforts in Central Asia has been 
unprecedented. Moscow's support has included intelligence sharing, 
search and rescue assistance, and endorsement of Central Asian states' 
decision to accept our troop presence on their territories. Russia has 
even dispatched two military liaison officers to U.S. Central Command 
(USCENTCOM). We are also working together constructively to resolve 
regional conflicts, including those in Abkhazia, Nagorno-Karabakh, the 
Middle East and, most recently, in South Asia.
    Russia and NATO are also increasingly allied against regional 
instability and other contemporary threats. At the May 28 NATO-Russia 
Summit in Rome, we inaugurated a new NATO-Russia Council (NRC) which 
will allow NATO member states and Russia to work as equal partners in 
areas of common interest. The NATO Allies and Russia are ready to begin 
work in earnest on all of the NRC agenda items approved at the Rome 
Summit. Initial successes in the NRC will lay a basis for further 
expanding cooperation between NATO and Russia.
    The United States and Russia are also cooperating effectively on 
transnational issues other than terrorism such as dealing with illegal 
drugs and combating organized crime. For example, the entry into force 
of the Treaty on Mutual Legal Assistance in Criminal Matters earlier 
this year was a welcome step forward on the issue of fighting organized 
crime.
    Our cooperation in the economic sphere, and encouraging the 
development of an efficient market economy in Russia, are also high on 
our mutual agenda. We want to expand economic ties between the United 
States and Russia and further integrate Russia into the world economy 
with full rights and responsibilities. We support Russia's accession to 
the World Trade Organization. By holding Russia to the same standards 
we would any country seeking to join the WTO, we are reinforcing 
Moscow's broader economic reform efforts and helping Russia prepare for 
a larger role in the global economy. Success in our bilateral economic 
and trade relations also demands that we move ahead. The Department of 
Commerce's recent decision to treat Russia as a market economy under 
the provisions of U.S. trade law is an important step forward.
    Mr. Chairman, the Moscow Treaty is emblematic of our increasingly 
broader, cooperative relationship with Russia. Just as our relationship 
now has a fundamentally different basis, so the Moscow Treaty also 
represents a new way of doing business in the strategic nuclear realm.
    Let me take a moment and outline for you the essential parts of the 
Treaty.
                         reduction requirements
    As I indicated, the United States and Russia both intend to carry 
out strategic offensive reductions to the lowest possible levels 
consistent with our national security requirements and alliance 
obligations, and reflecting the new nature of our strategic relations. 
The Treaty requires the United States and Russia to reduce and limit 
our strategic nuclear warheads to between 1,700 and 2,200 each by 
December 31, 2012, a reduction of nearly two-thirds below current 
levels. The United States intends to implement the Treaty by reducing 
its operationally deployed strategic nuclear warheads to between 1,700 
and 2,200 through removal of warheads from missiles in their launchers 
and from heavy bomber bases, and by removing some missiles, launchers, 
and bombers from operational service.
    For purposes of this Treaty, the United States considers 
operationally deployed strategic nuclear warheads to be reentry 
vehicles on intercontinental ballistic missiles (ICBMs) in their 
launchers, reentry vehicles on submarine-launched ballistic missiles 
(SLBMs) in their launchers onboard submarines, and nuclear armaments 
loaded on heavy bombers or stored in weapons storage areas of heavy 
bomber bases. In addition, a small number of spare strategic nuclear 
warheads are located at heavy bomber bases. The United States does not 
consider these spares to be operationally deployed strategic nuclear 
warheads. In the context of this Treaty, it is clear that only 
``nuclear'' reentry vehicles, as well as nuclear armaments, are subject 
to the 1,700-2,200 limit.
                         relationship to start
    The Strategic Arms Reduction Treaty (START) continues in force 
unchanged by this Treaty. In accordance with its own terms, START will 
remain in force until midnight December 5, 2009, unless it is 
superseded by a subsequent agreement or extended.
    START's comprehensive verification regime will provide the 
foundation for confidence, transparency and predictability in further 
strategic offensive reductions. As noted in the May 24 Joint 
Declaration on the New Strategic Relationship, other supplementary 
measures, including transparency measures, may be agreed in the future.
                the bilateral implementation commission
    The Treaty establishes a Bilateral Implementation Commission (BIC), 
a diplomatic consultative forum that will meet at least twice a year to 
discuss issues related to implementation of the Treaty. The BIC will be 
separate and distinct from the Consultative Group for Strategic 
Security, established by the Joint Declaration of May 24, which will be 
chaired by Foreign and Defense Ministers with the participation of 
other senior officials and which will be a broader forum to discuss 
issues of strategic significance and to enhance mutual transparency.
          entry into force, duration, and right of withdrawal
    The Treaty will enter into force on the date of the exchange of 
instruments of ratification. It is to remain in force until December 
31, 2012, and may be extended by agreement of the Parties or superseded 
earlier by a subsequent agreement.
    The Treaty also provides that each Party, in exercising its 
national sovereignty, may withdraw from the Treaty upon three months' 
written notice to the other Party.
                       status of start ii treaty
    The START II Treaty, which was signed in 1993, and to which the 
Senate gave its advice and consent in 1996, never entered into force 
because Russia placed unacceptable conditions on its own ratification 
of START II. Russia's explicit linkage of START II to preservation of 
the ABM Treaty and entry into force of several agreements, signed in 
1997, which related to ABM Treaty succession and ABM/TMD demarcation, 
made it impossible for START II to enter into force. With signature of 
the Moscow Treaty, however, the United States and Russia have now taken 
a decisive step beyond START II that reflects the new era in United 
States-Russia relations.
               how we arrived at what you have before you
    Mr. Chairman, the Treaty you have before you is different from Cold 
War arms control agreements because:

  <bullet> It does not call for exact equality in numbers of strategic 
        nuclear warheads. It is no longer appropriate to size our 
        military capabilities against any single country or threat, and 
        the end of superpower competition and adversarial style arms 
        control negotiations has removed any political requirement for 
        strict parity.

  <bullet> It does not contain any sublimits or bans on categories of 
        strategic forces. The need for a highly regimented strategic 
        forces structure was the product of now outdated concepts of 
        strategic stability that were necessary when we needed to 
        regulate the interaction of the strategic forces of two hostile 
        nations to reduce the structural incentives for beginning a 
        nuclear war. Now we have nothing to go to war about.

  <bullet> The Treaty does not contain its own verification provisions. 
        United States security and the new strategic relationship with 
        Russia do not require such provisions.

    What you have before you is a Treaty that is both simple and 
flexible. Article I contains the single central obligation of the 
Treaty which is for the Parties to reduce and limit their strategic 
nuclear warheads to no more than 1,700-2,200 for each side. The Treaty 
deliberately focuses on strategic nuclear warheads. It does not limit 
the number of ICBMs and SLBMs or their associated launchers; nor does 
it limit the number of heavy bombers. From the outset, our objective 
was to reduce dramatically the number of strategic nuclear warheads 
available for immediate use, and the Moscow Treaty clearly meets this 
objective.
    The Treaty is also highly flexible. Article I, by referencing the 
individual statements of Presidents Bush and Putin, makes clear that 
the Parties need not implement their reductions in an identical manner. 
President Bush made clear on November 13 of last year that the United 
States will meet the 1,700 to 2,200 limit by reducing our number of 
operationally deployed strategic nuclear warheads. This is a departure 
from the way in which warheads are counted under the START Treaty, but 
one that more accurately represents the real number of warheads 
available for use immediately or within days.
    During the course of the negotiations, we proposed a detailed 
definition of ``operationally deployed strategic nuclear warheads,'' 
but we did not achieve it and so the Treaty does not contain such 
detail. Nor did President Putin state explicitly how Russia intends to 
implement its reductions. During the negotiations, the Russians 
suggested that they anticipated reducing warheads by eliminating or 
converting missiles, launchers and heavy bombers in a manner similar to 
the counting concepts in the START Treaties. Should Russia elect to 
achieve the 1,700-2,200 warhead level in this way, or by using the U.S. 
method, the result in either case will limit the number of strategic 
nuclear warheads available for immediate use. Russia is also free to 
choose another method for making its required reductions.
    Some have expressed concern that the Moscow Treaty does not require 
the destruction of warheads. No previous arms control treaty--SALT, 
START or INF--has required warhead elimination. Contrary to what was 
frequently reported in the press, the Russians did not propose a regime 
for verifiable warhead elimination during the negotiations. Given the 
uncertainties we face, and the fact that we, unlike Russia, do not 
manufacture new warheads, the United States needs the flexibility to 
retain warheads removed from operational deployment to meet unforeseen 
future contingencies and possible technical problems with the 
stockpile. That said, the Moscow Treaty does not prevent the United 
States and Russia from eliminating warheads and we anticipate that both 
Parties will continue to do so. For our part, some of these warheads 
will be used as spares, some will be stored, and some will be 
destroyed. Economics, our new strategic relationship with Russia, 
obsolescence, and the overall two-thirds cut in U.S. and Russian 
inventories mandated by the Treaty will undoubtedly result in continued 
warhead elimination.
    The Treaty is also highly flexible in other ways. Within the bounds 
of the aggregate limit on numbers of strategic nuclear warheads, each 
side is free to determine for itself the composition and structure of 
its strategic offensive arms. As I noted earlier, the Treaty does not 
limit the total number of strategic delivery vehicles or contain either 
numerical sublimits or bans on categories of forces. We saw no 
strategic need for such limits given our new relationship with Russia 
and the low levels of forces to which both sides will reduce. But today 
Russia is not our sole concern.
    The international system is no longer bipolar. It has become more 
fluid and unpredictable. We cannot forecast with confidence what 
nation, combination of nations, or non-state actors may pose a threat 
to our vital national interests or those of our friends and allies in 
the years to come. Nor can we tell what WMD capabilities and delivery 
systems such adversaries may be armed with. We must maintain the 
freedom to determine the composition and structure of our nuclear 
forces. Secretary Rumsfeld and General Myers will be able to discuss 
with you in more detail the approach the Department of Defense has 
adopted to planning our strategic nuclear capabilities when they 
testify before this Committee next week.
    The Treaty provides flexibility in another regard. Article IV 
permits either Party the ability to withdraw from the Treaty upon three 
months written notice to the other Party. This period is shorter than 
has been typical in previous arms control agreements. The Moscow Treaty 
thus allows greater flexibility for each side to respond to unforeseen 
circumstances, whether those circumstances are technical problems in 
the stockpile, changes in the international environment, or the 
emergence of new threats.
    In negotiating the Moscow Treaty, the Administration did not seek 
any new verification measures. As the President stated last November 
13, the United States intended to carry out its reductions 
unilaterally, no matter what action Russia took. President Putin's 
welcome decision to reciprocate, and the recording of these reduction 
commitments in a legally-binding Treaty, is a welcome sign of our new, 
cooperative strategic relationship--a relationship that does not depend 
on our ability to verify Russian reductions.
    That said, Article II of the Treaty recognizes that the START 
Treaty remains in force in accordance with its terms. The START 
Treaty's provisions do not extend to the Moscow Treaty, and its 
verification provisions were designed with START's different counting 
rules in mind. However, we believe that the START verification regime, 
including its data exchanges, on-site inspections, and provisions 
concerning telemetry, conversion, and elimination, and mobile missile 
forces, will continue over the course of the decade to add to our body 
of knowledge regarding the disposition of Russia's strategic nuclear 
warheads and the overall status of reduction in Russia's strategic 
forces.
    Most importantly, however, I would point once again to our new 
strategic relationship with Russia. The Preambles to both the Moscow 
Treaty and the Joint Declaration on the New Strategic Relationship 
Between the United States and Russia state that this new relationship 
will be based on a number of principles, including mutual security, 
trust, openness, cooperation and predictability. These are principles 
that help to define a normal relationship between two countries that 
now consider themselves to be partners.
    The verification regimes that have accompanied our previous arms 
control agreements with Russia have, in contrast, been the product of 
two countries suspicious and distrustful of one another--two countries 
that considered each other as a strategic threat. I have submitted to 
the Congress a report required by Section 306 of the Arms Control and 
Disarmament Act on the verifiability of the Moscow Treaty. In that 
Report, I conclude that the Treaty is not constructed to be verifiable 
within the meaning of Section 306, and it is indeed not. A treaty that 
was verifiable under the old Cold War paradigm was neither required nor 
relevant in this case.
    As I indicated earlier, the Joint Declaration signed in Moscow 
establishes a Consultative Group for Strategic Security, to be chaired 
by Foreign and Defense Ministers, that will become the principal 
mechanism through which the United States and Russia will strengthen 
mutual confidence, expand transparency, share information and plans, 
and discuss strategic issues of mutual interest across a broad range of 
international security issues.
    The first meeting of the Consultative Group will take place in 
September on the margins of the UN General Assembly meeting in New 
York. When we prepare for this meeting, we will consider whether to 
pursue expanded transparency as one of the early issues the Group will 
address. I believe the new strategic relationship will continue to 
mature over time, and over the lifetime of the Moscow Treaty, and that 
openness and transparency will become an accepted and normal part of 
all areas of our new strategic relationship.
                  anticipating some of your questions
    As we went about negotiating the Moscow Treaty, one of the 
questions foremost in my mind as a former soldier and Chairman of the 
Joint Chiefs of Staff, was how will we address tactical nuclear 
weapons?
    We continue to be concerned about the uncertainties surrounding 
Russian non-strategic nuclear weapons (NSNW), and I believe we should 
discuss inventory levels of NSNW with the Russians and press Moscow to 
complete the reductions it pledged to make in 1991 and 1992.
    The United States has made very significant changes to its nuclear 
policy and force structure since the end of the Cold War. Since 1991, 
the types and numbers of NATO non-strategic nuclear forces have been 
reduced by approximately 85 percent, including the elimination of 
entire categories of NSNW. The Russians have also made significant 
parallel unilateral reductions in their NSNW.
    Through NATO, we are now focusing on developing confidence building 
and transparency measures with Russia. NATO has presented Russia with 
four proposals for nuclear Confidence and Stability Building Measures 
(CSBMs) as part of a process established by the April 1999 NATO 
Washington Summit. These proposals are intended to enhance mutual trust 
and to promote greater transparency. I believe that NATO and Russia 
both have recognized the value of consultations on non-strategic 
nuclear forces. The Russians have agreed to continue to engage in this 
process.
    Moreover, in addition to unilateral reductions and confidence 
building and transparency measures, the many ongoing Cooperative Threat 
Reduction programs with Russia are designed to improve the safety and 
security of all Russian nuclear weapons--including NSNW.
    Mr. Chairman, again as a former military professional, I also 
wanted to know about Multiple, Independently Targetable Re-entry 
Vehicles, or MIRVs. In short, does the Moscow Treaty allow the Russians 
to restructure their strategic forces through a greater use of MIRVs, 
and if so, is this in the United States' interest?
    The Moscow Treaty does not restrict a Party's decisions as to how 
it will implement the required reductions. The Treaty states that 
``Each Party shall determine for itself the composition and structure 
of its strategic offensive arms, based on the established aggregate 
limit for the number of such warheads.'' Each Party will thus have 
flexibility in structuring its forces to reach these new low levels for 
strategic nuclear warheads. Specifically stated, the Moscow Treaty does 
not place restrictions on Russia's potential to restructure its 
strategic forces by using MIRVs. We are convinced that this will not 
adversely impact U.S. national security. Since neither the United 
States nor Russia has any incentive to launch nuclear weapons at each 
other, we no longer view Russian deployment of MIRVed ICBMs as 
destabilizing to our strategic relationship.
    Mr. Chairman, some committee members may want to question the ten-
year deadline in the Moscow Treaty. Why is there such a distant 
deadline in the Treaty when it would appear that both the United States 
and Russia could reduce weapons much quicker? Also, why does the treaty 
end at the deadline for meeting its objectives?
    The Treaty will take the United States and Russia along a 
predictable path to substantial reductions--from the current levels of 
5,000-6,000 warheads to 1,700-2,200 warheads. For the United States, 
the reduction process will include deactivating all 50 ten-warhead 
Peacekeeper ICBMs and removing four Trident submarines from strategic 
nuclear service.
    The process will also involve additional, yet-to-be-determined 
steps to reduce the number of U.S. operationally deployed strategic 
nuclear warheads to the 1,700-2,200 level. These reductions will be 
part of the development and deployment of the New Triad that was 
established by the 2001 United States Nuclear Posture Review.
    These substantial United States and Russian reductions will entail 
careful planning and execution on both sides, and, therefore, will 
require considerable time to complete. Our best judgement is that 
allowing ten years for this process to be completed will give both 
Parties time to complete these actions in a sound, responsible, and 
sustainable manner.
    Moreover, we can extend the Treaty at any time that both Parties 
agree to do so, just as either Party can leave the Treaty 
expeditiously. Likewise, over the duration of the Treaty, much can 
happen that could alter or modify our strategic analysis. As a 
consequence, we feel that the timeframe and the deadline are just what 
they should be.
    Another question that may arise is how the Moscow Treaty squares 
with Article VI of the NonProliferation Treaty (NPT). In other words, 
in what ways does the Moscow Treaty promote implementation of the 
Parties' nuclear disarmament obligations under the NPT?
    The Committee members know that the NPT is the centerpiece of the 
global nuclear nonproliferation regime. It plays a critical role in 
efforts to prevent the spread of nuclear weapons, including to 
terrorists and states that support them. The NPT's value depends on all 
parties honoring their obligations. The United States places great 
importance on fulfilling its NPT undertakings, including those in 
Article VI related to nuclear disarmament.
    The elimination of nuclear weapons is a key goal of the NPT, but 
one that will not be reached quickly or without enormous effort. All 
states have a responsibility to work toward this goal. It can be 
achieved only though a step-by-step process. Article VI of the NPT 
reflects this reality and sets no timelines or specific milestones.
    The Moscow Treaty represents an historic step in that process. It 
will take the United States and Russia down to the lowest levels of 
strategic nuclear warheads seen in decades. It is an important 
achievement and the actions called for under the Moscow Treaty 
represent significant progress in meeting the obligations set forth in 
Article VI of the NPT.
    Finally, as the Treaty itself suggests, where do we go next?
    Of course the next step, if the Senate gives its advice and consent 
to the Moscow Treaty and it enters into force, is to implement that 
Treaty. It will take time and resources on both sides to carry out the 
planned reductions by Dec 31, 2012.
    More broadly, and covering strategic issues in general, we will use 
the Consultative Group for Strategic Security, chaired by the Foreign 
and Defense Ministers, to strengthen mutual confidence, expand 
transparency, and share information and plans, as I indicated earlier.
    The Moscow Treaty was intentionally designed to give the United 
States and Russia flexibility in how each implements its obligations. 
Our changed strategic relationship, and the uncertainties of external 
conditions, dictated this. Throughout the duration of the Treaty, we 
will closely monitor developments and assess their implications for the 
Treaty's implementation and for the question of its extension. In 
addition, not later than one year prior to START's expiration date 
(December 5, 2009), the START Parties will have to meet to address the 
question of whether to extend that treaty.
    President Bush made it clear from the outset of this Administration 
that he intended to reduce U.S. nuclear weapons to the lowest number 
consistent with U.S. and allied security requirements. Based on the 
Nuclear Posture Review, he determined that a strategic nuclear force in 
a range of 1,700-2,200 warheads provides the flexibility and 
responsiveness necessary to counter known and expected threats and 
hedge against surprise, technical or other developments.
    I don't want to speculate about the more distant future; but as far 
out as I can see, nuclear weapons will continue to play an important 
role in U.S. and allied security. Right now, I think we have enough 
work before us to implement the agreement we have, to solidify the new 
strategic framework we are building with Russia, and to curb the spread 
of nuclear weapons and other WMD to other states.
                                summary
    Mr. Chairman,I believe the Moscow Treaty is fully consistent with 
the President's promise to achieve a credible deterrent with the lowest 
possible number of nuclear weapons consistent with our national 
security requirements. It reduces by two-thirds the number of strategic 
nuclear warheads available for ready use while preserving America's 
ability to respond promptly to changing future situations.
    These nuclear force reductions will not be accomplished within the 
old Cold War arms control framework; rather the Moscow Treaty reflects 
the emergence of a new strategic relationship between the United States 
and Russia. We understand that this new relationship is still a work in 
progress. Russia is an emerging partner with the United States on a 
broad range of issues where we have increasingly shared interests and 
values. However, our relationship with Russia is not yet comparable to 
the kind of relationship we have with our nuclear-armed allies, Britain 
and France. Russia's transformation to a democracy and a market economy 
still faces a number of challenges, and its interests and those of the 
United States may not always coincide. We understand there is work to 
be done if we are to implement fully the Joint Declaration on the New 
Strategic Relationship. But our new strategic relationship gives us a 
strong foundation to stand upon--one that will allow us to discuss our 
differences candidly and work to resolve them in a constructive manner.
    The Congress also has an important role to play in furthering the 
development of our new strategic relationship with Russia. There are a 
number of issues where we need the Congress' help in doing our part--
ending Jackson-Vanik's application to Russia, authorizing Permanent 
Normal Trade Relations (PNTR) status for Russia, and waiving 
Cooperative Threat Reduction (CTR) certification requirements so those 
important programs can continue, are all high priorities. The Senate's 
approval of the Moscow Treaty will also make an important contribution 
to the strengthening of our new relationship.
    Some have said the Moscow Treaty will be the last arms control 
agreement with Russia. I won't go that far. But it will be an important 
indicator of the continued advancement of our relationship if it is the 
last Treaty that is the centerpiece of a Presidential Summit and if 
such agreements become increasingly less central to the United States-
Russian relationship.
    Mr. Chairman, by deeply reducing strategic nuclear warheads while 
preserving both Russia's and America's flexibility to meet unforeseen 
future contingencies, the Moscow Treaty will enhance the national 
security of both countries. I strongly recommend that the Senate advise 
and consent to its ratification at the earliest possible date.
    Thank you, and I am pleased to take your questions.


    The Chairman. Thank you very much, Mr. Secretary.
    We are going to do 10-minute rounds so we can actually get 
some serious questioning in. I will begin.
    You stated very clearly what, quite frankly, the President 
has said publicly as well as privately to me and to others, and 
that is this was in a sense not a negotiation, this was a 
decision made where we could go and we basically said to the 
Russians: This is where we are going; if you want to come 
along, come along.
    I assume that the decision was made to make it a treaty in 
part to avoid the dilemma we found when his father made the 
same enunciation relative to tactical nuclear weapons: This is 
where we are going, we are going to eliminate. They came along 
and said: We are, too. Yet we had nothing in place and 
constantly, particularly from those who oppose arms control 
agreements, the argument was made: You see, the Russians are 
not keeping their agreement; we kept ours, there was no formal 
agreement. And we got into this whole issue of now whether or 
not they have anywhere from a few thousand to 10,000 tactical 
nuclear weapons deployed in various states, as you said.
    Now, the one thing that I am a little bit perplexed about 
is the assertion, which is true, that no previous treaty 
required the destruction of warheads. So in this sense it is no 
different. What I respectfully suggest is it is very 
different--maybe I have been here too long--in that no treaty 
required warheads being destroyed, but it required the launch 
vehicles to be destroyed.
    So the theory was if you took an America missile out of a 
silo, took the warhead off of it and crushed the canister, you 
could not rapidly reload that onto anything that was out there. 
I remember Mr. Bolton and a lot of his friends coming up and 
testifying that the reason why that was a bad idea is because 
we did not know whether the Russians were going to take all 
these warheads they had and store them in garages and hide them 
in barns and do all these things so that they would be able to 
rapidly reload them or rapidly pull out things out of the barn.
    Here we have a situation where you take the warhead off, 
the launcher stays in place--whatever the form of launcher 
was--and you have the launcher here and you have the warhead 
here, and the theory is at least you could rapidly marry them 
up again and use them.
    So I am not suggesting that that is right, wrong, or 
indifferent, but it is different then. It is different than 
previous treaties, where you took the warhead off and you 
destroyed the canister, you cut the wings off of Backfire 
bombers, you broke up the submarine, et cetera, and we were 
able to verify more easily because you can identify how many 
subs there are by national technical means, at least with a 
great degree of certainty.
    So my concern here--not concern. My question is, if the 
impetus for this treaty was going down to 1,700 to 2,200, 
related to the bottom line of what our consensus in our 
government said we are going to need for our security, and the 
rationale for the treaty was in part to avoid this kind of 
debate that took place over tactical nuclear weapons, then it 
sort of reflects that this is what the President thinks are the 
most important things to proceed on relative to nuclear 
weapons.
    Does he think that dealing with the tactical nuclear 
weapons are not that relevant or that important now, or that 
things as they are relative to tactical nuclear stockpiles are 
OK? Talk to me about that? You understand where I am going? He 
said this is what we want to go to because we want to get down. 
There is a new relationship and this new relationship we have 
there, if it is so new and there is no new cold war, why are we 
keeping the warheads? Why are we in this ready reload 
circumstance?
    Secretary Powell. As you know, we are actually destroying 
or converting some of our launchers. Some of our subs will be 
converted and some of the missiles are being not only 
downloaded, but taken out of service. So they are not really 
that reloadable.
    With respect to the--let me start with the beginning of 
your comment, Senator. When President Bush 41 decided to get 
rid of most of our tactical nuclear warhead inventory, I think 
it was a correct decision and it has been borne out to be a 
correct decision. The fact that it was not entirely 
reciprocated in terms of what the Russians did is regrettable, 
but I do not think it has made us in any more vulnerable 
position.
    The Chairman. I do not think it has either.
    Secretary Powell. It is not a war-fighting position. 
Really, it is an inventory control problem. If the Russians 
were smart, they would take even more of the money that is out 
there to get rid of this kind of weapon that is of no practical 
utility for their purposes any more in the kind of world that 
they are living in and what they need.
    The Chairman. When you have a total budget of $30 billion, 
there is not a lot of money to pay for this.
    Secretary Powell. There is not a lot of money. So I think 
there is going to be enormous incentive to try to get rid of 
launchers or get rid of launchers that are no longer needed, as 
opposed to try to keep them in some kind of maintainable 
condition in order to have ``a breakout.'' I do not see that 
the case.
    I remember CFE, the same kind of argument: They are going 
to have all these tanks east of the Urals waiting to come 
splashing back into Weisbaden. I used to watch them as chairman 
every few weeks to see this tank park, and I realized after a 
while that what I was watching was not a tank maintenance park, 
but the biggest junkyard in the world, with no maintenance, 
nothing going on. The incentive was to get rid of this stuff, 
not hold onto it, and I think that is still the incentive.
    The President is still very interested in theater nuclear 
weapons, tactical nuclear weapons. So this is going to be an 
area of discussion with the Russian side. It has been discussed 
in all our meetings, but it was not ready for the kind of 
deliberations and the kind of decisions that we are prepared to 
make with respect to the strategic part of it.
    So yes, he is interested. Yes, we are concerned, concerned 
with them more from the standpoint of we really do not want 
these nukes loose anywhere and as a proliferation problem more 
so than a war-fighting problem It is almost a disposal problem 
more so than a war-fighting problem.
    The Chairman. Let us talk about our side of the equation 
for a minute. I have been around here a long time, as some of 
my colleagues have as well, and one of the constant debates--
and I am not asking to get into the numbers--was what the SIOP 
called for, as you said, how high you make the rubble bounce 
and how many times, etcetera. There has been--Democratic 
presidents, Republican presidents, it does not matter--an 
overwhelming reluctance to fundamentally reduce the number of 
armed nuclear vehicles, that is nuclear warheads able to be 
delivered, because of the number of targets out there and the 
need for redundancy.
    Now, since what I think you just said makes a lot of sense, 
which is that notwithstanding the fact that the Russians are 
not required, nor are we, to destroy launchers here, the 
practical fact of the matter is they are going to end up having 
junkyards like the tanks.
    Secretary Powell. And START does require.
    The Chairman. And START does require. But beyond START----
    Secretary Powell. When you go below the 6,000.
    The Chairman [continuing]. To get us down to these numbers.
    Secretary Powell. Right.
    The Chairman. To get down to these numbers, they are not 
required, to go from the START numbers to these numbers, they 
are not required to destroy launchers.
    You are of the view, and I share the view, that their 
ability to maintain both the decapitated launcher, that is the 
warhead stored over here, and the launcher is going to be a 
difficult problem for them financially and they are probably 
going to destroy or let atrophy some of these launchers.
    Is the reason why we did not write in destruction of 
launchers because of resistance here unrelated to them?
    Secretary Powell. No.
    The Chairman. Is it resistance here saying, look, we need 
to have this ability overnight to get back up to 6,000 warheads 
that we can launch? Or is it because--I mean, what is the 
reason? It just seems such a logical step to have taken.
    Secretary Powell. Within the numbers that both sides 
decided upon, 1,700 to 2,200, each side has the flexibility to 
decide how to distribute those warheads.
    The Chairman. I got that.
    Secretary Powell. So if the Russians want to keep all of 
them on land-based ICBM's and they want to MIRV them, fine. You 
have got to remember, Senator, because I have got to break the 
logic trail you were taking me down, cut that trail off, 
because you are saying are we not worried about that they could 
have more. They can have more now.
    The Chairman. No, that is not what I am saying.
    Secretary Powell. If they had said, OK, you are going to 
1,700 to 2,200, we are going to stay at 6,000, the START I 
level, or we are not going to go below 3,500, the proposed 
3,000 to 3,500, the START II level, President Bush would have 
said, fine, I am safe with 1,700 to 2,200, do what you think 
you have the do. That is what he said.
    One other point, if I may.
    The Chairman. Sure.
    Secretary Powell. I simply have to take you to task, with 
all due respect, sir.
    The Chairman. I am used to being taken to task.
    Secretary Powell. I worked on that target list for 4 years 
as Chairman----
    The Chairman. I am confident that is true.
    Secretary Powell [continuing]. With Defense Secretary Dick 
Cheney. It was scrubbed, it was reduced, targets were dumped. I 
cannot get into the details of this, of course. Fundamental 
changes were made in targeting philosophy and we were no longer 
chasing, get me more targets because I have more weapons. We 
did make significant reductions.
    When I was Chairman, the first day I became Chairman of the 
Joint Chiefs of Staff, the 1st of October 1989, there were 
something like 13,000 strategic offensive nuclear warheads 
available. Now we are passing on, we are heading down to the 
START I level of 6,000 and we are going to go right on down 
past that and taking this down to 1,700 to 2,200.
    So with all due respect, there has not been a reluctance as 
chairman, and the succeeding chairmen who followed me. We have 
every incentive to reduce the number. These are expensive. They 
take away from soldier pay. They take away from O and M 
investments. They take away from lots of things. There is no 
incentive to keep more than you believe you need for the 
security of the Nation.
    The Chairman. I am not suggesting, Mr. Secretary, you did 
not take the target list down. I am only suggesting that in all 
the years I have been here there has been an overwhelming 
reluctance to either, A, inform anybody what the SIOP was--no 
one knows up here--No. 1; and No. 2, when this started 4 years 
ago, it was difficult to get the Pentagon to sign off on 1,700 
to 2,200.
    Secretary Powell. Four years ago, sir?
    The Chairman. Four years ago, 3 years ago, 2 years ago. It 
was not an easy job. So let us not kid each other. We are 
friends, OK. This was not an easy job to get this number down 
to this number, whomever got it down, the President.
    My point is not my worry about how many weapons the Soviets 
have left to use against us. My worry is the same as Senator 
Lugar's. They have them left, and are they available to bad 
guys to get them because they are not secure. My concern is not 
that we are going to 1,700 or 2,200, but we maintain the 
capacity to go back to 5700 to 6200 and what the rest of the 
world reads from that and what everyone else thinks their 
requirements are.
    But I will get back to that later. My time is up.
    Secretary Powell. Just a quick point. The Russians have 
made that same calculation. They know--they are very 
sophisticated and they know a great deal about force structure 
and they know a great deal about our plans, and they fully 
understand that as we go down to 1,700 to 2,200 from the 
current level of in the neighborhood of let us say 6,000 plus 
or minus, they know that there will be warheads freed up. They 
also know we are not building any new launch systems and they 
have a pretty good idea of what the reconstitution capability 
might be inherent in that kind of a glidepath going down.
    With all that absolutely known to them, they have agreed to 
go to the same level, and in fact they would have gone I think 
perhaps even to a lower level.
    Secretary Powell. But there is going to be like China and 
others. But I will get into that later. I will get into that 
later.
    The Chairman. Can you tell me how many--give me an idea of 
the percentage, what percentage of the targets in the SIOP have 
been reduced since 1990?
    Secretary Powell. No, I would not do that in this hearing, 
and I would yield to my friends in the Defense Department for 
that information.
    The Chairman. I thank you, Mr. Secretary. We will get back.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Mr. Secretary, in your prepared statement you mention that 
you continue to be concerned about uncertainties surrounding 
Russian non-strategic weapons, and you mentioned it again in 
your response to Senator Biden, that you hope the Russians 
might visit with us about pledges they made in 1991 and 1992.
    This is also a concern with many of our NATO allies who are 
much closer to the tactical weapons than we are. The allies are 
extremely hopeful that our negotiations will be pursued. 
Further on that page, you mention that there are many ongoing 
Cooperative Threat Reduction programs with Russia designed to 
improve the safety and security of all Russian nuclear weapons, 
including the non-strategic nuclear weapons.
    This the first time I have heard in official testimony that 
the Cooperative Threat Reduction might address non-strategic 
nuclear weapons. I am very pleased that you have listed that 
because that is going to be reassuring not only to Americans 
but also to our allies, who have hoped that we were not drawing 
too fine a point on what Nunn-Lugar can do.
    You have mentioned that the treaty lasts until 2012, but 
the START I verification regime only lasts until 2009. Now at 
that point you said the parties may discuss extending START I. 
Elsewhere you point out that the verification regime under 
START I gives a lot of comfort and transparency to both sides. 
This gap of 3 years could be problematic. I am wondering 
whether even prior to ratification of this treaty we should 
address the issue.
    Was it a point of the negotiations or discussion with 
Russian counterparts or did things just simply fall this way 
calendarwise?
    Secretary Powell. We thought that long before we got to 
2009, as a result of the work of the bilateral implementation 
committee and because of additional work that had been 
undertaken but not completed yet with respect to transparency 
measures and other things we can do in the area of confidence-
building and transparency, that by the time we got to 2009 we 
would know what we needed to know, and if not then we could 
suggest some time long before 2009 that it might be in the 
interest of both parties to extend those provisions of START.
    But it did not seem to be something that was pressing at 
the moment. We had some 7 years to find an answer to that 
question.
    Senator Lugar. Very well. It just strikes me at the 
beginning that we know that the Moscow Treaty brings that gap 
to the fore. It may not be consequential by 2009, but on the 
other hand it may, and so I wanted to raise the issue.
    Secretary Powell. It is an issue out there that will have 
to be dealt with in due course.
    Senator Lugar. Senator Nunn and I visited Russia just as 
President Bush and you were departing. We went out to Kartaly, 
which was the home of an SS-18 millile field, to participate in 
a ceremonial demolition of one of the silos. The missile had 
long since been removed.
    Even then, for members of our delegation, some members of 
the Senate and the House that had not experienced such a thing 
before, it was quite an emotional experience. Just as you are 
describing your own experience in the Fulda Gap, our delegation 
realized that here was a silo holding a missile aimed at the 
United States that would never again threaten the lives of 
Americans. The finality of it blowing up and the pieces flying 
in the air was a dramatic conclusion. Those pieces are still 
laying there because of START I requirements that national 
technical means have an opportunity to verify that it happened.
    I mention this point because as we proceeded in our trip to 
chemical and biological weapons facilities the certainty of 
security here becomes questionable, quite apart from any 
program of destruction. This was the point that I tried to make 
during my conversation with the President, regarding the 
importance of these efforts in the war against terrorism. Again 
and again the President has said we are going after al-Qaeda, 
all the associated cells, all the countries they may be in, 
trying to eliminate the threat they pose to our security. But 
the bottom line is these people cannot get their hands on 
weapons of mass destruction, nuclear, biological, chemical. We 
have to at all costs prevent that, even at the risk of going to 
war with some countries that do not yield to inspection and 
verification.
    This is very much on our minds, all of us. At the very 
moment we are saying that Russia has built these monumental 
stocks of nuclear, chemical and biological weapons but now do 
not have the budget or any hope of a budget to ensure their 
control the safety and ultimate elimination.
    The threat posed by these weapons is the reason why the 
Departments of Defense, Energy, and State are working to 
safeguard and destroy the weapons while attempting to find 
peaceful employment for the scientists who created them.
    The dilemma here is that we need to do more of this, 
quicker and in a more comprehensive manner if we are addressing 
the potential threats in our new relationship with Russian.
    Now, we are back in Washington still debating about how 
much we want to help and whether we can do anything at all, 
given this waiver problem that we are attempting to address. 
That is the problem that I tried to lay before the President. 
He was very concerned.
    Now, maybe I used a term that I should not have. I said, 
Mr. President, somewhere in your administration there are 
worker bees at work here. You may not know or appreciate 
exactly what is occurring, but here we are talking about a new 
treaty to dismantle additional weapons; but we cannot do so, 
because you have to wait for a waiver. Russia does not have the 
money to guard the weapons or, if the are dismantled, to guard 
the fissile material inside them. We have an opportunity to 
make real progress, but we cannot constantly be revisiting the 
current situation.
    I said, the irony is that at the very moment that in the 
rhetoric at least of the Moscow summit you are talking about 
the fact that we were prepared to do these things unilaterally, 
without verification of what the Russians are doing. We 
suddenly are seized this particular year with the absolute 
certainty that arms control treaties are being met fully.
    I said, it is ironic. You can read the language if you wish 
to and reach that conclusion. But the new strategic 
relationship takes us down a different trail, in which we have 
a new relationship and furthermore each one of us is going our 
own way with a lot of this, without destruction, without strict 
verification, and so forth.
    Well, the President was immediately aware of the disconnect 
of this situation and so he committed to look into the issue 
and consult with advisors. I would say in fairness that the 
National Security Adviser, Condoleeza Rice, leapt to the 
defense of whoever in the administration has created this 
problem and said that it occurred at high levels and so forth.
    The President said: What do you want me to do about it? I 
said: Mr. President, you ought to waive the whole business, get 
on with the destruction of these materials. That is the 
security of America. It is not a bureaucratic flailing about 
behind closed doors.
    Now we are in the process hopefully in the Defense 
Authorization Bill negotiations, if we ever get it done, of 
getting the President the waiver that he now seeks. But why in 
the world you ever put yourselves in this predicament as an 
administration I do not know.
    I make such a to-do about it because I hope this will be 
the last time. If it is not, this treaty is really in jeopardy. 
It is interesting, but nevertheless it is going to be up for 
grabs year after year as we hassle here in the Congress whether 
you can work at it for 3 months, 6 months, or whatever may be 
our pleasure. I think you understand that. You have asked in 
your testimony for rapid action by the Congress. I pray that 
will occur. It might occur in two circumstances, but it has not 
yet.
    For that reason, a lot of material is at risk in the war 
against terrorism and needlessly so in my judgment. So if there 
is some way even now we can cut through all of this, I pray we 
would do so.
    Secretary Powell. Thank you, Senator Lugar. As I think you 
know, I am the strongest supporter of comprehensive threat 
reduction activities. I am a solid supporter, as is the 
administration, on giving it all the funds the Congress is 
willing to provide it. I am a strong supporter of the Nunn-
Lugar initiatives of the last decade. We were strong supporters 
of this idea of 10 plus 10 over 10, and Under Secretary Bolton 
played an instrumental role in Cananakis 2 weeks ago in 
bringing it along.
    The Russians have been part of the problem in terms of 
giving us what we need to know and to have in order to help 
with this problem. But I do not think it takes anything away 
from the value of this treaty or other treaties. What you are 
talking about really is a very troubling stockpile inventory 
problem, how do we secure this material and how do we get rid 
of it.
    I will do anything I can to help with this problem, to 
request the money, to defend the money, to appear before 
Congress, to work with the Russians, as we have at every one of 
our meetings, in order to get them to be even more receptive to 
the kinds of controls that we have to have on the money and the 
kinds of access we need and not allow them to take advantage of 
our generosity.
    It was fascinating at some of our ministerial meetings 
lately to have other countries that have money in hand now 
ready to give the Russians if only the Russians would meet 
certain minimum standards and conditions.
    So we are with you on that 100 percent.
    With respect to the waiver, I need that waiver badly and I 
implore the Congress to give us permanent waiver as soon as 
possible. The reason I could not certify is because Congress 
put the certification requirement on me that I could not meet 
with respect to Russian activities. It was not that I did not 
certify them or I did certify them. I did not have enough 
information to form the basis of a certification. So I was 
forced into the situation where I could not certify and it was 
essentially a neutral position. That is why we need this 
waiver.
    So I implore the Congress to not waste any more time on 
this, give us a permanent waiver, and let us not go through the 
Perils of Pauline every 6 months and meanwhile the weapons are 
sitting there with canisters rusting, with guards getting 
bored, with other things going on that we do not like to see 
going on, and with the possibility of proliferation of this 
kind of material.
    Senator Lugar. Well, thank you for that strong statement 
about the need for the waiver. I would just say respectfully 
for the 10 years since the Nunn-Lugar Act has been going on 
somehow or other we have been able to certify every year. This 
was the first year we could not. How ironic at the very moment 
the new relationship has come and in the midst of the war 
against terrorism to suddenly find a problem at this point.
    But that is water over the dam. I hope your prophecy is 
correct about a permanent waiver and the President finally and 
you and Secretary Rumsfeld are able to go about guarding this 
stuff, destroying it, without inhibition.
    Thank you.
    Secretary Powell. Thank you, Senator.
    The Chairman. Mr. Secretary, unsolicited advice. All the 
President has to do is pick up the phone and call some of our 
more recalcitrant colleagues on one side of the aisle and say: 
I want this waiver. We will get it to you overnight. But he has 
to engage, because there are still serious people up here who 
think this is fungible money and somehow we should not be 
helping the Russians. But that is another issue. Senator Kerry.
    Senator Kerry. Mr. Secretary, welcome and thank you for 
taking the time to be with us here.
    I would just underscore what Senator Lugar has just said. I 
heard you say that you are not sure that you see any way in 
which this treaty adversely affects that. I think I would 
respectfully disagree with you because there is a non-
verifiable destruction process which, in the absence of the 
support that Senator Lugar is talking about, merely increases 
the capacity for materials to fall into the hands of 
terrorists, and I think that is perhaps the most gaping hole in 
this treaty, is the lack of verification, traceability, 
accountability and requirement for destruction and 
permissiveness for rearming. There is sort of a huge 
contradiction in this treaty.
    In many ways, I think this is a treaty that, with the 
exception of what Senator Lugar has just articulated, many of 
us would say, well, of course we want to vote for something 
that reduces from 6,000 to 1,700 to 2,200. It is common sense. 
We would like to move in that direction.
    But there are several very significant contradictions in 
it, it seems to me, not the least of which is that if this new 
relationship with Russia is what you say it is, which leaves 
you then only Iraq, North Korea, conceivably Iran, Libya, and 
perhaps China--and I find it hard to explain how China would 
fit in that--it is inconceivable what kind of threat from any 
of those entities mounts to 1,700 warheads.
    This treaty should be measured, not by sort of where we 
have been historically, but by where we want to go. Where are 
we trying to go here? It seems to me where we are trying to go 
is to a place where we have greater levels of accountability, 
more transparency, more verification, and less capacity for 
accident, unauthorized launch, etcetera, which is why we are 
now pursuing the missile defense capacity.
    One of the contradictions is that this treaty leaves in 
place what START II would have destroyed, which was the ability 
of the Russians to have an SS-18 with 10 warheads on it. It was 
always a goal of ours to try to reduce that because that is 
always perceived of as a more destabilizing weapon because of 
the use-or-lose theory.
    So I would ask, first of all, why we have left in place 
their capacity to arm an SS-18, even to build one, to have more 
SS-18's, with more MIRVed missiles, as long as it remains 
within the level of the 1,700 to 2,200? That also provides much 
greater difficulties in the long run for whatever the 
capacities of missile defense may be.
    But even a larger question, Mr. Secretary, and that is that 
you have announced, your administration, a doctrine of 
preemption and you are talking about conceivably having 
military action against Iraq based upon the doctrine of 
preemption because the assumption is that you cannot have a 
leader pursuing the goal of achieving nuclear weapons because 
they might pass them on to terrorists.
    That doctrine in and of itself flies completely in the face 
of the notion of why you would leave permissibility for 1,700 
to 2,200 warheads in the long term. If we are going to pursue a 
doctrine of preemption and the Russians are such good new 
friends, why can you not go below 1,700? What is the rationale 
for having 1,700? What would be the rationale from having 900 
under those circumstances?
    So it seems to me that the goal of accountability, 
verifiability, mutual destruction of weapons, and ultimately 
sort of moving to a more stable regime without the SS-18 out 
there has been completely neutered simply to arrive at sort of 
some agreement that says we are going to have in 10 years less 
warheads on a missile, but not necessarily undestroyed or 
unavailable for future use.
    In fact, I am told--and I pose the question to you in 
totality--I am told that, in addition to the 2,200 limit on 
deployed strategic nuclear warheads, if you add in the 
substantial number of non-deployed active and inactive reserve 
warheads and the substantial number of tactical nuclear 
weapons, we in fact would have numbers way in excess of the 
2,200 in reality. So there is a certain fiction here in 
addition.
    So could you sort of help me see the logic based against 
this question of preemption doctrine particularly and the 
dangers of these undestroyed warheads without the verification?
    Secretary Powell. I would set the preemption doctrine aside 
in this kind of discussion, Senator. Preemption has always been 
something that was available to us as a Nation with the power 
that we have. The President highlighted the preemption concept 
in his speech at West Point, but it was not something that was 
brand new. We have always had the option of preemption because 
of the nature of the forces we have and our ability to project 
power.
    With respect to the SS-18's----
    Senator Kerry. But in fairness, is not the doctrine of 
preemption based specifically now and restated on the notion 
that we cannot bear the risk of nuclear materials because of 
the dirty bomb theory, that we cannot have nuclear materials 
falling into the hands of al-Qaeda? And if there is somebody 
out there refusing to live by the standards of international 
inspection, that threat drives the notion of preemption.
    That is the essence of what is driving potential military 
action against Saddam Hussein. So you cannot just brush it 
aside.
    Secretary Powell. I do not believe that is something new 
and revolutionary. I view that as something the President said 
and said clearly, and he has made that point clearly, but it is 
not some new concept with respect to how military force might 
be used.
    Senator Kerry. But it has come into a new reality and in 
that new reality, Mr. Secretary, it bears significantly on the 
numbers of nuclear weapons we might or might not need to 
maintain for the long term in order to protect this country.
    Secretary Powell. The Department of Defense under the 
direction of the President made a judgment that, based on the 
fact that there are nuclear-armed nations out there and, even 
though Russia is in a new relationship with us, a new 
partnership with us, it has thousands of strategic nuclear 
weapons still and will continue to have them for some years to 
come, and there are other nations that have nuclear weapons, 
not in any great number, and there are those who are trying to 
acquire nuclear weapons, and there may be more who join that 
club. Do not know.
    But in this period of change, with new partnerships, but 
with still a great number of unknowns out there, as a result of 
a very long study and taking a look at what would ensure us 
with a high degree of confidence in our ability both to deter 
or to fight, God help us, if it should come to that, the 
Defense Department made a judgment that we could safely in 
their view go down to a range of 1,700 to 2,200.
    Why not a thousand? Why not 500? Take your pick, but this 
was the analysis that they did. It was done over a long period 
of time, some 8 months almost, I guess about that, and they 
came to this answer.
    I long for the day--I know what day I want to see----
    Senator Kerry. I am not looking for the long. I am looking 
for the reality.
    Secretary Powell. The reality is we are on a glidepath from 
over 6,000 down to, with this treaty and without this treaty, 
down to 1,700 to 2,200. That is what we believe we can safely 
go to based on what we can see of the 10-year future in front 
of us.
    Senator Kerry. But here is my point. I think you have just 
in a sense made the argument. You have left out here sort of 
old thinking, which is the potential of Russia being an 
opponent that would require a nuclear exchange. That is 
juxtaposed to the new thinking, which is the relationship that 
you have described that says we can move in this direction.
    Secretary Powell. Right.
    Senator Kerry. In between, you have made the argument for 
why, if indeed there is the potential of that threat, it is a 
hedge. We are keeping these weapons as a hedge. Then that makes 
the argument that you should have the verification that is 
absent here and you should have the process of destruction.
    Secretary Powell. With respect to the first 7 years, there 
is a great deal of verification that is inherent in the START 
agreement and all those provisions continue over and can be 
used. They are not a part of this treaty, but can be used to 
help us with this treaty.
    We will be looking through the bilateral implementation 
committee for other ways of gaining transparency so that we can 
see each other. The warhead destruction problem was a problem 
for every previous strategic arms control agreement and the INF 
agreement and was not dealt with, and it is not dealt with in 
this treaty.
    It seems to me that the imperative on both sides, the 
pressure on both sides, is to get rid of any warheads you do 
not need. There is no need to carry around a large inventory of 
unneeded warheads. The reality is, though, even if you had a 
regime that we could figure out the accountability of warheads, 
how many there actually are, where they are, their disposition, 
and we were satisfied that we knew exactly all of those facts, 
you could still only destroy them at a very slow rate because 
of the inherent limitations on both our side and their side.
    So we are going to be left with stockpiles of nuclear 
warheads for many, many years to come, which is what makes 
Senator Lugar's point that it is so important to make sure that 
they are secured properly, guarded well, and accounted for, and 
then ultimately pass through the destruction system. So I do 
not think that the fact that we did not try to deal with all of 
that in this treaty takes away from the value of this treaty.
    Senator Kerry. Well, Mr. Secretary, as you well know--and 
my time is up unfortunately--but there are more questions 
raised by that, because the START process has a different set 
of definitions----
    Secretary Powell. Yes.
    Senator Kerry [continuing]. Counts weapons differently. And 
we do not know even what the specific duties of the binational 
commission are going to be or how those will be counted here. 
So the verification issue is really hanging out there and the 
greater issue remains this question of the capacity of the 
Russia that Senator Lugar has described to adequately contain 
the very materials that might in fact take us into military 
action against Iraq. That is the greatest danger in the world 
today and it is the most singular gaping hole in this treaty.
    Secretary Powell. This treaty has nothing to do with that 
problem. The problem you just described is being dealt with 
with Nunn-Lugar programs, Cooperative Threat Reduction----
    Senator Kerry. It could have had something to do with it.
    Secretary Powell. If I may, sir. Cooperative Threat 
Reduction efforts--the President working with his G-8 
colleagues put down on the table and they agreed to it in 
Cananakis 2 weeks ago $10 billion from the U.S., $10 billion 
from our other G-8 partners, over a 10-year period to help with 
these kinds of problems of weapons of mass destruction, 
chemical, biological. As I said in my statement, Senator, I 
believe we should use this money for all of these kinds of 
weapons, to include tactical nuclear weapons.
    With respect to your comment on START, the reductions in 
START will continue down to the START levels with the START 
counting rules. But the verification system associated with 
those START counting rules also gives us transparency as we go 
below those START levels.
    So we have a pretty good basis upon which to work, and the 
bilateral implementation committee will be looking for new ways 
to enhance transparency and give us the kind of insight we need 
to have.
    With respect to the SS-18's, we will see whether the 
Russians find that there is any utility in this. But if that is 
the way they want to use their allocation of warheads, that is 
the choice they could make under the treaty. I do not think 
they would--if they would ask me and if I was their chairman, I 
would tell them that is not a very wise choice, and I am not 
sure it is a choice they are going to make.
    Senator Kerry. But to my recollection--and I will end on 
this because I do not want to abuse the time. But to my 
recollection, there is nothing in the START process that gets 
to the warheads themselves.
    Secretary Powell. Right, just the launchers.
    Senator Kerry. Is there anything here that gets to the 
warheads in verification?
    Secretary Powell. No.
    Senator Kerry. That is my point.
    Secretary Powell. That is right, and neither did START or 
INF.
    Senator Kerry. But it should not be measured by what we did 
not achieve in START. It should be measured by what we need to 
achieve today.
    Secretary Powell. The reason it was not achieved in START 
is because it was too difficult a thing to achieve in START and 
it was still not something we were going to achieve at this 
point. So it was decided to go ahead with operationally 
deployed warheads, principally because the Russians were 
anxious to have what both sides were doing unilaterally put 
together in a binding agreement between the two sides.
    The Chairman. Thank you very much. Senator Hagel.
    Senator Hagel. Thank you very much.
    Congratulations to you, Mr. Secretary, and Secretary Bolton 
and others who crafted this significant accomplishment, and we 
appreciate it.
    Would you explain in a little more detail the relationship 
between the Moscow Treaty and the declaration? It might 
overlap, Mr. Secretary, into some of the previous conversations 
and questions, because it seems to me, if I understand this a 
little bit, that it was signed with some intent to deal with 
these more peripheral common interests that the Russians have 
with the United States for world security. So I think it would 
be helpful if you could develop that.
    Secretary Powell. Exactly. They were signed at the same 
time, the same table in the Kremlin. The Moscow Treaty is 
exactly that, a legally binding agreement under international 
law upon ratification that dealt specifically with reducing the 
number of operationally deployed strategic warheads. The 
political declaration that was signed there was a much broader 
document and it is a political document, not one in 
international law, where the two Presidents committed 
themselves to work together on programs having to do with 
economic cooperation, counterterrorism activity, a whole gamut 
of issues which the two nations are interested in. In order to 
further that dialog, they created this consultative committee 
that I sit on along with Don Rumsfeld and with our counterparts 
on the Russian side.
    The treaty itself has a bilateral implementation committee 
that will be composed of representatives of the Defense 
Department, the State Department, and other interested 
agencies, which deals specifically with the implementation of 
the treaty itself and the treaty limits itself.
    So the joint declaration, a political document laying out a 
full range of actions that the two sides wish to take with each 
other on economic, trade, security, counterterrorism, drugs, a 
variety of issues; the treaty rather specific with respect to 
reducing the number of operationally deployed warheads.
    Senator Hagel. Would that cooperative effort include what 
many of us believe, and I suspect you have some real sense of 
this, one of the great threats of our time, and that is 
tactical nuclear weapons in the hands of other countries? We 
talked today about tactical weapons in the hands of the 
Russians and the United States, but the other countries out 
there that have these weapons, some we are not sure if they 
have them. I would be interested in your development of that 
theme, because I think that represents as much a threat to the 
security, not only of this country, but of the world, than 
anything else out there today.
    Secretary Powell. I agree with you entirely, Senator. In my 
preliminary conversations with Foreign Minister Ivanov, we have 
already set the date for the first meeting of the four of us in 
September at the time of the United Nations General Assembly. 
One of the items for discussion will be proliferation of not 
only nuclear weapons, but other weapons of mass destruction.
    As you know from my previous testimony here, we have spoken 
to the Russians in rather direct terms about some of the 
actions they have undertaken over the years that might assist 
certain nations in developing this kind of technology, 
specifically Iran.
    Senator Hagel. The bilateral implementation commission that 
you mentioned in your statement, and you went into some detail 
for the record, stating that the START verification regime 
would provide the foundation for confidence, does that mean 
that we will use the START verification regime essentially as 
the regime for verification for this treaty?
    Secretary Powell. It continues to be the regime for 
reductions under the START treaty. The START treaty brings us 
down to that 6,000 level and the START treaty deals with 
platforms. But by the regime that we have put in place for 
START, not only do you get insight into the platforms, you get 
insight into the warheads as well. So you get a good insight 
into Russian strategic offensive forces, technology, 
developmental efforts, launchers, platforms, warheads. So it 
gives you a body of information that will be helpful and very 
supportive of our efforts to implement this treaty.
    Additional procedures may be required. There may be 
additional items we discover as we move forward that we need to 
know about, and that is what the bilateral implementation 
committee will look at. They may want to find out more about 
what we are doing that they do not think they know enough about 
as a result of the START verification regime or just watching 
our open activities.
    Senator Hagel. You mentioned also in your statement, I 
believe at the beginning, some of the areas that we are seeing 
significant cooperation in with the Russians. You mentioned 
specifically in your statement Afghanistan. Could you bring us 
up to date on what the Russians are doing in Afghanistan to 
assist us militarily, economically, diplomatically, 
humanitarian-wise?
    Secretary Powell. They have been helpful from the very 
beginning with respect to exchange of intelligence and 
information. Within the limits of their ability, they have 
provided humanitarian support, medical support to Afghans early 
on after the fall of the Taliban. Diplomatically, they have 
supported our efforts on Bonn when we had the Bonn conference 
at the end of last year in order to create the political 
arrangement that is now being implemented. They were very 
helpful.
    In fact, I remember one evening when it was all hung up and 
I called Foreign Minister Ivanov and he was able to inject the 
right energy level to some of the participants in the 
conference to make sure that we got an agreement and the 
conference did not blow up.
    Diplomatically they have been very helpful; politically, we 
have stayed in close touch with them. We have told them that we 
do not want the great game to break out again, and I think they 
understand it is not in their interest to have a destabilized 
Afghanistan again and face the situation they faced a couple of 
decades ago. So I think they have been helpful within the 
limits of their financial ability.
    Senator Hagel. Do they have any troops in Afghanistan?
    Secretary Powell. They may have some presence. They may not 
be combat troops. But I would rather give you the answer for 
the record. Initially they sent in some civil engineers and 
some medical personnel. I do not know what they may have there 
now. But they were anxious--nobody was going to welcome Russian 
combat troops back into Afghanistan, you can be sure of that, 
or we would have, as they say, we would have us a brand new 
ball game. But they did provide some civil type presence--
airfield construction and some humanitarian efforts. But I 
would rather give you a more precise answer for the record 
because they may not be combat--I am sure they are not combat 
troops, but I am not sure what they are.
    Senator Hagel. Mr. Secretary, thank you.
    The Chairman. Thank you very much. Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman, for 
scheduling this excellent hearing on this important treaty. I 
welcome you, Secretary Powell.
    I am very pleased that the Presidents of the United States 
and Russia have taken this important step of signing a binding 
treaty that affirms the goal of reducing the arsenals of deadly 
strategic offensive nuclear weapons that are currently deployed 
by the two countries. While this brief, three-page document is 
a step in the right direction, Mr. Secretary, I am concerned 
that it does not address the vital issues of compliance and 
verification, that it does not include a timetable for these 
reductions, and, as others have pointed out, it does not 
actually require that any nuclear warheads actually be 
destroyed.
    Only by dismantling and destroying these devastating 
weapons can we truly achieve the goal of meaningful nuclear 
arms reduction.
    In addition, I am troubled by the language contained in 
Article IV of the treaty regarding the process by which one of 
the parties may withdraw from the treaty. As you may know, Mr. 
Secretary, I found the President's decision to unilaterally 
withdraw the United States from the 1972 Anti-Ballistic Missile 
Treaty troubling on both policy and constitutional grounds.
    I think the Senate has a constitutional role to play in 
terminating treaties. The Constitution requires the advice and 
consent of the Senate for the United States to enter into a 
treaty, such as the one that we are beginning the consider here 
today. And the Constitution gives treaties the same status as 
laws. The Senate at a minimum should be consulted on 
withdrawing from a treaty, and especially from a treaty of the 
magnitude of the ABM Treaty, the termination of which could 
have lasting implications on the arms control and defense 
policy of this country.
    I do not think a law can be declared to be repealed by the 
President alone. Only an act of Congress can repeal a law. 
Action by the Senate or the Congress should be required to 
terminate a treaty.
    This treaty, the Moscow Treaty, contains troubling language 
that would allow either party to withdraw in exercising its 
national sovereignty with all 3 months written notice. It does 
not require that either party cite extraordinary circumstances 
that jeopardize its supreme national interests. It does not 
require that any reason for the withdrawal be given at all. 
This treaty requires only 3 months notice in writing. Most arms 
control treaties require at least 6 months written notice, as 
did the ABM treaty.
    So, Mr. Secretary, I look forward to exploring ways to 
protect the Senate's prerogatives on treaty withdrawal as the 
committee continues its consideration of this treaty. In that 
regard, as I suggested, I am troubled by the way the 
administration handled the withdrawal from the ABM treaty. I am 
concerned that the administration did not really consult with 
the Senate prior to the President's announcement of the planned 
withdrawal in December and that, of course, the administration 
did not seek approval from the Congress for this action.
    So I guess what I would like to know from you is what steps 
will you take to ensure that this administration at a minimum 
consults with the Senate prior to any future abrogation of 
existing treaties?
    Secretary Powell. With respect to the ABM treaty, Senator, 
I think that the President not only in the campaign for 
election but in his first year as President made it clear that 
the ABM treaty was an impediment, an impediment to protecting 
this Nation through the pursuit of missile defense. I do not 
think there was any secret about this. I think we talked to the 
Congress on a regular basis about our concerns. I think in 
every hearing I had up on the Hill we discussed this.
    It was quite clear what we were discussing with the 
Russians. The Russia view was also well known. After 
considering all of our options and offering to the Russians the 
we have a bilateral withdrawal from the ABM treaty, which they 
did not agree with, the President believed it was in the 
interest of the Nation to move forward and leave the ABM 
treaty.
    With respect to the law on this, there are differences of 
opinion, as you well know, Senator Feingold, and we believe 
that we were operating quite correctly under the Constitution 
by the President exercising the right of withdrawal on a basis 
contained in the treaty, supreme national interest. We do not 
believe it was necessary to get Congressional approval for the 
exercise of that prerogative, although I know there is a 
different point of view which you just expressed.
    Senator Feingold. Is it the administration's position that 
with regard to this treaty that there would be no need for 
Senate approval of a withdrawal? I am speaking of the Moscow 
Treaty now.
    Secretary Powell. Yes. When the President left the ABM 
treaty because he believed it was his authority to do so and 
the Congress was made aware of the fact that he was going to do 
it and they were aware that he was moving in that direction, if 
it was appropriate for that treaty and if any other treaty has 
similar provisions with respect to abrogation and withdrawal, 
it would be the position of this administration that he would 
exercise that if the conditions determined that he should.
    Now, I will not speak for future presidents, but I believe 
that is the position of this President.
    With respect to the article in this treaty that has to do 
with that, 3 months and national sovereignty is what the two 
sides agreed to and believed appropriate to this treaty at this 
time.
    Senator Feingold. So I take it, Mr. Secretary, the 
administration's position is that there would be no need for 
Senate approval of withdrawal from this Moscow Treaty?
    Secretary Powell. Yes, sir.
    Senator Feingold. I am concerned about also the vague 
language in the treaty regarding the process by which one of 
the parties may withdraw from it. Could you explain how the 
negotiators arrived at the treaty withdrawal language in 
Article IV, section 3? In other words, why 3 months notice 
instead of 6, and why does not this section require a party to 
cite extraordinary circumstances for withdrawal?
    Secretary Powell. As the treaty was being negotiated and 
the two sides discussed this issue, they saw a future that was 
promising in the sense that there was a new relationship 
between Russia and America, but at the same time it was still 
an uncertain future. We saw other nations that were developing 
nuclear weapons. We were concerned that we might face a 
different kind of strategic environment. We hoped that would 
not be the case.
    But as we worked our way through this question of are we 
betting correctly on this treaty, both sides felt that there 
was an appropriate need to make sure that the standard that had 
to be met if either side determined that they were now at 
strategic risk was a reasonable standard and national 
sovereignty, the agreement of both sides, seemed to be a 
reasonable standard. It is not that easy to define what you 
mean by that, but nor was ``supreme national interest'' in 
earlier treaties.
    With respect to 6 months and 3 months, this was a 
compromise position arrived at as both sides tried to make sure 
that, in the event of a strategic situation coming along that 
was fundamentally different than the situation that existed at 
the time the treaty was being negotiated, signed, and ratified, 
3 months seemed to be an appropriate amount of time to give 
notice to the other side.
    Would 6 months have been wrong or 2 months have been wrong? 
Any one of those might have been quite acceptable, but after a 
process of discussion and negotiations both sides found that 3 
months was reasonable and appropriate.
    Senator Feingold. Mr. Secretary, I would just like to 
comment that the combination of these two answers, the one with 
regard to the Senate not having a role in withdrawing from a 
treaty and the very flexible circumstances in which either 
party could withdraw, I am very troubled about what kind of 
role the administration thinks the Senate has in this process.
    It leaves me or others who may agree with me virtually no 
choice but to question this up front, this process, of the 
administration not taking the Senate's role seriously where it 
cannot be disputed, our role in approving treaties. I really do 
believe from a historical point of view and a legal point of 
view that this is a trend that really is not in the interests 
of the country and it is not--I do not think there is any real 
value in the President not making his case to the Senate. I am 
quite confident the President would have won overwhelmingly had 
he sought Senate vote to withdraw from the ABM treaty and I 
suspect on this treaty as well.
    I think this is a dangerous road and I would just suggest 
that it at some point certainly will lead to an unnecessary 
conflict with regard to the prerogatives of the Senate.
    Secretary Powell. Senator, I think the President has the 
greatest respect for the role that is played by the Senate and 
that is why I am here today. Our understanding of the 
constitutional process is that the President signs a treaty, 
but then he has to, as we are now doing, defend it before the 
U.S. Senate to receive the Senate's advice and consent to the 
exchange of instruments of ratification of that treaty.
    We hope it will be a clean decision on the part of the 
Senate, but the Senate has the right and authority to 
interpret, to put reservations, whatever you so choose, 
incident to the instrument of ratification. But I hope it will 
be clean. We are looking for a clean response from the Senate.
    But I must say that my understanding of our constitutional 
history and my understanding of the law and my understanding of 
the way treaties have been dealt with the last 200-odd years is 
that there is no constitutional requirement and no requirement 
of law that to abrogate a treaty with these kinds of clauses 
and articles for abrogation in it requires either consultation 
or the approval of the Senate or the Congress as a body.
    Now, I am a great believer in sharing ideas and discussing 
these issues, and I think the administration did a good job in 
letting the American people, in letting the U.S. Congress, know 
the direction in which we were heading. I have got to say to 
you, Senator, that I worked very, very hard last fall with my 
Russian colleagues to see if there was negotiation some way--we 
understood the importance of this treaty to the Russians. We 
knew how this was viewed by many people in the world.
    We worked hard to see if there was not some way that we 
could go forward with our missile defense within the context of 
the treaty. But the treaty really was designed to keep missile 
defense from going forward and we simply could not bridge that 
difference. We tried every way imaginable.
    So we said to the Russians: Look, you need to understand we 
are committed to missile defense; we are going forward. And if 
we cannot go forward within the treaty and you do not want to 
bilaterally abrogate the treaty, that is your choice, we will 
have to unilaterally abrogate the treaty. We believe we did 
that appropriately. We believe we did that with, if not the 
kind of consultation you might have wished, Senator Feingold, 
but we do not believe there was a requirement or that, but 
certainly with the knowledge of the Senate. We believe we 
followed our law, our traditions, our practice, and we were 
consistent with the constitutional requirements.
    Senator Feingold. Thank you, Mr. Secretary. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Thank you, 
Secretary Powell, for taking time to join with us and update us 
on this significant treaty that you have negotiated. I also 
want to commend you on the magnificent job that you and your 
team are doing on a multitude of issues all around the world 
that are cropping up, and for providing security for our people 
here at home as well as our troops abroad.
    Before I begin, I do want to commend you most specifically, 
you and your team, on your brilliant diplomatic efforts in 
defusing the most recent conflict between Pakistan and India 
over Kashmir. Here is an example that had the potential of a 
disastrous nuclear interchange. It has been presently defused. 
I did write the President recently on how we need to stay 
involved with Pakistan and India over Kashmir and cannot allow 
the future of Kashmir to be hijacked by international 
belligerents and terrorist organizations.
    Now, this dispute between the two nuclear powers, Pakistan 
and India, highlights the need to develop treaties and 
agreements that will limit the potential for nuclear attacks 
among nations. I believe that by signing the Moscow Treaty on 
Strategic Offensive Reductions the United States and Russia may 
have actually set some example. We are the only countries that 
seem to have such agreements and hopefully this would be an 
example for others to follow.
    As we do enter this treaty, we will need to ever mindful of 
the importance of transparency and verification. The U.S. 
continues to pursue, obviously, as you know, the battles 
against terrorists all over the world. During these campaigns 
we have found evidence--and some of this we will not bring up 
here, but in some of our Top Secret briefings--good evidence 
that some of these terrorist organizations are seeking to 
purchase or develop nuclear devices.
    You mentioned in answers to someone's questions here 
previously or maybe in your remarks how, with the Nunn-Lugar 
and the payments and the disposal of nuclear warheads, that 
there are others with plenty of cash who would like to acquire 
it, and those are not necessarily the type of people we would 
want to acquire this technology.
    So as we and obviously the Russians dismantle their nuclear 
arsenals, I think it is of the greatest importance that 
components from those weapons do not fall into the hands of 
terrorist organizations or potentially belligerent countries. 
It is under these circumstances that I think verification and 
transparency is absolutely necessary and both nations must be 
given assurances that the armaments are being reduced and 
disposed of in an agreeable and safe manner. I think it is not 
only required for Russia, but it is for us and actually all the 
rest of the world ought to be interested in it.
    So what I would like to do, Mr. Secretary, is followup in 
greater detail on what Senator Hagel was asking in this regard. 
It is my understanding that during the trip, President Bush's 
trip to Moscow, President Bush expressed his concerns with 
President Putin over Russian proliferation of nuclear and 
ballistic missile technology to Iran. Now, how, if you could 
share with us if that did come up, and how this Moscow Treaty 
could influence a dialog on these issues?
    Secretary Powell. Yes, sir, it did come up. It comes up at 
every meeting between the two Presidents and every meeting 
between me and my colleague Igor Ivanov and Don Rumsfeld and 
his colleague Sergei Ivanov. I think we have made some 
progress. At their last meeting in Moscow, President Putin made 
the specific point at one of the press conferences that we have 
agreement from both sides, both the United States and Russia, 
that they recognize the danger in proliferation and they want 
to do everything to keep Iran from developing these kinds of 
weapons.
    There are some issues that we are still in disagreement 
over with the Russians, but we have made progress since the 
Moscow summit, made progress since the G-8 meeting in Cananakis 
a couple of weeks ago, and we think that we are on the right 
path to making sure that the Russians do not continue to engage 
in this kind of activity. We have not solved the problem yet, 
but we believe we have made some progress.
    I would like to thank you for your comments on India and 
Pakistan as well. We have worked very hard to keep these thing 
from blowing up or boiling over on us. I spent an enormous 
amount of time on the telephone with the two sides. I spoke to 
President Musharraf again yesterday. I spoke to the new Indian 
foreign minister on Sunday. Deputy Secretary Armitage I think 
did yeoman's work when he went over, Secretary Rumsfeld when he 
went over. I expect to be visiting there before the end of the 
month to keep this process going along.
    Senator Allen. That is good. I am glad to hear it. I do 
think--well, I am not going to get into the Kashmir issue right 
now, but I do think there needs to be a goal that all parties 
can aspire to, and in this instance the United Nations 
resolution I think is a good guiding path for us.
    Secretary Powell. It is a very difficult issue. What we are 
trying to do now is to make sure that both the Indians and the 
Pakistanis understand that the United States is interested in 
them beyond this crisis. We want a good relationship with India 
on every aspect of that relationship--economic, trade, 
cooperation, military cooperation. The same thing with 
Pakistan.
    We are anxious to get through this crisis and see a dialog 
begin between the two sides so that we can start to move 
forward to find a solution to the problem in Kashmir 
ultimately. They have to find the solution.
    Senator Allen. Obviously, a peaceful solution.
    Secretary Powell. Obviously.
    Senator Allen. Back to the proliferation issue. This newly 
formed consultative group for strategic security is to be 
continued. How do you see that group being helpful or that 
collaboration being helpful as far as the nuclear proliferation 
issue in the future?
    Secretary Powell. I think it will be very important, a very 
useful group. Foreign Minister Ivanov and I meet on a very, 
very frequent basis. I think we have met something like 23 
times in the last 18 months, and we talk on the phone at least 
3 times a week. Don also, Don Rumsfeld, also has a good 
relationship with his colleague, Sergei Ivanov.
    In this group the four of us will come together. For the 
first time in September, we will come together as a group. We 
have been talking about the agenda for this first meeting to 
carry forward the political declaration that our two Presidents 
signed. You can be sure that on that agenda for the meeting in 
September will be proliferation and, to be very frank, 
proliferation focused on the Iran question. That will be an 
item on the agenda.
    It is good to have the four of us in the room, both the 
foreign policy part of it and the defense part of it.
    Senator Allen. As you mentioned, economic and terrorism and 
drugs, I would hope that you will make this a priority, saying, 
look, if you want assistance in economics and so forth that--I 
am not saying that you--I am not going to tell you how to 
negotiate, but I would make this----
    Secretary Powell. They understand the importance of this 
issue to us.
    Senator Allen. Mr. Secretary, in closing, can you outline 
the type of resolution of ratification that the administration 
is requesting for this treaty, so we have our road map?
    Secretary Powell. I think it should be, in the spirit of 
brevity, to the point, and as uncluttered as the treaty itself. 
I think a simple sentence would do.
    Senator Allen. A simple sentence. Well, hopefully we can 
draft that simple sentence without too many phrases.
    Secretary Powell. I am prepared to help you in any way that 
you might need help.
    Senator Allen. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman, very much.
    I believe Secretary Rumsfeld and General Meyers, Chairman 
of the Joint Chiefs of Staff, will also be testifying on the 
treaty?
    The Chairman. That is correct. They will be coming on the 
17th, I believe.
    Senator Chafee. I am curious, as the Nation's top diplomat, 
can you let me know what the reaction around the world has been 
to this treaty?
    Secretary Powell. It has been excellent.
    Senator Chafee. The elimination of the warheads, has that 
been----
    Secretary Powell. It is not a subject of great discussion. 
People kind of understand. The average person I think around 
the world understands that there will be two-thirds fewer 
warheads sitting on something that can deliver those warheads. 
That is what the average person sees.
    We do have a continuing issue of where do the warheads go, 
how do we protect them, how do we get rid of them, how can we 
increase the capacity to destroy warheads. We are wondering as 
to how many we can get rid of every year. All those are 
important issues, but they are kind of related to the treaty, 
but stand on their own merit as issues to be debated.
    For example, with Senator Lugar's question, Nunn-Lugar, 
Cooperative Threat Reduction, the certifications that I have to 
make, all of that says to the Russians: You have got to tell us 
more, you have got to show us more, we have to have more 
information so that we can help you get rid of this kind of 
stuff.
    So I think that is important. But it has been well received 
around the world, particularly in the context of the 
President's speech of 1 May 2001 to the National Defense 
University, when he proposed a new framework that included 
significant strategic offensive reductions, missile defense, 
and getting beyond the constraints of the ABM treaty. As we 
negotiated this through the fall and as people realized we were 
serious about getting beyond the constraints of the ABM treaty, 
people were deeply concerned when the President announced that 
we were going to leave the ABM treaty that at that point an 
arms race was going to break out, that there would be all sorts 
of difficulties around the world, that all of our friends would 
be stunned and shocked and taken aback.
    But the next day President Putin said: There is not going 
to be any arms race. I do not like your leaving the ABM treaty, 
I think you made the wrong choice, it is not the thing you 
should have done, but it does not threaten us, he said. He told 
me that 2 weeks ago, earlier, sitting in the Kremlin. He said, 
you should not do this, but it does not threaten us; we have 
done our analysis and your missile defense programs do not put 
our strategic offensive capability and deterrent capability at 
risk. So let us find a new framework and, by the way, I am 
going to match you. I call your bet. We are both going down to 
1,700 to 2,200.
    What happened to the arms race? It went away. The people of 
the world were relieved. Now, 6 months later, the ABM treaty 
went out of effect, I think it was the 13th of June or 
thereabouts, and it was not noted very much, and we have this 
new framework and it is demonstrated by this treaty that we 
have put before the Senate.
    Senator Chafee. Thank you, Mr. Secretary.
    Of the comments of nations that have weighed in, such as 
China, Japan, or European nations, what were the concerns of 
those nations about the treaty?
    Secretary Powell. The country that I was concerned about 
the most with respect to a reaction was China. Throughout all 
of last year in all of my meetings with my Chinese colleagues, 
Foreign Minister Tang especially, we gave them the most in-
depth briefings we could on what we were thinking about with 
respect to missile defense, how we did not think they should 
see it and view it as a threat. We sent briefing teams.
    When we made a determination that we had to leave the ABM 
treaty, we notified the Chinese. I called Foreign Minister 
Tang. When we signed the Moscow Treaty, the next day I called 
Foreign Minister Tang, explained it to him.
    The Chinese have taken it all aboard. They are modernizing 
their force. That is what I would expect them to do, their 
nuclear forces, and they are doing it over a rather extended 
period. But I have received no suggestion that the Chinese are 
in some way threatened by either the elimination of the ABM 
treaty or the Treaty of Moscow. I see no suggestion that an 
arms race is going to break out because the Chinese are going 
to make quantum increases in the number of strategic weapons 
available to them. They may go up somewhat as they modernize 
their force, but I see no suggestion that they are trying to 
break out by creating a new strategic threat to the United 
States.
    Senator Chafee. Thank you very much.
    The Chairman. Mr. Secretary, we will just keep you a few 
minutes longer. I have two questions, and I do not know whether 
my colleagues have any further questions.
    But two things that I keep being drawn back to here. If the 
cold war is over with the Russians, why do we need 1,700 to 
2,200 warheads with the ability to rearm 4,000 ``reduced'' 
warheads that are in storage? Are not most of those warheads 
still required primarily for possible Russian targets?
    Secretary Powell. Some of those warheads--and I think 
Secretary Rumsfeld will be able to speak to this in greater 
detail. But the study determined, the nuclear posture review 
determined, that based on the fact that there are nuclear-armed 
nations out there, particularly Russia, even though it is a new 
relationship, a new partnership--they will have nuclear weapons 
for many, many years to come, and one cannot predict the future 
with certainty. So therefore it is wise for us, in view of that 
in view of other nations that have nuclear weapons and those 
who are trying to acquire them, an absolute assurance for us 
would be in this range of 1,700 to 2,200 with a stockpile of 
additional warheads that are there as replacement warheads to 
deal with failures that might occur in one of our fleets, the 
land-based or sea-based or air-based fleet, and to give us a 
hedge.
    But the President's intention is to go straight down this 
ramp to those numbers. But we have insured ourselves in this 
period ahead that could have some surprises in it, we have 
insured ourselves by the way in which this treaty has been 
structured and by the nuclear posture review that if something 
comes along during this period of going down we do have the 
capacity to respond to that new circumstance.
    But it is the President's intention to go down that ramp. 
It will not be a linear ramp. I am not sure how Secretary 
Rumsfeld and his successors will go down that ramp, but to go 
down that ramp to the lowest number that protects this Nation 
in a way that is indisputable and obvious to all. The number 
that Secretary Rumsfeld and the Joint Chiefs of Staff came up 
with was 1,700 to 2,200, with some hedge for stockpile 
rejuvenation, weapons that might be needed to take apart to 
test, and I suspect most of those weapons, but this is a 
question to be put to Don Rumsfeld, will be put into the queue 
for ultimate destruction.
    The Chairman. Well, I hope that that is the case because, 
since this was essentially a unilateral decision where we said 
to the Russians, by the way, you want to come along, and as you 
said they then matched, the Pentagon, or somebody, concluded 
that we could not comfortably in a permanent sense go below 
6,000 warheads. We could go down to 1,700 to 2,200, but we have 
got to keep these up to 4,000 available in storage.
    So we are still kind of at the 6,000 number--you know what 
it kind of reminds me of? It kind of reminds me of the decision 
made by the President to not target existing ICBM's. Again, I 
think it is a useful thing. I just want to make sure we have a 
perspective here, I have a perspective anyway, that I do not 
want to make this more than it is and raise expectations, and I 
do not want to make it less than it is.
    But right now it seems to me that where we are is you have 
gotten an agreement. I quite frankly think the most significant 
thing you have got is you have got the Pentagon to agree to 
come down, which nobody else has been able to do so far. And 
they have come down in a sense tentatively. They want 4,000 in 
reserve just in case some exigency occurs.
    Now, did anybody ever explain or can you explain to us what 
some of those exigencies might be that would require us to have 
up to--granted, we may destroy a bunch of them--4,000 nuclear 
warheads in reserve that could be loaded back up on launchers 
that are not being destroyed? What are the kind of concerns?
    Secretary Powell. First, the number is not 4,000. It is 
much less. The most you could get up to with the 1,700 to 2,200 
is 4,600, roughly 4,600 total, including those that are on 
launch vehicles or armaments on bombers.
    The Chairman. I just rounded that off. If we go down to 
2,000, you are at 6 now. START takes you down to 6, right?
    Secretary Powell. Yes.
    The Chairman. And so this, the next agreement in the queue, 
is this one, the Moscow agreement, and that says over 10 years 
down to 1,700 to 2,200.
    Secretary Powell. Right.
    The Chairman. So if you get down to 2,000, you could still 
keep 4,000 in reserve, right?
    Secretary Powell. The total number that I believe you will 
hear from Secretary Rumsfeld of both deployed and in reserve is 
somewhere around 4,600.
    The Chairman. OK, that is new, but the Moscow Treaty would 
allow you to have more than that?
    Secretary Powell. The treaty would allow you to have as 
many warheads as you want.
    The Chairman. Got you.
    Secretary Powell. What the treaty says is that on December 
31, 2012 you will only have, and you will demonstrate to us on 
that day that there are, only 1,700 to 2,200, some number, some 
discrete number that you have decided on, deployed, 
operationally deployed, meaning that if I go to your missile 
fields, if I go to your submarines, if I go to your bombers, 
this is what I will see. The bombers are a little different 
there because there are some extra ones that are there for 
storage, but that is not a big deal.
    But some of these platforms that people are worried about 
being available to be suddenly reloaded will not be there. Four 
submarines are being converted to other purposes.
    The Chairman. Look, I am not suggesting I am worried about 
it. At this point I am just trying to figure it out. I am just 
trying to figure out what it means. You have just told me 
something I find very encouraging, that the Defense Department 
is going to tell me that at the end of the day there is going 
to be only the possibility of having 4,600.
    Secretary Powell. Let me give that to you in a very 
tentative way because I think Don Rumsfeld should really give 
you that definitely.
    The Chairman. Good. When Secretary Rumsfeld does that, that 
means if we stick to that we are clearly going to destroy at 
least a thousand of these warheads and up to 1200, maybe more.
    Secretary Powell. I would, and I do not want to speak for 
Secretary Rumsfeld or any Chairman of the Joint Chiefs of 
Staff. That would be inappropriate. But it seems to me all the 
pressure and all the incentive will be to get rid of the 
warheads that you do not need either to be operationally 
deployed or to be kept in this stockpile.
    The Chairman. I agree.
    Secretary Powell. The real trick is to find a way to get 
rid of them.
    The Chairman. Right.
    Secretary Powell. You know how many can go through 
Amarillo.
    The Chairman. No, I got it. I got it. That is why I am 
trying to figure out what is being contemplated, not what is 
decided, what is being contemplated, so I get a sense of the 
overall value of this treaty. I start off, valuable, worth 
doing. Now, I want to get a sense for me as to how valuable 
this is.
    Secretary Powell. We have pressurized the system the take 
the first step in elimination of a warhead and that is to get 
it off the bomber and get it off the top of a missile.
    The Chairman. I got that part.
    Secretary Powell. Put it into storage, and then it is in 
storage for one of several purposes. We need it as a spare, it 
is needed for whatever examination or testing to make sure that 
the stockpile is safe. I do not mean explosive testing. Finally 
then, if it is not needed for that or for some hedge that the 
Pentagon will be able to explain to you, then it ought to be in 
queue for dismantling and ultimately destruction down to its 
physics package and done away with.
    The Chairman. Well, I plan on pursuing this with the 
Defense Department as well. But just so you understand, because 
you and I have known each other a long time and the one thing I 
think we have been is completely straight with each other, is 
what I am trying to get at is the rationale behind what is 
happening here and what is likely to happen, so I know what the 
nature of the debate is.
    Let me explain what I mean a little more about that. The 
verification regime in START I does allow us to go in and 
count. We can go in and say, we want to see this vehicle, an 
SS-18, and we can count, does it have ten warheads on it and no 
more than ten, because that is the deal you made with us here, 
and we can count it.
    That helps us and is a positive step in that it is almost 
an indirect verification of whether or not we are getting to 
the Moscow Treaty number, 1,700 to 2,200.
    Now, there is a gap here and I, like you, expect that it 
will never get to the gap, which is this: that that treaty 
verification regime expires, expires 3 years before this goal 
of 1,700 to 2,200 has to be met. So if in fact they do not do 
anything for the period where START is not in place, then there 
is no verification regime that is left to determine whether 
they have gone down to that range after that fact or whether 
they have gone beyond the range, after the fact.
    There must have been a rationale as to why you did not 
extend, or maybe there is not a rationale as to why you did not 
extend the verification portions of START II until the 
culmination of this treaty, the Moscow Treaty. So what I am 
trying to get at here is why were there not any milestones put 
in here? Is it because it does not matter--I am not being 
facetious. Because it does not matter much what they do from 
our perspective? Or is it because you could not get agreement 
from them, which would go to their notions of motivation? Or is 
it because there is resistance here?
    Why no milestones and why this gap?
    Secretary Powell. We did not really want milestones. We did 
not want to have to meet milestones every year with respect to 
the rate at which we are coming down. We wanted the flexibility 
to come down in a way that made sense to us and not sense to 
the arbitrary measures or arbitrary milestones you might have 
put in the treaty.
    We believe that we needed 10 years to come down to that 
level. It may be a step function, every year come down a 
certain number. You are the one who is going to be--excuse me. 
I say this with all due respect. It is the Congress that will 
be able to have insight as to how it is coming down as the 
Pentagon comes forward every year with its budget request and 
through the normal processes of examining what the Pentagon is 
doing.
    Whether it is linear, a step function, the same number 
every year, or whether it will be a much more non-linear 
function is up to both sides to determine. That seemed to us to 
be the better way to do it, rather than put in something which 
is rather arbitrary and does not really comport to the 
circumstances you might find every year. That is the reason for 
that.
    Ten years is what was needed. Anticipating when this might 
be ratified and solved, we decided that December 31, 2012 was 
roughly the 10 years needed. It was 3 years and 3 weeks, if I 
am exact--I think December 5, 2009, is when START expires. But 
it is a 3 year 3 week gap. We did not think it was necessary at 
this point to try to go back and renegotiate START I in order 
to cover a gap that does not occur for another 7 years.
    Also, a lot is going to happen in that 7 years. We do 
believe that this bilateral implementation committee will 
succeed in coming up with other ways of finding out, what are 
you guys doing? How do you plan to meet this December 31, 2012 
goal? What do we say to our ministers when they meet for their 
sessions under the political declaration?
    So we think that there will be more than ample opportunity 
to find ways to see what the other side is doing, just as they 
want to see what we are doing. Then there is a whole range of, 
not verification procedures and regimes, but everything that is 
down under Nunn-Lugar and CTR. All of that requires 
transparency and information that we are insisting on before we 
start giving them the money.
    So I believe there will be a body of information and a body 
of evidence that will give the future President in 2012 the 
assurance that he knows what the Russians have done at that 
point.
    The Chairman. Well, Mr. Secretary, I am going to yield to 
my colleague if he has a closing questions or question. But I 
think this is a good treaty. I think that if things go as 
rational people hope they will it may turn out to be a great 
treaty. It could lead to significant reductions. It could also 
be of marginal value. I think the jury is out on that. That 
does not mean we should not ratify it. I am for ratifying it.
    I would just like to make one point on your closing comment 
about we have to know more about what they are doing to know 
whether to give them money on Cooperative Threat Reduction. The 
fact is we are hardly giving them any money. We are sending 
American contractors, paying them over there to do this.
    You and I have often talked about, and you have talked in 
both your writings as well as your speeches, about family and 
the things we have learned from family. My mom has an 
expression I would like you to keep in mind, God love her. She 
just had her 85th birthday. She and my dad are living at home 
with me, my dad is dying and my mom is taking care of him, and 
she is a font of wisdom.
    From the time I was a kid she said something that I hope 
Under Secretary Bolton will listen to, and that is, she said, 
``Joey, do not bite your nose off to spite your face.'' I hope 
to God we do not decide that, even though we do not have every 
single piece of information we want relative to their 
stockpiles, that would stop us from destroying stockpiles they 
are willing to allow us to destroy now, because we are doing it 
with our money, our personnel, and our direction. But that is 
another issue.
    I appreciate your time and I appreciate--and I mean this 
sincerely. I do not want to hurt your reputation, but I 
appreciate your influence in what is a legitimate debate about 
where to move and the fact that the President has chosen this 
route.
    I thank you and I yield to my colleague.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I just affirm the last comment. I think both of us feel 
very strongly the State Department under your leadership has 
gained new vitality and stature, and it is not by chance and it 
is lots of small things you do as well as the large ones.
    Let me just pick up on the milestones idea, because I do 
not think the public as a whole and the Congress as a whole 
understands, for example, the point I was making with regards 
to the Chemical Weapons Convention. That was to be a 10-year 
deal in which we destroyed all of our chemical weapons. We 
decided to do that anyway in an earlier era unilaterally 
because the efficacy of the weapons was dubious.
    But nevertheless, both Russia and the United States 
ratified a treaty. Today, we are almost to half-time in the 
treaty, and the Russians have not destroyed more than 4 or 5 
pounds of 40,000 metric tons and that may have been just for 
experimental purposes.
    That is our dilemma, I think, with this treaty, that 
certainly by 2012 a lot is to happen. As you say, much depends 
upon the bilateral commission, upon the relationship with 
Russia, the strength of the Russian state itself and the 
finances, and other allies that come in. The Norwegians, the 
Germans, the English are now prepared to contribute to 
dismantle operations at Shchuchye and elsewhere. The Duma 
itself is doing more this year. So there are some encouraging 
signs.
    I just suspect, however, we are still dealing here in both 
the chemical and nuclear issues, with relationships and how 
well diplomacy is able to work. This is separate from the 
ironclad treaties and all the verification procedures.
    Having said that, as a practical matter, with respect to 
nuclear warheads taken from Russian missiles, I had an 
experience 2 years ago in which General Kuenning of the 
Cooperative Threat Reduction program and I were allowed to go 
into a storage vault at an installation. The rest of our party 
was shunted aside to do tourism. The Russian government at the 
highest level decided to permit the two of us to go in there. 
Our visit was the first since General Habinger had visited some 
years before.
    The fact is that we got there by coming through a train 
station, very well fortified to take care of weapons that might 
be coming in transit. None had passed through for a while and 
none were expected for a while, but nevertheless we marveled at 
the security.
    The problem was the country road which was not very well 
secured that connected the station to the installation. There 
were four or five security barriers before you could enter the 
vault. Inside were nuclear warheads lying like they were in 
coffins, is the best thing I can think of, similar to a 
mortuary. Now, each one of them had a service history. It was 
in Russian script, so I could not read it. I had to take on 
faith when I asked this Russian general what it was.
    It gave the history of this particular warhead: when it was 
built, what servicing it had received, when it was deactivated, 
how old it was, and so forth. There also were estimates of the 
efficacy, of how long this one might be reliable.
    Now, beyond that--and this gets into sheer conjecture on 
the part of the Russian general, quite apart from myself--some 
estimate as to when the weapon might become dangerous. That is, 
due to lack of proper maintenance or natural aging of the 
warhead might become unsafe, not necessarily to the U.S., but 
certainly to the surrounding area.
    There is a very strong reason why Russians want to get rid 
of warheads. It comes down to age. Now, there are arguments 
about this, that somehow they are almost as inert as a piece of 
wood and therefore could just sort of sit there forever. But 
the Russians I was talking to in that bunker did not share that 
point of view.
    So the thought was that at some point this warhead was 
going back up the country road, into the railway station, 
because it cannot be destroyed there at that facility. At that 
point they must have the technicians and the funds to take it 
apart and remove the fissile material, to eliminate a potential 
tragedy.
    But the prospects of this occurring are very remote, given 
the money shortages, the technician shortage, and so forth. 
Ultimately it depends upon the United States and others we may 
be able to enlist who will work with Russia to extract those 
warheads I saw in the vault and to remove and safeguard the 
fissile material before they threaten Russia or anybody else.
    There are so many of them, the potential menaces are 
daunting. This is what I see as the value of the treaty, that 
if it leads to this kind of dialog, if people are meeting at 
least twice a year to discuss these problems. It is not the 
question so much of the numbers. All of these weapons as they 
age have some problems attached to them that are recognized by 
most people. Ours do, too, and this is why we are prepared to 
try to, for our own safety's sake, watch the aging and watch 
the mechanics, and we work to ensure all of ours do not have 
unexpected events.
    In a country where the technicians are few and the 
servicing is dubious, if nonexistent, this is an awesome 
problem for Russia. We would not have gone into the vault if 
the Russians had not believed that. There was no reason. They 
might have been there for years. No treaty demanded we go in 
there.
    This is why I am hopeful, and I take your words and your 
P.S. testimony, that this is what finally happens. I am hopeful 
that you will continue, as you have today, to express that it 
is this growing relationship which is our best hope, because 
ultimately we will do what needs to be done.
    But even we have to be safe with our own weapons and be 
sure how we store them, how we maintain them. It is very 
expensive. As you say, it always comes at the expense of 
something else we want to do in terms of our security or our 
troops or Social Security or Medicare or other things that are 
important to us.
    I thank you very much for your testimony, your patience in 
moving with us all the way through the lunch hour, and we thank 
you for coming.
    Secretary Powell. Thank you, sir.
    The Chairman. We have one more questioner, with your 
permission and indulgence, Mr. Secretary. But before I 
recognize him, I just want you to know the factual basis on 
which I am operating when we talk about these things. I am told 
that the total budget for the entire Federation of Russia is 
$30 billion a year and their defense budget is around $7.5 
billion per year.
    If we are off by 50 percent, 100 percent, 200 percent, our 
Defense budget is $390 billion some and our entire budget is a 
couple trillion. We should be. But I just think it emphasizes 
the incredible difficulty that you know maybe better than 
anyone except Senator Lugar, that you know is a very difficult 
problem to manage for them here. I just hope we do not wait 
until everything is aligned before we do anything.
    But let me yield to the Senator from Florida and give him a 
round here and thank you for hanging on, and then we will let 
you go.
    Senator Nelson. Mr. Chairman, I will be very brief.
    I bring you greetings from Secretary Eagleburger, who I had 
to leave and go visit with concerning these European insurance 
claims for Holocaust era victims' families and the survivors, 
and that is still going on, as you know.
    I would just like to clarify a question about the funding. 
As I understand, you all have already discussed some funding 
issues, but I want it clear in my mind. Is the administration, 
in addition to what you propose--and by the way, your statement 
was one of the most compelling that I have heard, when you went 
back there talking about being a corps commander and bringing 
us all the way up through your negotiations.
    But you are taking the weapons off the ICBM's, which is 
clearly a step in the right direction. What is this 
administration committed to in the way of funding for then 
pursuing the destruction of those weapons?
    Secretary Powell. I may have to give it to you for the 
record, but let me answer in a general way. We are asking for 
roughly $1 billion a year in various programs associated with 
the destruction of weapons of mass destruction in the Russian 
Federation.
    The Chairman. In the Russian Federation.
    Senator Nelson. Now, Mr. Chairman, maybe you can clarify 
it. How does that compare when Baker-Cutler's report called for 
$30 billion? How do you compare apples to apples, his $1 
billion a year to their call for $30 billion?
    The Chairman. Well, if you read that report, they, former 
Senator/Ambassador Baker, and former White House Counsel 
Cutler, in their report indicated that it would cost about $8 
billion a year to deal with just the nuclear side of the 
equation, not the chemical, not a lot of other things. So it 
does not come close.
    But I thought you were asking the question, how much is it 
going to cost us, the United States of America, to comply with 
our plan to decommission these weapons.
    Secretary Powell. I cannot break out----
    The Chairman. Got you.
    Secretary Powell [continuing]. Exactly what the requirement 
would be or how much we have got in our budget now, focusing on 
the nuclear part of it.
    The Chairman. But the billion dollar number you cited did 
not relate to U.S. costs on U.S. systems, did it?
    Secretary Powell. No. It is the U.S. funds going to the 
Russian Federation to help them with their weapons of mass 
destruction decommissioning and elimination.
    Senator Nelson. Well, I will tell you, one of the most 
memorable days I have had was when Senator Baker and Mr. Cutler 
were here talking about what needed to be done. How do we 
convince you?
    Secretary Powell. You do not have to convince me, Senator. 
We are working on this diligently. We had some success in 
Cananakis with the 10 plus 10 over 10 program, which the 
Russians we were not sure were going to accept until the day 
that they did accept it in Cananakis. So we are doing a lot.
    But we certainly do not yet have the kinds of funds that my 
good friend Senator Baker suggested would be appropriate at a 
rate of $8 billion just for the nuclear piece.
    The Chairman. Let me clarify. Baker's estimate depended on 
how many years. If it would take 8 to 10 years, it would be $3 
to $4 billion per year, just for the nuclear piece.
    Secretary Powell. We are getting closer anyway.
    The Chairman. It depends on the number of years. At any 
rate, it is 30 billion bucks.
    Secretary Powell. It is a big bill, Senator, and we really 
ought to help them with it.
    Senator Nelson. Because of the enormous expertise that you 
have available to you in the person of the Senator seated to 
your left----
    The Chairman. He is a hell of a staff guy, I will tell you.
    Senator Nelson [continuing]. It seems to me that this is a 
very legitimate question that we need to continually bring to 
the forefront, because there is an awful lot at stake here.
    Senator Lugar. We brought it to the attention of the 
President, that the billion dollars that Secretary Powell is 
talking about is for the programs we are doing now, and this 
treaty is new. All of the destruction, the separation, the 
safety has to be in addition. My own advice respectfully to the 
President is that he ought to begin a line item for several 
years because to have continuity in this we will require that 
kind of money.
    The Chairman. It costs a lot of money to take roughly 4,000 
warheads off of something and store them.
    Secretary Powell. We are being creative. $10 billion is 
also worked out with the debt relief.
    Senator Lugar. In fairness under that, when I was in Europe 
just following the time that we talked on the telephone and 
what have you, when I talked to other Europeans they were very 
skeptical as to whether the Europeans were going to come 
through with their 10.
    Secretary Powell. We are not there yet.
    Senator Lugar. No. So if you get that, that is a very big 
breakthrough in terms of substantial diplomacy.
    The Chairman. Well, Mr. Secretary, I do want to thank you. 
I should warn you that we are going to be holding hearings to 
begin a public dialog about Iraq. I was pleased--I am not 
trying to make it a doctrine, but this so-called preemption 
doctrine, hearing a very brief explanation of the preemption 
doctrine, which as I understood it, that is the President's 
speech about the right to preemptively act, which is, the way 
you have stated it as I understood it, it is not something 
fundamentally new.
    Secretary Powell. My concern with the way Senator Kerry 
asked the question, it was as if all other strategies and 
doctrines have gone away and suddenly preemption is the only 
strategy doctrine. That is just not the case.
    The Chairman. Well, as you can see, there is some confusion 
among well-informed people in and out of the Congress on that. 
But we are going to you to ask you to come up and talk to us 
about Iraq, as we will others, not just you, but you would be 
our lead witness. I discussed it briefly with my friend Senator 
Lugar and as many Republicans as Democrats have indicated we 
should have a serious hearing on this issue to talk about the 
parameters. I just want to warn you ahead of time that that 
will be the case.
    We are going to not in any way slow down the process of 
moving on the Moscow Treaty. As usual, you always do a good job 
and we appreciate your being here.
    We stand adjourned. [Whereupon, at 12:59 p.m., the 
committee was adjourned.]


                              ----------                              


Responses to Additional Questions Submitted for the Record to Secretary 
                        Powell by the Committee


    Question. What are the implications of not specifying in this 
Treaty what is to be done with the warheads that are to be ``reduced?''

    Answer. The Treaty's flexibility regarding warhead disposition is 
consistent with previous arms control treaties and has several positive 
implications. First, it recognizes that the United States and Russia 
have fundamentally different stockpile maintenance practices. Key to 
the difference is that Russia continues to produce new warheads while 
the United States has no production capacity. Second, stored weapons 
must serve for non-explosive tests and other aging and surveillance to 
check and understand the continuing reliability of our aging nuclear 
stockpile. If this testing indicates a technical problem with a part of 
the stockpile, stored weapons provide an essential replacement source 
to maintain the U.S. deterrent. Finally, given that we do not have the 
capability to manufacture new warheads, a capability all other nuclear 
powers have, we must also maintain a reserve of weapons as a hedge 
against unanticipated changes in the international security 
environment.
    Beyond these immediate benefits, the absence of treaty constraints 
on warhead disposition allows the United States and Russia to proceed 
with warhead eliminations in a manner that is unhindered by artificial 
requirements, and responsive to changing national security needs. The 
effect is to enhance our ability to undertake reductions while 
maintaining responsive upload potential and commensurate stockpile 
sizing in a dynamic world.


    Question. Your Letter of Submittal to the President states that 
this Treaty ``facilitates the transition from strategic rivalry to a 
genuine strategic partnership.'' Does that mean that Russia, too, 
wanted maximum flexibility to re-arm? Or did Russia want the strategic 
offensive reductions to be irreversible?

    Answer. Initially, Russian officials made public statements calling 
for ``irreversibility'' by destroying warheads removed from launchers. 
From the onset, U.S. negotiators noted that the concept of 
``irreversibility'' is flawed because, given time and money, any 
reductions can be reversed. In the actual negotiations, Russia did not 
propose any measures related to warhead dismantlement, instead taking 
the position that reductions should be made by eliminating launchers. 
The United States made clear that such an approach was completely 
incompatible with our needs to make cost-effective use of our existing 
strategic forces, particularly those that have dual conventional-
nuclear use capabilities in certain cases.
    In the end the two Parties agreed on a flexible approach to 
reductions in the Treaty, which allows each Party to determine for 
itself the composition and structure of its strategic offensive arms 
within overall limits on strategic nuclear warheads.
    Since Treaty signature, senior Russian officials have stated 
publicly that the Treaty's flexible approach will serve Russia's needs 
and interests.
    I want to emphasize that neither country is seeking opportunities 
to re-arm. Both countries intend to carry out strategic offensive 
reductions to the lowest possible levels consistent with our respective 
national security requirements and those of our allies. Both countries 
ultimately sought to avoid overly restrictive provisions in the Treaty, 
so as to enable each Party to structure its forces as it deemed 
necessary in light of the strategic situation over the next ten years.


    Question. You testified that some U.S. weapons will be earmarked 
for destruction. How many U.S. warheads or delivery vehicles are 
currently slated for elimination or for irreversible conversion to 
other uses over the next decade? If some U.S. warheads or delivery 
vehicles will, in fact, be eliminated, why not reach agreement with 
Russia on a joint commitment to secure, dismantle and eliminate agreed 
numbers of warheads and/or delivery vehicles?

    Answer. As discussed in the Nuclear Posture Review (NPR), the first 
planned step in reducing U.S. operationally deployed strategic nuclear 
warheads will be to retire 50 Peacekeeper ICBMs, remove four Trident 
submarines from strategic service, and no longer maintain the ability 
to return the B-1 to nuclear service. This will reduce the number of 
operationally deployed strategic nuclear warheads by about 1,100 
warheads by the end of Fiscal Year 2007 in a manner that as a practical 
matter would be very difficult to reverse.
    Additional reductions beyond 2007 will involve decreasing the 
number of warheads on ballistic missiles and lowering the number of 
operationally deployed weapons at heavy bomber bases. These plans, 
however, will evolve over time. Retirement or downloading of certain 
systems may be accelerated or pushed back depending upon the overall 
force requirements. Some warheads that are to be removed will be used 
as spares, some will be stored, and others will be destroyed or 
dismantled. Exact determinations as to which warheads will be destroyed 
or dismantled have not been made.
    The Moscow Treaty balances deep reductions with flexibility to meet 
the future's uncertain security environment. As a result, U.S. 
obligations under the Moscow Treaty deals only with operationally 
deployed strategic nuclear warhead levels, not with launchers, force 
structure, or the disposition of non-deployed warheads. Since 
flexibility was a key U.S. objective during the negotiations, we did 
not want to reach any agreement which would require a commitment to 
secure, dismantle or eliminate agreed numbers of warheads or delivery 
vehicles. Retention of force structure is critical to maintain an 
ability to respond to unforeseen circumstances and to retain 
conventional weapon delivery capability.


    Question. Unlike the START II treaty that never came into force, 
this treaty allows Russia to keep its 10-warhead SS-18 ICBMs and its 6-
warhead SS-19 missiles. If Russia were to keep those missiles in 
service, or to build a new missile capable of carrying several 
warheads, would the United States still be content to count only 
operationally deployed warheads? Or would we worry about the risk posed 
by Russian cheating or break-out scenarios?
    Are we putting too many eggs in the basket that says, ``Russia 
can't afford to maintain its force levels?''
    If Russia were to keep its MIRVed ICBMs in service, how would that 
affect strategic stability in a crisis? Given Russia's great reliance 
upon MIRVed ICBMs, might it not take a ``use it or lose it'' approach?
    Given the degraded state of Russia's missile warning network, would 
Russian reliance on MIRVed ICBMs increase the risk of an accidental 
war?
    Is there no way to reach agreement with Russia on eliminating 
MIRVed ICBMs?
    Is there any way to limit the number of warheads that a MIRVed ICBM 
could carry? Why not require that missiles from which warheads have 
been downloaded be outfitted with a new RV ``bus''--the device that 
holds and dispenses the reentry vehicles--that could hold only the new 
number of warheads, so as to make it harder for either Party to break 
out of the Treaty by quickly putting more warheads back on its 
missiles?

    Answer. The Moscow Treaty will not place new restrictions on 
Russia's potential to deploy MIRVed ICBMs. It affords Russia the same 
force planning flexibility that we ourselves require. We are not overly 
concerned with hypothetical ``break-out'' scenarios (as we were during 
the Cold War), as shown by the fact that we decided to reduce to 1,700-
2,200 operationally deployed strategic nuclear warheads before the 
Moscow Treaty was negotiated, regardless of what the Russians opted to 
do.
    Regardless of whether Russia retains its SS-18 or SS-19 ICBMs or 
builds a new MIRVed missile, Russia's deployment of MIRVs has little 
impact on U.S. national security under current conditions. The issue of 
Russian MIRVed ICBMs was considered in the Nuclear Posture Review and 
during the negotiations. Since neither the United States and its allies 
nor Russia view our strategic relationship as adversarial, we no longer 
view Russian deployment of MIRVed ICBMs as destabilizing to this new 
strategic relationship.
    Having a Treaty means we are not ``putting all our eggs in one 
basket'' of assuming Russia can't afford to maintain its force levels. 
The Moscow Treaty legally obligates Russia to reduce its strategic 
nuclear warheads. If Russia retains MIRVed ICBMs, it will be required 
to have fewer missiles than if each carried only one warhead. However, 
we do not believe that Russia will retain its current inventory of 
MIRVed ICBMs. Russia is already deactivating its 10-warhead rail-mobile 
SS-24 force for age and safety reasons. We expect that most of the SS-
18 heavy ICBMs and six-warhead SS-19 ICBMs will reach the end of their 
service life and be retired by 2012.
    Under the Moscow Treaty, we will retain a nuclear force 
sufficiently flexible for our national security and that of our friends 
and allies. Additionally, we will continue to work with Russia to 
better understand their planning process and intentions. We expect that 
continued improvement in our relationship with Russia will provide 
greater transparency into the strategic capabilities and intentions of 
each Party.
    It is important to realize that we have entered into a new 
relationship with Russia that is no longer adversarial. Therefore, the 
question of reconstitution capability no longer has the significance it 
had during the Cold War.
    Our new strategic relationship with Russia is no longer based on a 
nuclear balance of terror. Because of this new relationship, we cannot 
conceive of any credible scenario in which we would threaten to launch 
our strategic forces at Russia. The scenario you describe of Russia 
believing it faced a ``use it or lose it'' situation with its force of 
MIRVed ICBMs is therefore not a credible concern.
    While we have no plans to re-load warheads on missiles from which 
warheads have been removed, a requirement to physically remove warhead-
carrying capability from missiles by outfitting them with a new RV 
platform would add significant unnecessary costs to U.S. strategic 
forces and restrict flexibility in an unpredictable future threat 
environment.


    Question. Should bombers that are converted to a non-nuclear role 
be readily convertible back to use with nuclear weapons? If so, why?

    Answer. Other than the B-1, we are not planning to convert any 
additional bombers to purely a conventional role. A fundamental U.S. 
objective in negotiating the Moscow Treaty was to preserve our 
flexibility to implement the Nuclear Posture Review (NPR) and its 
prescribed future force structure. Cost was also a major consideration. 
It would likely cost billions of dollars to replace weapons dispensing 
devices on our bombers. Therefore, this makes the NPR's call to 
preserve the ability of nuclear-capable bombers to deliver conventional 
weapons and vice versa an imperative. The B-52H bombers and B-2 bombers 
that will make up the bomber portion of the NPR force structure must be 
able to carry out both nuclear and conventional missions.
    The B-1 bomber, on the other hand, was removed from a nuclear role 
in 1997 and is now only used to conduct conventional operations. The 
NPR concluded that it is no longer necessary to maintain the ability to 
return the B-1 force to nuclear service because the numbers of B-52s 
and B-2s will be adequate to support our nuclear requirements.


    Question. Your testimony and your Letter of Submittal to the 
President state that the United States stores ``a small number of spare 
strategic nuclear warheads . . . at heavy bomber bases'' which it does 
not count as ``operationally deployed.'' How many ``spare'' warheads 
does this Treaty permit Russia to store at its heavy bomber bases?
     Your Letter of Submittal to the President speaks of ``a genuine 
strategic partnership based on the principles of mutual security, 
trust, openness, cooperation and predictability.'' How much 
predictability does either Party get from provisions that allow 
``reduced'' nuclear bombs to be stored wherever each Party pleases, and 
bombers to be readily convertible back to a nuclear role?

    Answer. The Treaty does not restrict a Party's decisions regarding 
how it will implement the required reductions in strategic nuclear 
warheads. Consistent with this it does not address the number of 
``spare'' warheads that either Russia or the United States is permitted 
to store at heavy bomber bases. The Article-by-Article Analysis notes 
that the United States has characterized this number as small.
    Practically speaking, the fact that the Treaty is legally binding 
provides predictability that each Party will fulfill its commitment to 
reduce strategic nuclear warheads to 1,700-2,200 by December 31, 2012. 
It is the number of strategic nuclear warheads available for use that 
really matters, and this is the number that is being reduced.
    If we believe Russia is not taking appropriate steps to meet the 
2012 deadline, we can raise this issue in the Bilateral Implementation 
Commission. The issue of hypothetical ``break-out'' scenarios no longer 
has the significance it had during the Cold War when our relationship 
with Russia was one based on a nuclear balance of terror. We concluded 
before the Moscow Treaty was negotiated that we could and would safely 
reduce to 1,700-2,200 operationally deployed strategic nuclear 
warheads, regardless of what the Russians did. That said, information 
obtained through START's verification regime, including its data 
exchanges and short-notice on-site inspections, and U.S. national 
intelligence resources will continue over the course of the decade to 
add to our body of knowledge regarding the size and disposition of 
Russia's strategic forces and the overall status of reductions in 
Russia's strategic nuclear forces. Moreover, the work of the 
Consultative Group for Strategic Security and the Treaty's Bilateral 
Implementation Commission will provide transparency into Russia's 
reduction efforts.


    Question.  Is there any way to limit what can be done with 
``reduced'' strategic nuclear warheads?
    Will the United States press Russia to provide secure, transparent 
storage for ``reduced'' warheads?
    Why not agree that ``reduced'' warheads will be stored some agreed 
distance away from the vehicles that would carry them?

    Answer. The Moscow Treaty balances deep reductions with flexibility 
to meet the future's uncertain security environment. For the United 
States, the Treaty will not affect decisions that will be made with 
respect to force structure, launchers, or the disposition of non-
operationally deployed strategic nuclear warheads.
    Decisions related to these issues are left to each nation's 
discretion as a matter of deliberate choice. Some of the U.S. warheads 
removed from operationally deployed status will be scheduled for 
destruction; others will be used as spares and some will be stored. For 
example, warheads removed from Peacekeeper ICBMs as that system is 
deactivated will be used to modernize the Minuteman III ICBM force.
    Nevertheless, many specific decisions still need to be made related 
to the disposition of individual types of warheads as we carry out the 
reductions stemming from the Nuclear Posture Review (NPR) and the 
Moscow Treaty. These specific decisions will be shaped by 
infrastructure constraints--such as limits on our capacity to dismantle 
warheads in a given period, by technical and operational concerns--and 
the capabilities that we require in balancing retention of our more 
modern warheads with avoiding complete dependence on the reliability of 
a few warhead types, and by uncertainties about future technical and 
strategic developments. Given the uncertain strategic environment and 
the fact that we are not manufacturing new warheads, the United States 
needs the flexibility to retain warheads to meet unforeseen 
contingencies. It is therefore not in the U.S. interest to limit what 
can be done with non-operationally deployed strategic nuclear warheads.
    Although Russia's stockpile maintenance practices differ from those 
in the United States, as far as we can determine, the Russian position 
is not dissimilar to the U.S. position. Contrary to the impression 
created by some press reports, the Russians did not table any proposals 
for nuclear warhead dismantlement during the negotiations on the Moscow 
Treaty. Nor did either side express interest in developing the kinds of 
complex provisions that would be needed to verify warhead dismantlement 
or limits on warhead stockpiles.
    In September, Secretary Rumsfeld and I are scheduled to meet with 
our Russian counterparts in the newly established Consultative Group 
for Strategic Security (CGSS). We plan to take advantage of this 
opportunity to discuss, among other things, ways in which we can 
strengthen mutual confidence and expand transparency related to U.S. 
and Russian nuclear weapons. We do not want to prejudge the outcome of 
these discussions on nuclear transparency and confidence building 
measures.
    In addition, we intend to continue to work with Russia, under the 
Cooperative Threat Reduction (CTR) program, when and to the extent 
permitted by law, to make its warhead storage facilities more secure. 
Such U.S. assistance will also increase the security of the Russian 
warheads made excess as provided in the Moscow Treaty. This assistance 
increases the physical security of Russian warhead storage facilities 
through better fencing and alarm systems, enhances the reliability of 
warhead security personnel and improves the accounting for Russian 
nuclear warheads. (CTR assistance cannot be provided to Russia or any 
other country of the former Soviet Union in any year unless there has 
been a certification under 22 U.C.S. 5952(d) of the commitment of that 
country to certain courses of action. Russia was not certified in 2002, 
but the President has waived the certification requirements for the 
balance of FY 2002 under authority included in the recently enacted 
supplemental counter-terrorism appropriations legislation.)


    Question. What needs and opportunities will this Treaty present for 
U.S. assistance to Russia through the Cooperative Threat Reduction 
program or our non-proliferation assistance programs?

    Answer. It is possible that the Russian Federation may need 
additional non-proliferation and threat reduction assistance as it 
reduces its strategic nuclear warheads under the Moscow Treaty. If 
requested by the Russian Federation, and subject to laws related to CTR 
certification, the Administration would be prepared to provide 
additional assistance for removing, transporting, storing, and securing 
nuclear warheads, disassembling warheads and storing fissile material, 
dismantling surplus strategic missiles, and disposing of associated 
launchers. The United States has already constructed a number of 
facilities in the Russian Federation to conduct such work under our 
current assistance programs, thus additional assistance would serve to 
take further advantage of capabilities and capacities already in place.


    Question. The National Intelligence Council's annual report on 
Russian nuclear security states:

          Russia employs physical, procedural, and technical measures 
        to secure its weapons against an external threat, but many of 
        these measures date from the Soviet era and are not designed to 
        counter the preeminent threat faced today-an insider who 
        attempts unauthorized actions.

    Absent U.S. assistance, would the security of stored Russian 
warheads be up to U.S. standards? Or would increased levels of Russian 
warhead storage increase the risk of diversion to rogue states or 
terrorists?

    Answer. U.S. assistance helps to improve the security of Russia's 
nuclear weapons by improving their physical protection (fencing, 
sensors, communications); accounting (improved hardware and software); 
personnel reliability (better screening); and guard force capabilities 
(more realistic training).
    These improvements are particularly important because Russia faces 
a difficult threat environment--political instability, terrorist 
threats, and insider threats resulting from financial conditions in 
Russia.
    The total number of warheads in Russian storage facilities may 
increase over the next ten years, in part due to Russia's inability to 
sustain larger number of deployed forces. A Russian decision to 
increase the number of stored warheads will be governed by a number of 
factors related to what Russia determines is in its national security 
interests, including the number of warheads Russia decides to dismantle 
rather than store. Even if Russia decides to store additional warheads 
under the Moscow Treaty, however, we are confident U.S. assistance will 
continue to increase the security of such weapons.


    Question. Should the United States help Russia to implement the 
reductions required by this treaty? Should we do so even if Russia, 
like the United States, chooses not to eliminate many of its warheads 
or delivery vehicles, but rather to store excess warheads, while 
keeping its bombers and MIRVed missiles in service?

    Answer. The Russian Federation committed to strategic nuclear 
reductions under the Moscow Treaty. Its obligations are not conditioned 
on U.S. assistance and we are confident Russia will meet its Treaty 
obligations.
    We provide assistance to eliminate Russian strategic delivery 
systems and associated infrastructure, facilitate the elimination of 
Russian warheads, and secure and reduce Russian nuclear material, 
because cooperative threat reduction efforts are in the national 
security interests of the United States.
    Any Russian decision to store, rather than eliminate, excess 
warheads will be made on the basis of its assessment of Russian 
national security needs. Regardless of how that decision comes out, it 
is in our own security interests to help ensure that remaining warheads 
are stored as safely and securely as possible to protect them from 
terrorist or third-country theft.


    Question. Should the United States help Russia to maintain tight 
security over the warheads it removes from delivery vehicles pursuant 
to this treaty? Should we do so even if Russia, like the United States, 
chooses not to destroy many of its warheads?

    Answer. The United States is providing assistance to increase the 
security of all non-deployed Russian warheads. Such assistance will 
also increase the security of the Russian warheads made excess by the 
Moscow Treaty.
    This assistance increases the physical security of Russian warhead 
storage facilities through better fencing and alarm systems, enhances 
the reliability of warhead security personnel and improves the 
accounting for Russian warheads.
    Any Russian decision to store, rather than eliminate, excess 
warheads will be made on the basis of its assessment of Russian 
national security needs. Regardless of how that decision comes out, it 
is in our own security interests to help ensure that remaining warheads 
are stored as safely and securely as possible to protect them from 
terrorist or third-country theft.


    Question. Should the United States offer to fund the elimination of 
Russian warheads and delivery systems, even though such eliminations 
would not be undertaken pursuant to any arms control treaty? Should we 
do so even if Russia builds new weapons (like the SS-27 missile), while 
eliminating old ones (like the much larger SS-18 and the SS-19 
missiles)?

    Answer. We provide assistance to help eliminate Russian strategic 
delivery systems, facilitate the elimination of excess Russian 
warheads, and secure and reduce Russian nuclear material because these 
cooperative threat reduction efforts are in the national security 
interests of the United States.
    One of the original motivations behind the Cooperative Threat 
Reduction (CTR) assistance program was our understanding that Russia 
lacked the resources necessary to eliminate expeditiously the huge 
number of excess nuclear weapons inherited from the Soviet Union.
    We continue to believe this U.S. assistance serves to increase the 
scope and accelerate the pace of Russian eliminations of strategic 
nuclear weapons. Our participation in the CTR process also helps give 
us confidence that Russia is carrying out its commitments.


    Question. Has the possibility of U.S. assistance to Russia in 
implementing this treaty been discussed with Russian officials? If so, 
how have those discussions gone? Please provide the relevant portions 
of the negotiating record to this committee.
    Have any formal or informal understandings been reached with Russia 
in this regard?
    What plans has the Administration made for expanded assistance to 
help Russia deal with the weapons that it ``reduces'' pursuant to this 
Treaty?
    What increased funding of Cooperative Threat Reduction and other 
U.S. programs will be needed for this purpose?

    Answer. The possibility of further CTR assistance in implementing 
the Moscow Treaty has not been specifically discussed with the Russian 
Federation. However, the CTR program already includes funding in the 
outyears to support deep reductions in Russian strategic nuclear 
delivery systems and their associated warheads. The Administration is 
prepared to expand CTR assistance, as required, to support the secure 
transport, storage and elimination of delivery vehicles and warheads 
under the Moscow Treaty, although there are no requirements related to 
this in the Moscow Treaty.


    Question. The Treaty does not limit tactical nuclear weapons, even 
though their limitation was adopted as a START III objective at the 
Helsinki summit of 1997. Why was this issue dropped out?

    Answer. The Moscow Treaty is based on the new strategic 
relationship between the United States and Russia. It therefore starts 
from a different premise and has different objectives than previous 
U.S.-Russian arms control efforts.
    The Moscow Treaty reflects President Bush's determination to 
expeditiously reduce the number of operationally deployed strategic 
nuclear weapons, and to reduce the time required to negotiate arms 
control agreements.
    Thus, the Treaty focuses on reductions in strategic nuclear 
warheads. At the same time, we have made clear to Russia our interest 
in non-strategic nuclear weapons, and in particular, in greater 
transparency regarding those weapons. We will be pursuing these 
questions with Russia.
    Over the last decade, the United States and Russia have both made 
significant reductions in their non-strategic nuclear weapons without a 
formal arms control agreement.
    However, we are concerned about the large number of Russian 
tactical nuclear weapons and Russia's nuclear warhead production 
capability.
    Both Secretary Rumsfeld and I have raised these concerns with our 
Russian counterparts. We put them on notice that we intend to address 
these issues bilaterally. We plan to pursue transparency discussions on 
tactical nuclear weapons as a priority matter in the Consultative Group 
for Strategic Security (CGSS), which will convene for the time this 
fall.
    Many aspects of the issue of tactical nuclear weapons also involve 
our NATO allies and our Alliance commitments, so it is an Alliance 
matter in addition to a bilateral issue with Russia.
    Accordingly, in the NATO-Russia channel, we will also continue to 
focus on developing confidence building and transparency measures for 
tactical nuclear weapons that complement our bilateral efforts.
    In addition, ongoing Cooperative Threat Reduction (CTR) programs 
and the Global Partnership Initiative Against the Spread of WMD (10+10/
10 initiative) will enhance the security of Russian nuclear warhead 
storage and add a measure of transparency.


    Question. Wouldn't it be in our national interest to have a 
verifiable accounting of Russia's tactical nuclear weapons and 
verifiable reductions in those weapons?
    How many tactical nuclear weapons do we believe Russia retains?
    Doesn't the record of uncertainty regarding Russian actions since 
1991 and 1992, when [Soviet and] Russian Presidents Gorbachev and 
Yeltsin promised massive reductions in tactical nuclear weapons, 
illustrate the relevance of formal agreements in this area?

    Answer. As I indicated in my testimony, we continue to be concerned 
about the uncertainties surrounding Russian non-strategic (tactical) 
nuclear weapons (NSNW). Therefore, it will be important to continue to 
pursue transparency for NSNW. Under the 1991-1992 Presidential Nuclear 
Initiatives (PNIs), Washington and Moscow issued parallel unilateral 
statements of intent to make significant reductions in NSNW. Russia has 
stated that most of the weapons Gorbachev and Yeltsin pledged to 
eliminate have been eliminated and that it plans to complete 
implementation of its PNIs by 2004 contingent on ``adequate 
financing.'' We believe that Moscow has fulfilled many of its pledges, 
but we have some concerns in this area and will press Moscow for 
information regarding these reductions and for their completion. A 
principal focus of our concern is on ``loose nukes.'' Developing and 
negotiating an effective verification regime for NSNW stockpiles is 
neither needed nor practical at this time. Information obtained through 
transparency measures will help us to ascertain how best to assist 
Russia to secure its NSNW from proliferation threats.
    With regard to your third question, the U.S. decision in 1991 to 
undertake a unilateral initiative on non-strategic nuclear weapons 
(NSNW), rather than negotiate a formal agreement was the correct 
decision. It was quickly reciprocated by Soviet President Gorbachev and 
reaffirmed, and expanded upon, by Russian President Yeltsin in January 
1992. As a result, without first negotiating and concluding a 
complicated arms control agreement, thousands of Russian NSNW (many 
from non-Russian republics) were withdrawn to central storage in Russia 
and removed from surface ships and submarines. Unquestionably, this 
unilateral approach made the world much safer than if we had waited for 
the completion of protracted, formal arms control negotiations during 
this uncertain period when the Soviet Union was disintegrating.
    Over the last decade, the U.S. and Russia have both continued to 
reduce their NSNW significantly without a formal arms control 
agreement.
    I do not want to prejudge my discussions with Russia, but we would 
like greater transparency for Russian NSNW, implementation of the PNIs, 
and for Russia's nuclear infrastructure in general. This is for both 
security and nonproliferation reasons.
    The United States and its NATO Allies have repeatedly expressed 
their concerns about the uncertainties surrounding NSNW in Russia and 
have called on Moscow to reaffirm the PNIs and to complete the 
reductions it pledged to make.
    I plan to raise these concerns with my Russian counterparts in the 
newly formed Consultative Group for Strategic Security (CGSS).


    Question. How many tactical nuclear weapons do we believe Russia 
retains?

    Answer. Due to its SECRET classification, this answer has been 
submitted under separate cover.


    Question. You testified that the issue of tactical nuclear weapons 
will be pursued in the Consultative Group for Strategic Security. Will 
the United States be prepared to eliminate its remaining tactical 
nuclear warheads or some of its non-deployed strategic nuclear warheads 
in return for Russia's elimination of all or nearly all of its tactical 
nuclear warheads?

    Answer. We do not want to prejudge our discussions with Russia. 
That said, it is important to note that NATO is committed to retaining 
a credible nuclear deterrent. We must likewise recognize that Russia is 
unlikely to eliminate ``all or nearly all of its tactical nuclear 
warheads'' under foreseeable circumstances. Separate from the Moscow 
Treaty, we will be pressing for greater transparency in Russian non-
strategic nuclear weapons (NSNW) and in Russia's nuclear infrastructure 
in general. This is directly relevant both to transparency about 
security-related activities and to our nonproliferation concerns about 
the control, safety, and security of Russian nuclear weapons and 
fissile material.
    Since 1991, the types and numbers of NATO sub-strategic nuclear 
forces have been reduced by approximately 85 percent, including the 
elimination of entire categories of weapons. We plan to press Moscow to 
complete the implementation of, and provide more transparency 
concerning, its 1991 and 1992 Presidential Nuclear Initiatives (PNI).
    It is premature to talk about further NSNW reductions. For a host 
of political and technical reasons, it would be difficult to subject 
these warheads for non-strategic weapons to treaty provisions. For 
example, most U.S. nuclear warheads for NSNW are designed for use with 
dual-capable delivery systems that are maintained primarily for non-
nuclear purposes. These reasons, in fact, contributed to the decision 
in 1991 to employ the PNI approach of parallel unilateral initiatives 
rather than pursuing formal arms control negotiations.
    In addition, with respect to U.S. non-strategic nuclear weapons in 
support of NATO, these weapons continue to play a vital role in the 
Alliance. Recent NATO statements have reaffirmed that the Alliance 
continues to place great value on U.S. nuclear forces based in Europe 
and committed to NATO, which provide essential political and military 
linkage between the European and the North American members of the 
Alliance. As recently as June 6, 2002, NATO Defense Ministers 
reaffirmed the importance of the Alliance's nuclear forces for 
preserving peace and preventing coercion and any kind of war.


    Question. Will the United States be prepared to offer assistance in 
accounting for, maintaining the security of, or eliminating Russia's 
tactical nuclear weapons?

    Answer. One of the original motivations for the Cooperative Threat 
Reduction (CTR) program was our belief that Russia lacked the resources 
necessary to eliminate expeditiously the huge number of excess nuclear 
weapons inherited from the Soviet Union and to maintain the remaining 
weapons as safely and securely as possible.
    We continue to believe this U.S. assistance serves to increase the 
scope and accelerate the pace of Russian reductions in nuclear weapons.
    Thus, when and to the extent permitted by law, the United States 
will continue to offer CTR assistance to Russia to increase the 
security of all of its non-deployed nuclear warheads, including 
tactical or sub-strategic nuclear warheads. (CTR assistance cannot be 
provided to Russia or any other country of the former Soviet Union in 
any year unless there has been a certification under 22 U.C.S. 5952(d) 
of the commitment of that country to certain courses of action. Russia 
was not certified in 2002, but the President has waived the 
certification requirements for the balance of FY 2002 under authority 
included in the recently enacted supplemental counter-terrorism 
appropriations legislation.)
    CTR assistance increases the physical security of Russian warhead 
storage facilities through better fencing and alarm systems, increases 
the capabilities of guard forces, enhances the reliability of warhead 
security personnel and improves the accounting for Russian warheads.
    Our assistance also facilitates the dismantlement of Russian 
nuclear warheads, including tactical or sub-strategic nuclear weapons 
being reduced under the Presidential Nuclear Initiatives (PNIs) of 1991 
and 1992, by providing increased secure storage and paying for the 
transportation of warheads to disassembly facilities.


    Question. What transparency measures does the Administration seek 
from Russia regarding the reductions required by this Treaty? What 
transparency measures does the Administration plan to institute so as 
to assure Russia that the United States is implementing the Treaty?

    Answer. As was discussed in the Section 306 Report, the United 
States will gain transparency into the disposition of Russia's 
strategic nuclear warheads and the overall status of reductions in its 
strategic forces through our own intelligence resources, bilateral 
assistance programs, the START Treaty, and the work of the Consultative 
Group for Strategic Security (CGSS) and the Treaty's Bilateral 
Implementation Commission. We expect Russia to gain transparency in 
much the same way. We have determined that specific additional 
transparency measures are not needed, and will not be sought, at this 
time. We recognize, however, that more contacts and exchanges of 
information could be useful and that the Parties could decide to 
develop additional transparency measures in the future. The CGSS will 
meet in September to begin the dialogue. The Bilateral Implementation 
Commission will meet after the Treaty enters into force.


    Question. What specific transparency or verification measures did 
each side propose during the negotiation of the treaty? Why were none 
of these adopted?

    Answer. During the initial stages of the talks, we exchanged views 
on a moderate set of potential reciprocal transparency measures. Once 
both countries agreed that the reduction obligations being codified 
would preserve the flexibility for each side to take its reductions in 
its own way, it appeared to the U.S. that there was no immediate need 
to work out transparency measures applicable to this context. Among 
other things, START's verification measures would continue to be 
available until December 2009. Russia too agreed that the Moscow Treaty 
need not include such measures. Accordingly, no specific transparency 
or verification measures were negotiated.
    However, as I made clear in my testimony, we are ready to discuss 
transparency.


    Question. What is the meaning of Article II, which appears only to 
acknowledge the obvious existence of the START treaty?

    Answer. The purpose of Article II is to make clear that the Moscow 
Treaty and the START Treaty are separate. It clarifies that the START 
Treaty's provisions do not extend to the Moscow Treaty, and the Moscow 
Treaty does not terminate, extend or in any other way affect the status 
of the START Treaty.


    Question. How can START declarations and inspections be used to 
verify compliance with commitments that use non-START definitions or 
counting rules?
    For example, START provided for ``reentry vehicle inspections of 
deployed ICBMs and SLBMs to confirm that such ballistic missiles 
contain no more reentry vehicles than the number of warheads attributed 
to them.'' But if a Party says that the missile contains fewer reentry 
vehicles than the warhead attribution number, is there any obligation 
to allow inspectors to verify that lower number? Will that be 
technically feasible?

    Answer. START's verification regime, including data exchanges and 
inspections, will continue to add to our body of knowledge over the 
course of the decade regarding the disposition of Russia's strategic 
nuclear warheads and the overall status of reductions in Russia's 
strategic nuclear forces.
    As you point out, START provides for reentry vehicle inspections of 
deployed ICBMs and SLBMs to confirm that such ballistic missiles 
contain no more reentry vehicles than the number of warheads attributed 
to them. Although technically feasible, START does not require the 
inspected Party to allow inspectors to verify that a missile contains 
fewer reentry vehicles than the number of warheads attributed to 
missiles of that type.
    The Moscow Treaty recognizes a new strategic relationship between 
the United States and Russia based on the understanding that we are no 
longer enemies and that the principles which will underpin our 
relationship are mutual security, trust, openness, cooperation, and 
predictability. This understanding played an important role in our 
judgments regarding verification. Our conclusion, as we state in the 
report submitted in accordance with Section 306 of the Arms Control and 
Disarmament Act, was that, in the context of this new relationship, a 
Treaty with a verification regime under the Cold War paradigm was 
neither required nor appropriate.


    Question. Experts have warned that the safest place to store 
Russian warheads might be on their missiles, in their silos--rather 
than in a storehouse that might be poorly secured. If Russia should 
announce a decision to leave its warheads on their missiles, while 
reducing its ``deployed'' warheads by disabling the missiles, how would 
we know that Russia was actually doing that?
    Would any provisions of this treaty or of the START Treaty require 
Russia to show us proof of that?

    Answer. Leaving warheads on missiles is not necessarily safer or 
more secure than housing them in a well-guarded storage facility. The 
nature of Russian warheads precludes their long-term storage in silos 
or upon missiles. As a practical matter, the high costs associated with 
maintaining warheads on missiles in a safe and secure manner precludes 
the long-term use of this technique to make reductions. Russia simply 
does not have the economic capability to maintain its current strategic 
missile force. Eliminating these systems, particularly with CTR 
assistance, is far more cost effective than maintaining them on 
missiles in their silos.
    There are no provisions in the Moscow Treaty or the START Treaty 
that would require Russia to demonstrate how some of its missiles armed 
with nuclear warhead(s) had been disabled to reduce the number of 
strategic nuclear warheads under the Moscow Treaty. The Moscow Treaty 
allows the United States and Russia to reduce their respective 
strategic nuclear warheads by any method they choose.
    Nevertheless, START's verification regime, including its data 
exchanges, short-notice on-site inspections, and provisions concerning 
telemetry, conversion and elimination, and mobile missile forces, will 
continue to add to our body of knowledge over the course of the decade 
regarding the disposition of Russia's strategic nuclear warheads and 
the overall status of reductions in Russia's strategic nuclear forces.


    Question. Why did you not take the opportunity to simply extend 
START through 2012? Are there any circumstances in which the United 
States would want to exceed the START limitations, either before or 
after December 2009? If so, please explain.

    Answer. The multilateral START Treaty could not have been extended 
in the context of the bilateral Moscow Treaty. The START Treaty is in 
place and will provide the foundation for confidence, transparency, and 
predictability for strategic offensive reductions. There will be ample 
time and opportunity over the next seven years to see how events unfold 
and to determine whether there will be a need to seek agreement among 
all five of the Parties to START. Moreover, as a result of work in the 
Consultative Group for Strategic Security and the Bilateral 
Implementation Commission, we will have a better sense of what, if any, 
supplementary measures we may want in place to enhance transparency and 
confidence regarding the Moscow Treaty reductions long before the START 
Treaty's current expiration date of December 5, 2009. Therefore, we saw 
no need to try to decide now whether and how START Treaty provisions 
could support our future objectives, which will undoubtedly evolve over 
the course of the next seven years.
    While we cannot exclude the possibility that some future 
circumstances may warrant increases in the number of operationally 
deployed strategic nuclear warheads above 1,700-2,200, at the present 
time we do not envision a circumstance that would necessitate an 
increase that would require us to withdraw from the START Treaty and, 
subsequently, exceed the final START limits. The Nuclear Posture Review 
established that maintaining between 1,700 and 2,200 operationally 
deployed strategic nuclear warheads would fully serve U.S. national 
security interests now and in the future. In November 2001, President 
Bush announced that, consistent with our national security and that of 
our allies, the United States would unilaterally reduce its 
operationally deployed strategic nuclear warheads to that level over 
the next ten years. The United States would not exceed the final START 
limitations, which were reached by all START Parties on or before 
December 5, 2001, without withdrawing from the START Treaty.


    Question. Why did you not at least extend through 2012 the 
verification provisions of START, for the purpose of verifying 
compliance with this new treaty?

    Answer. The START verification regime will provide the foundation 
for transparency into the implementation of the Moscow Treaty. During 
the negotiations, the United States and Russia did not elect to create 
a mechanism to extend the multilateral START Treaty in the context of 
the bilateral Moscow Treaty. In addition, at this time and in view of 
the fact that START's expiration is some seven years in the future, it 
was not pressing to resolve that issue during the negotiation of the 
Moscow Treaty. As we implement the Moscow Treaty and evaluate the 
information gained through START and other means, we will be in a 
stronger position to determine whether it would be in the interest of 
both Russia and the United States to extend bilaterally the 
verification provisions of the five-Party START Treaty beyond 2009.


    Question. In your prepared testimony, you referred to the U.S. 
counting rules for warheads and declared: ``This is a departure from 
the way in which warheads are counted under the START Treaty, but one 
that more accurately represents the real numbers of warheads available 
for use immediately or within days.'' This would appear to pertain 
only, however, if the resulting count is verifiable. Absent additional 
verification measures, if Russia were to adopt the U.S. counting rule 
for its own reductions, would the United States have greater confidence 
in the accuracy of that count, or of a count using START counting 
rules?

    Answer. President Bush stated last November 13 that the United 
States intended to reduce its operationally deployed strategic nuclear 
warheads unilaterally whether or not Russia followed suit. President 
Putin's welcome decision to reciprocate, and the subsequent Treaty that 
records these unilateral reduction commitments, is a sign of our new, 
cooperative strategic relationship--a relationship that does not depend 
on our ability to verify Russian reductions.
    From the outset, the objective was to reduce the number of 
strategic nuclear warheads to the lowest level that would best meet 
U.S. and Russian national security needs. The United States has stated 
that it will meet the 1,700 to 2,200 limit by reducing its number of 
``operationally deployed strategic nuclear warheads.'' During the 
negotiations, Russia suggested that it anticipated reducing warheads by 
eliminating or converting missiles, launchers and heavy bombers. 
However, Russia did not state conclusively during the negotiations how 
it intends to carry out its reductions. Should Russia elect to achieve 
the limit in this way or by using the U.S. method, the result in either 
case will reduce the number of strategic nuclear warheads available for 
use below START Treaty levels.


    Question. Has the Administration tasked the U.S. Intelligence 
Community to monitor Russian compliance with the Treaty?
    Will that require increased effort on their part, and are 
sufficient funds budgeted for that?

    Answer. The National Intelligence Estimate for the Moscow Treaty, 
that discusses the Intelligence Community's (IC) ability to assess 
Russia's implementation of the Moscow Treaty, addresses this issue. 
While the content of this Estimate is classified, the document is 
available to members of the Senate. To complement the U.S. national 
intelligence resources, the implementation of the START Treaty will 
continue to add to our body of knowledge over the course of the decade 
regarding the disposition of Russia's strategic nuclear warheads and 
the overall status of reductions in Russia's strategic nuclear forces.
    The question regarding sufficiency of resources for the IC to 
perform its monitoring tasks should be directed to the Director of 
Central Intelligence.


    Question. The Joint Declaration on the New Strategic Relationship 
states that the START Treaty's ``provisions will provide the foundation 
for providing confidence, transparency, and predictability in further 
strategic offensive reductions.'' Why is this statement in the Joint 
Declaration, rather than in the Treaty?
    Does either the Treaty or the Joint Declaration require that data 
exchanges and inspections pursuant to the START Treaty be adjusted in 
any way?

    Answer. The Joint Declaration is a policy document, while the 
Moscow Treaty is legally binding. The cited reference to START in the 
Joint Declaration expresses the United States' and Russia's view of the 
value of the START Treaty's verification regime for providing data and 
access relevant to each Party's understanding of activities related to 
the Moscow Treaty. It does not amend, or add to, the Moscow Treaty. It 
also did not create any new rights or obligations with respect to 
START, but merely recognized the effects of existing ones. 
Consequently, the Declaration was the appropriate place for such 
language.
    Neither the Moscow Treaty nor the Joint Declaration requires that 
changes be made to any START Treaty provisions, including its data 
exchanges or inspection regime. Article II of the Moscow Treaty makes 
clear that START continues in force unchanged by this Treaty and that 
the START Treaty provisions do not extend to the Moscow Treaty. The 
Joint Declaration also states that START remains in force in accordance 
with its own terms. START notifications and inspections will continue 
unaffected by either the Moscow Treaty or the Joint Declaration.
    As I made clear in my July 9 testimony, the United States is ready 
to discuss additional transparency measures relevant to the Moscow 
Treaty. However, such measures would not change START obligations.


    Question. How will the Administration build on the START 
foundation? The Joint Declaration refers to ``other supplementary 
measures, including transparency measures, to be agreed.'' What 
measures are contemplated, and when do you expect to achieve them?
    Will these measures be adopted as amendments or protocols to the 
Treaty, as executive agreements, or as new treaties?

    Answer. One of the principal elements of the new strategic 
relationship between the United States and Russia is that there is no 
longer a need to regulate every step as we reduce our strategic nuclear 
warheads. START provides us with a strong foundation for transparency 
into reductions under the Moscow Treaty. In particular, START's 
verification regime will continue to add to our body of knowledge over 
the course of the decade regarding the disposition of Russia's 
strategic nuclear warheads and the overall status of reductions in 
Russia's strategic nuclear forces. However, until we know how Russia 
plans to makes its reductions and the Moscow Treaty enters into force 
and we acquire experience with implementing its provisions, it is 
premature at this point to attempt to forecast what transparency 
measures would be useful.
    The form that any supplementary measure would take, and whether it 
would be transmitted to the Senate for its advice and consent, will be 
determined by the nature and content of that measure.


    Question. The Joint Declaration gives the Consultative Group for 
Strategic Security a mandate as ``the principal mechanism through which 
the sides . . . expand transparency.'' What role will that group have 
in verification or implementation of this Treaty? How will this compare 
to the role of the Bilateral Implementation Commission established in 
Article III of the Treaty?
    You testified that the Bilateral Implementation Commission would be 
expected ``to see if we need more transparency to give us confidence'' 
and ``will be looking for new ways to enhance transparency and give us 
the kind of insight we need to have.'' What authority will the 
Commission have to recommend or adopt specific transparency measures?
    Why wasn't this authority made clear in the Treaty itself?
    Has Russia stated that it views the relative roles of the Bilateral 
Implementation Commission and the Consultative Group for Strategic 
Security in the same way that the United States does? Is that in the 
negotiating record? If so, please provide the relevant portions of that 
record to this committee.

    Answer. The Administration believes that the different roles of the 
BIC and the CGSS are made clear in the Moscow Treaty and the Joint 
Declaration on the New Strategic Relationship, respectively. The 
Consultative Group for Strategic Security (CGSS) will be a diplomatic 
consultative group chaired at the foreign and defense ministerial 
level, with the participation of other senior officials. This group 
will be the principle mechanism through which the sides strengthen 
mutual confidence, expand transparency, share information and plans, 
and discuss strategic issues of mutual interest.
    The Bilateral Implementation Commission (BIC) will also be a 
diplomatic consultative forum, which will meet at least twice a year 
once the Moscow Treaty is in force to discuss issues related to 
implementation of the Treaty. The Treaty specifies that the purpose of 
the BIC is to assist in implementing the Treaty. The BIC thus has a 
narrower focus than the CGSS, and will be separate and distinct from 
the CGSS.
    The Treaty provides no special negotiating authority for the BIC 
because there was no need to do so. The nature of the Moscow Treaty is 
such as to obviate any need for the expedited ``viability and 
effectiveness'' changes procedure that the Senate accepted as 
appropriate for other vastly more complex arms control treaties, such 
as START.
    If any additional agreements are concluded, their submission to the 
Senate for advice and consent will depend on their nature and content.
    Russia has not stated its views on the two groups' different roles.


    Question. The Treaty does not specify any benchmarks for reductions 
before December 31, 2012. Why did you choose that approach? Does the 
United States intend to postpone a significant portion of the required 
reductions until the last few years before the deadline?

    Answer. The absence of interim reduction levels in the Treaty means 
that each Party is free over the next ten years to retain the level of 
strategic nuclear warheads it considers necessary for its own national 
security, consistent with its obligation to meet the final deadline. It 
gives each Party greater flexibility to make reductions on a schedule 
that is cost-effective. This flexibility will allow us to adjust our 
strategic posture to respond to unforeseen contingencies such as 
emerging threats or system failures.
    As discussed in the Department of Defense's Nuclear Posture Review 
submitted to Congress earlier this year, by the end of Fiscal Year 2007 
(FY07) the United States plans to retire all 50 of its ten-warhead 
Peacekeeper ICBMs and remove four Trident submarines from strategic 
nuclear service. This will reduce the number of U.S. operationally 
deployed strategic nuclear warheads by almost 1100 warheads. The 
specific additional reductions that will be made to meet the Treaty 
limits have not yet been decided. They will be part of the development 
and deployment of the New Triad established by the December 2001 
Nuclear Posture Review.
    Moscow Treaty reductions will entail careful planning and execution 
on both sides. Our best judgment is that allowing ten years for this 
process will give both Parties time to complete these actions in a 
sound, responsible, and sustainable manner. We feel that the timeframe 
and the deadline are just what they should be. If either Party should 
have concerns about the other's progress towards meeting the Treaty's 
reduction deadline, it can raise them in the Bilateral Implementation 
Commission.


    Question. Does this Treaty bar force increases before 2012, so long 
as such increases do not breach another treaty? Has Russia stated that 
it shares the U.S. interpretation of the Treaty in this regard? If so, 
please provide the relevant statements or portions of the negotiating 
record.

    Answer. The Moscow Treaty does not bar force increases before 2012 
as long as the required reductions are made by the December 31, 2012 
reduction deadline. We have made this position clear to the Russian 
Federation. If either Party has concerns about the other's progress 
toward meeting the Treaty's reduction deadline, it can raise them in 
the Bilateral Implementation Commission.
    There are no relevant statements in the negotiating record.


    Question. Article I of the Treaty requires each Party to ``reduce 
and limit strategic nuclear warheads.'' What are the implications of 
the words ``reduce and limit?'' Does this language bar any interim 
force increases?
    How can we be certain that Russia understands the implications of 
this language as we do?

    Answer. The words ``reduce and limit'' in Article I refer to the 
reductions that must be made by the December 31, 2012 deadline and the 
limitation (1,700-2,200 strategic nuclear warheads) that would apply in 
the event that the Parties were to extend the duration of the Treaty.
    The Moscow Treaty does not bar force increases before 2012, as long 
as the December 31, 2012 reduction deadline is met. However, if either 
Party has concerns about the other's progress toward meeting the 
Treaty's reduction deadline, it can raise them in the Bilateral 
Implementation Commission.
    We made these positions clear to the Russian Federation during the 
course of the negotiations.


    Question. Is there any reason why the United States could not or 
should not accelerate its force reductions (for example, by removing 
warheads)?

    Answer. The 10-year deadline for reductions under the Moscow Treaty 
allows flexibility for each side to implement the reductions in a 
manner appropriate to its own circumstances. The United States will 
make these reductions as part of the development and deployment of the 
New Triad that was established by the December 2001 Nuclear Posture 
Review.
    Another factor is that these substantial U.S. and Russian 
reductions will entail careful planning and execution on both sides, 
and, therefore, will require considerable time to complete. Allowing 
ten years for this process to be completed will give both Parties time 
to complete these actions in a sound, responsible, and sustainable 
manner. We will make our reductions consistent with our Treaty 
obligations and our national security requirements.


    Question. Is there any reason why the United States could not or 
should not at least lower the operational status of forces slated for 
later reduction (for example, by changing the alert status of missile 
bases or the deployment patterns of submarines)?
    The Helsinki summit of 1997 established a START III objective of 
``placement in a deactivated status of all strategic nuclear delivery 
vehicles which will be eliminated by START II by December 31, 2003.'' 
Why was no provision of that sort included in this Treaty?

    Answer. There would be little or no benefit to lowering the 
operational status or launch readiness (sometimes called 
``dealerting'') of operationally deployed strategic nuclear warheads 
before they are reduced, and there are a number of reasons not to do 
so. The State Department would defer to the Department of Defense 
regarding the particulars of those reasons.
    In regard to the Helsinki Summit objective of early deactivation, 
the Russians in fact subsequently resisted taking any steps to act on 
that proposal. A requirement to deactivate missiles prior to reductions 
would have burdened both our countries with arbitrary restrictions on 
future force structure planning. This would be in diametric opposition 
to the Treaty's intention to give each Party flexibility in how it 
makes its reductions.


    Question. Since the Treaty is scheduled to expire on the first day 
that its only force reduction requirement takes effect, how binding 
will it be in practice? If one Party should choose to ignore its 
obligation, what will the other Party be able to do about it?
    If this Treaty does not really bind each Party in practice, then 
how does it contribute to the ``trust, openness, cooperation and 
predictability'' that you cited in your Letter of Submittal to the 
President?

    Answer. After it enters into force, the Moscow Treaty will be a 
legally-binding document. Each Party must accomplish the required 
reductions and meet the Treaty limit by December 31, 2012. In practice, 
to meet this Treaty's limit, reductions on both sides will begin long 
before December 31, 2012. In addition, given the processes and 
resources involved in reconstituting forces, neither Party is going to 
be able to immediately reconstitute its forces after expiration of the 
Treaty. Moreover, we can extend the Treaty if both Parties agree to do 
so.
    If either Party has concerns about the other's progress toward 
meeting the Treaty's reduction deadline, it can raise them in the 
Bilateral Implementation Commission. Moreover, either Party, in 
exercising its national sovereignty, will have the option to withdraw 
from the Treaty upon three months written notice to the other Party.
    Though the United States, for its part, intended to make its 
reductions with or without a treaty, the Treaty nonetheless serves as 
an important, formal, and enduring demonstration of the new strategic 
relationship between the United States and Russia.


    Question. The Joint Declaration on the New Strategic Relationship 
states a joint ``intention to carry our strategic offensive reductions 
to the lowest possible levels'' and it calls the Treaty ``a major step 
in this direction.'' That implies an intent that our reductions could 
go still further. Is that a correct interpretation of the Joint 
Declaration?
    What ``lowest possible levels'' is the Administration considering? 
What further reductions are most likely?

    Answer. Along with all other Parties to the Treaty on the Non-
Proliferation of Nuclear Weapons of July 1, 1968 (the NPT), we are 
obligated by Article VI ``to pursue negotiations in good faith on 
effective measures related to cessation of the nuclear arms race at an 
early date and to nuclear disarmament, and on a treaty on general and 
complete disarmament under strict and effective international 
control.'' The statement in the Joint Declaration of May 24, 2002, 
therefore, appropriately reflects this commitment, as does similar 
preambular language in the Moscow Treaty. The conclusion of the Moscow 
Treaty takes a major step in this direction by codifying the two 
Parties' intention to carry out reductions to the level of 1,700-2,200 
strategic nuclear warheads.
    The Moscow Treaty's 1,700-2,200 limit on strategic nuclear warheads 
represents the number of operationally deployed strategic nuclear 
warheads that we have concluded is necessary to meet U.S. and allied 
security requirements. Therefore, it is also the lowest possible level 
the Administration is considering in the current and foreseen security 
environment. Reductions beyond the 1,700-2,200 level have not been 
planned, but the Department of Defense continually assesses the 
military requirement levels for strategic nuclear warheads.
    The United States and Russia both intend to carry out strategic 
offensive reductions to the lowest levels possible, consistent with our 
national security requirements, alliance obligations, and reflecting 
the new nature of our strategic relations.


    Question. Why are the reductions to 1,700-2,200 warheads, rather 
than to a narrower range? Why does the United States need 500 more 
operationally deployed warheads than Russia?

    Answer. President Bush made it clear from the outset that he 
intended to reduce U.S. nuclear weapons to the lowest number consistent 
with U.S. and allied security requirements. Based on the Nuclear 
Posture Review, he determined that U.S. forces in a range of 1,700-
2,200 operationally deployed strategic nuclear warheads (ODSNW) will 
provide the capability and flexibility necessary to counter known 
threats and hedge against surprise technical or other unforeseen 
developments.
    This range is not based on Cold War paradigms or on how many more 
weapons we need over those possessed by any other specific country. The 
Department of Defense identified this range of ODSNW as the lowest 
number sufficient to meet U.S. national security needs now and into the 
foreseeable future. The President has concluded that we can safely 
reduce to that level over a period of time, while we watch a still 
uncertain world unfold before us. As outlined in the NPR, the United 
States had already, before negotiating the Moscow Treaty, decided to 
unilaterally reduce the size of its strategic nuclear forces to the 
level of 1,700-2,200 ODSNW. The NPR envisaged the 1,700-2,200 range of 
ODSNW reflected in the Treaty; nothing in either the NPR or the Treaty 
requires that the United States maintain 2,200 ODSNW, or that it have 
more ODSNW than Russia does.


    Question.  Russia is a friend and not an enemy today because of the 
reforms begun by former Presidents Gorbachev and Yeltsin and continued 
by President Putin. Nevertheless, even after completing the reductions 
called for in this treaty, Russia will retain enough nuclear weapons to 
annihilate American society. How certain are we that Russian 
democratization is both wide and deep enough to insure against the 
possibility of a return to dictatorship?

    Answer. We have every reason to expect that the democratic and 
market reforms carried out by successive Russian governments since the 
late 1980's represent a fundamental break with Soviet totalitarianism.
    Russia has accepted the principle of the legitimacy of political 
leadership based on elections, which have been largely but not 
completely free and fair. Basic freedoms--of speech, religion, 
association and assembly--are guaranteed by the Russian constitution 
and largely observed in practice. A nascent but vibrant civil society 
continues to spread and gain influence. Many national and some local 
media, while not completely free and independent, are able to comment 
critically on government policy. To be sure, authoritarian elements of 
state conduct persist in the Russian Government's treatment of 
independent media, treatment of certain non-Orthodox religious 
communities, issuing of questionable espionage indictments against 
certain journalists and researchers, and in the conduct of its military 
in Chechnya. However, we regard the possibility of a return to true 
dictatorship in Russia--whether Soviet, nationalist-xenophobic, or some 
other type--as remote.


    Question. The Treaty calls for reductions in ``strategic nuclear 
warheads,'' but contains no definition or counting rules for that term. 
In your prepared testimony, you state that the United States proposed a 
detailed definition of ``operationally deployed strategic nuclear 
warheads,'' but failed to reach agreement with the Russians. What 
definition did the United States propose?
    What definitions, if any, did the Russian negotiators propose?
    Why was the United States unwilling to apply the START counting 
rules in this Treaty? What rigidities would those counting rules have 
imposed on U.S. reductions?

    Answer. The United States proposed the definition of 
``operationally deployed strategic nuclear warheads'' described in our 
Article by Article analysis and made clear this is the definition the 
U.S. intends to use in carrying out its obligations under Article I of 
the Treaty. We consider such warheads to be ``reentry vehicles on ICBMs 
in their launchers, reentry vehicles on SLBMs in their launchers 
onboard submarines, and nuclear armaments loaded on heavy bombers or 
stored in weapons storage areas at heavy bomber bases.'' The United 
States also made clear that a small number of spare strategic nuclear 
warheads, including spare ICBM warheads, would be located at heavy 
bomber bases and that the United States would not consider these 
warheads to be operationally deployed strategic nuclear warheads.


    [THIS PARAGRAPH HAS BEEN SUBMITTED UNDER SEPARATE CLASSIFIED 
COVER.]

    Our objective in the Moscow Treaty was to limit the number of 
strategic nuclear warheads available for immediate use. The concept of 
limiting operationally deployed strategic nuclear warheads provides a 
more accurate measure of this number than START counting rules while 
also allowing us to carry out reductions in an effective, economical 
manner and preserve our ability to utilize delivery systems for other 
purposes, including as conventional weapons platforms. This balance of 
interests is more appropriate given our new strategic relationship with 
Russia and the need to maintain flexibility to respond, if necessary, 
to a more fluid and unpredictable global security environment.
    Strictly defined counting rules that do not reflect the actual 
number of warheads deployed on delivery vehicles played an important 
part in previous strategic arms control agreements to make 
accountability absolutely clear in advance. However, these counting 
rules came at the cost of complexity and arbitrariness.
    Given the new U.S.-Russian strategic relationship, counting rules 
were not needed for this Treaty. Moreover, counting rules restrict 
flexibility. For example, attributing a number of ``warheads'' to each 
bomber based on the maximum number of nuclear weapons it can carry 
would have required the United States to drastically reduce the size of 
our strategic bomber force, although these bombers and their weapons-
carrying capabilities are needed for non-nuclear missions.
    An essential feature of the Treaty is to allow the United States 
and Russia to reduce their respective strategic nuclear warheads by any 
methods they may choose. While taking the important step of reducing 
warheads available for immediate use, we need to retain the flexibility 
to meet unforeseen contingencies.


    Question. What definition or counting rules will Russia use?

    Answer. In making its reductions, Russia will establish its own 
definition of ``strategic nuclear warheads.'' Russia did not state 
conclusively during the negotiations how it intends to carry out its 
reductions. Our original decision to make reductions was not dependent 
on whether Russia reduced its own forces to the same number, and we 
believe Russia has compelling reasons of its own, unrelated to the 
Moscow Treaty, to wish to reduce to the 1,700-2,200 range.


    Question. How can we be certain that Russia understands the meaning 
of the term ``strategic nuclear warheads'' as we do? Is there any 
written or unwritten agreement on definitions?
    The Article-by-Article Analysis states that ``Article I, by 
referencing the statements of both Presidents, makes clear that the 
Parties need not implement their reductions in an identical manner.'' 
Does this mean that each Party may use its own definition of the term 
``strategic nuclear warheads,'' or only that each Party may take 
different paths to achieving the required warhead numbers under a 
common definition? If the former interpretation pertains, then where is 
it made clear that each Party is required to meet only its own 
definition of the reduction requirement?
    Has the Russian Federation ever said explicitly that the United 
States is free to adopt the definition and counting rules stated in 
your Letter of Submittal and the Article-by-Article Analysis? Or is 
there a difference of view between the two Parties on this matter?
    What does the negotiating record say on this? Please provide to 
this committee the relevant portions of that record.

    Answer. There is no definition of the term ``strategic nuclear 
warheads'' in the Treaty, nor is there any written or unwritten 
agreement on definitions elsewhere. Each Party may define the term in 
its own way and may reduce its strategic nuclear warheads by any method 
it chooses.
    When the United States proposed the final formulation for Article I 
of the Treaty, senior U.S. officials explained that the purpose of the 
formulation was to give each Party the flexibility to make reductions 
in the manner best suited to its circumstances and the flexibility to 
determine the structure and composition of its strategic nuclear 
forces.
    It was also made clear during the discussions leading to the Treaty 
that the United States will reduce its forces in accordance with 
President Bush's statement referred to in Article I of the Treaty; 
i.e., that the United States would define its reductions in terms of 
operationally deployed strategic nuclear warheads. While Russia is 
under no obligation to reduce its strategic nuclear warheads in the 
same manner, Russia does have an obligation to reduce to 1,700-2,200 
strategic nuclear warheads.
    By signing the Treaty, the Russian side signaled its agreement to 
the flexible formulation of Article I and acceptance of the United 
States' intended method for implementing Article I's requirement.


    Question. According to the Article-by-Article Analysis, U.S. 
negotiators noted to their Russian counterparts that the United States 
would interpret, for the purposes of its own reductions, operationally 
deployed strategic nuclear warheads as:


        . . . reentry vehicles in ICBMs in their launchers, reentry 
        vehicles on SLBMs in their launchers onboard submarines, and 
        nuclear armaments loaded on heavy bombers or stored in weapons 
        storage areas of heavy bomber bases. The United States also 
        made clear that a small number of spare strategic nuclear 
        warheads (including spare ICBM warheads) would be located at 
        heavy bomber bases and that the United States would not 
        consider these warheads to be operationally deployed strategic 
        nuclear warheads.

    Please explain the distinction, for the purposes of implementing 
this treaty, between a reentry vehicle and a missile warhead. Are they 
synonymous terms? Or can the United States equip a strategic missile 
such that the number of warheads would differ from the number of RV's?

    Answer. Although the term ``missile warhead'' does not appear 
anywhere in the Moscow Treaty, for the purposes of implementing the 
Treaty, the term ``warhead,'' as it relates to ICBMs or SLBMs, is 
synonymous with ``reentry vehicle.'' In contrast, heavy bomber nuclear 
armaments are not technically the same as missile warheads and RVs. For 
Treaty purposes, however, they are included in the term ``strategic 
nuclear warheads.''
    In the context of the Moscow Treaty, as the Article-by-Article 
makes clear, only ``nuclear'' reentry vehicles, as well as nuclear 
armaments, are subject to the 1,700-2,200 limit. Under this Treaty, 
once such warheads are no longer operationally deployed, they will no 
longer be included under that ceiling.


    Question. How will the United States distinguish between ``spare 
strategic nuclear warheads . . . located at heavy bomber bases,'' which 
would not count as operationally deployed strategic nuclear warheads, 
and ``nuclear armaments . . . stored in weapons storage areas of heavy 
bomber bases,'' which would count? How many spare warheads, other than 
ICBM warheads, will be stored in this manner? What transparency 
measures is the United States prepared to offer Russia to illustrate 
this distinction?

    Answer. No specific decisions have yet been made regarding spares 
other than that the United States has a requirement to locate a small 
number of spare strategic nuclear warheads at bomber bases. These may 
well vary across the life of the Treaty, depending on future force 
structure decisions, the assessed safety and reliability of the 
stockpile, and the dynamic strategic environment. We refer you to DOE 
and DOD for more information on this subject.
    As noted in the May 24 Joint Declaration on the New Strategic 
Relationship, the Consultative Group for Strategic Security will be the 
principal mechanism through which the United States and Russia 
strengthen mutual confidence, expand transparency, share information 
and plans, and discuss strategic issues of mutual interest. Neither 
Party has expresses interest in any specific types of transparency 
measures.


    Question. Your Letter of Transmittal to the President and the 
Article-by-Article Analysis state: ``In the context of this Treaty, it 
is clear that only 'nuclear' reentry vehicles, as well as nuclear 
armaments, are subject to the 1,700-2,200 limit.'' What non-nuclear 
reentry vehicles does the United States have for its strategic 
missiles?
    How will the United States demonstrate that a reentry vehicle is 
non-nuclear, if one should be on a missile or at a storage site 
inspected or visited by a Russian on-site inspector?

    Answer. This issue would only arise if a Party deployed 
conventional reentry vehicles on its ballistic missiles. The United 
States does not deploy any non-nuclear reentry vehicles on its 
ballistic missiles. The Moscow Treaty imposes no requirements for 
demonstrations of whether reentry vehicles are non-nuclear, or for 
inspections or visits to storage sites.


    Question. The START Treaty allows a Party to withdraw, after giving 
6 months' notice, ``if it decides that extraordinary events related to 
the subject of this Treaty have jeopardized its supreme interests.'' 
Why was it necessary to reduce the notice period to three months and to 
delete the requirement for any justification for withdrawal?

    Answer. The provision allowing withdrawal on three months', rather 
than six months', written notice provides greater flexibility for each 
side to respond in a timely manner to unforeseen circumstances, whether 
those circumstances are technical problems in the stockpile, the 
emergence of new threats or other changes in the international 
environment.
    The Moscow Treaty's formulation for withdrawal reflects the 
likelihood that a decision to withdraw would be prompted by causes 
unrelated either to the Treaty or to our bilateral relationship. We 
believe this formulation more appropriately reflects our much-improved 
strategic relationship with Russia.
    However, both the withdrawal formulation typically found in Cold 
War arms control treaties (``if it decides that extraordinary events 
related to the subject matter of this Treaty have jeopardized its 
supreme interests'') and the Moscow Treaty's more general ``in 
exercising its national sovereignty'' are legally similar in that both 
allow each Party to determine for itself whether conditions requiring 
withdrawal exist.


    Question. How likely is it that the United States will discover a 
need to breach these modest limits on such short notice?

    Answer. Based on an extensive study by the Department of Defense of 
our nuclear posture, President Bush announced that the United States 
would reduce its operationally deployed strategic nuclear warheads to a 
level between 1,700-2,200 warheads. In indicating that the United 
States was prepared to proceed unilaterally, and inviting President 
Putin to implement similar reductions, President Bush made clear that 
the United States could do this without jeopardizing U.S. security, 
even without reciprocal Russian reductions. However, we cannot predict 
what challenges may arise within the next decade. For this reason, the 
withdrawal clause was carefully fashioned to allow flexibility for each 
side to respond to unforeseen circumstances, whether those 
circumstances are technical problems in the stockpile, the emergence of 
new threats, or other changes in the international environment.


    Question. Does the Administration anticipate a need to withdraw 
from this Treaty for a lesser reason than that which is required in 
START?

    Answer. Unlike the withdrawal formulation found in the START Treaty 
(``if it decides that extraordinary events related to the subject 
matter of this Treaty have jeopardized its supreme interests''), the 
Moscow Treaty's more general withdrawal formulation (``in exercising 
its national sovereignty'') is not tied to a Party's determination that 
extraordinary circumstances jeopardizing its supreme national interests 
exist. Because the new strategic relationship between the United States 
and Russia is based on common responsibilities and common interests 
rather than a nuclear balance of terror, the Cold War formulation for 
the withdrawal clause was not consistent with the different and more 
cooperative approach to reductions embodied in the Moscow Treaty.
    While it is possible that a Party might need to withdraw from the 
Treaty because of unforeseen events, in this day and age such action 
would likely be for reasons completely unrelated to the bilateral 
relationship. Neither country can predict what security challenges may 
arise within the next decade. For this reason, the withdrawal clause 
was carefully fashioned to allow flexibility for each side to respond 
to unforeseen circumstances, whether those circumstances are technical 
problems in the stockpile, the emergence of new threats, or other 
changes in the international environment. This is not a ``lesser'' 
reason than that envisioned in the START withdrawal clause.


    Question. Since the Treaty imposes no limit until December 31, 
2012, when the Treaty itself will expire unless extended, why is there 
any need for a withdrawal provision before then?
    The real impact of the new withdrawal provision would appear to be 
to allow a Party to announce its intent to withdraw on September 30, 
2012, thus nullifying the sole reduction requirement in the Treaty, 
without giving--or needing--any justification. How will a treaty with 
such a low standard for withdrawal produce the ``genuine strategic 
partnership based on . . . predictability'' that you forecast in your 
Letter of Submittal to the President?

    Answer. Neither country can predict what security challenges may 
arise within the next decade. For this reason, the withdrawal clause 
was carefully fashioned to allow flexibility for each side to respond 
to unforeseen circumstances, whether those circumstances are technical 
problems in the stockpile, the emergence of new threats, or other 
changes in the international environment.
    Because both countries signaled their intent to undertake the 
reductions in deployed strategic nuclear weapons that became embodied 
in the Treaty, the likelihood either Party would delay beginning its 
reductions until late in the Treaty's term, then withdraw without 
having met its reduction obligations, is not plausible. Reductions on 
both sides will begin long before December 31, 2012. If Russia is not 
taking appropriate steps to meet the 2012 deadline, we can raise this 
issue in either the Consultative Group for Strategic Security or the 
Bilateral Implementation Commission.


    Question. What role will the Congress have in any decision to 
withdraw from this treaty?
    Will the Administration agree at least to consult closely with this 
committee before making any such decision?

    Answer. While it is the President who withdraws from treaties, the 
Administration intends to discuss any need to withdraw from the Treaty 
with the Congress, to include the Senate Foreign Relations Committee, 
prior to announcing any such action.


    Question. Press reports indicate that Russian negotiators pressed 
for general limits on future U.S. missile defense deployments, but that 
this was rejected by the United States. The Russian side then 
reportedly sought general language in the treaty that a future U.S. 
national missile defense system would not threaten Russia's strategic 
deterrent. The United States rejected this proposal as well. Why did 
the United States resist the inclusion of general assurances in the 
treaty that any future U.S. national missile defense system would not 
threaten Russia's strategic nuclear deterrent?
    Is there any thought that, in the future, a missile defense system 
may well be deployed that would threaten Russia's strategic nuclear 
deterrent?

    Answer. The U.S. missile defense program is designed to deal with 
limited rogue-state missile threats. We are talking about being able to 
intercept handfuls, not hundreds, of missiles. U.S. missile defenses 
will not threaten Russia's security.
    With respect to the absence of any reference to missile defense in 
the Moscow Treaty, the Administration's view is that missile defense 
deployments are necessary to deal with the emerging third world missile 
threat. We are not willing to agree to any limitations on our ability 
to counter this threat. The Russian Federation and the United States 
have moved beyond our Cold War relationship into a new strategic 
framework built on the principles of mutual security, trust, openness, 
cooperation and predictability rather than military confrontation. We 
believe that placing missile defense limitations on ourselves or the 
Russians in the Moscow Treaty would not have served our mutual goal of 
moving beyond Cold War thinking. The Administration's view is that the 
United States and Russia should not view their respective defense 
programs in terms of each other in the manner we did when we were Cold 
War adversaries.
    While the Moscow Treaty does not address missile defense, that 
subject is addressed in the U.S. and Russian Presidents' May 24, 2002 
joint declaration on the new strategic relationship between the United 
States and Russia. We agreed with Russia to implement measures aimed at 
strengthening confidence and increasing transparency in the missile 
defense area. The declaration also notes our agreement to study 
possible areas for missile defense cooperation.


    Question. The sixth preambular paragraph in the Treaty cites the 
Joint Statement by the two Presidents on Strategic Issues of July 22, 
2001, which reads:

          We agreed that major changes in the world require concrete 
        discussions of both offensive and defensive systems. We already 
        have some strong and tangible points of agreement. We will 
        shortly begin intensive consultations on the interrelated 
        subjects of offensive and defensive systems.

    Why was this citation included in the Treaty? What is its legal 
effect?
    Does the United States continue to believe that offensive and 
defensive systems are ``interrelated subjects?''
    How, if at all, will future developments regarding U.S. missile 
defense systems affect the implementation of this treaty? How will they 
affect any further reductions in, or agreements on, strategic offensive 
forces?

    Answer. The sixth preambular paragraph recognizes the Joint 
Statements made by Presidents Bush and Putin in Genoa on July 22, 2001, 
and in Washington, DC on November 13, 2001, that detail the new basis 
for relations between the United States and Russia. This preambular 
language does not impose any restrictions or obligations relating to 
missile defense programs.
    Offensive and defensive systems are ``interrelated subjects'' in 
that the development of effective missile defenses will reduce our 
dependency on strategic forces for maintaining an effective deterrent. 
Missile defenses will play an increasing role in the deterrence of WMD 
attack. What is new is that our deterrence calculus has changed. We are 
now working to transform our nuclear posture from one aimed at 
deterring a Soviet Union that no longer exists, to one that is part of 
a New Triad designed to deter new adversaries that may no longer be 
discouraged solely by the threat of U.S. nuclear retaliation. The 
United States and Russia acknowledge that today's security environment 
is fundamentally different from that during the Cold War; consequently, 
they are taking steps to reflect the changed nature of the strategic 
relationship between them, including possible areas for missile defense 
cooperation.
    Future developments in missile defense systems are not tied to, and 
will not affect the implementation of, the Moscow Treaty.
    The United States and Russia both intend to carry out strategic 
offensive reductions to the lowest levels possible, consistent with 
national security requirements and alliance obligations, and reflecting 
the new nature of our strategic relations. We believe U.S. missile 
defenses capable of defending the United States, its friends and 
allies, and our forces abroad, in conjunction with the development of 
the new U.S. approach to strategic deterrence and an improved 
relationship with the Russian Federation, will enhance the possibility 
for further reductions in strategic offensive forces.


    Question. Was your testimony coordinated with the other affected 
departments and agencies of the Executive branch? If not, why not?

    Answer. My July 9 testimony was coordinated with the other affected 
departments and agencies of the Executive Branch, following standard 
procedures for interagency coordination.


    Question. Are there any related or side agreements with regard to 
this Treaty which have not been submitted to the Senate? If so: please 
explain and provide the relevant texts.

    Answer. No side agreements of any sort exist with regard to this 
Treaty. The Treaty stands alone.


    Question. Are there any significant interpretive statements made by 
an authorized U.S. official in connection with the negotiation of this 
treaty, other than those submitted to the Senate with the treaty 
itself, of which the Committee should be aware? If so, please explain 
and provide the relevant texts.

    Answer. No.

</pre></body></html>
